<html>
<title> - SECURE WATER ACT</title>
<body><pre>[Senate Hearing 111-592]
[From the U.S. Government Publishing Office]


 
                                                        S. Hrg. 111-592 
                            SECURE WATER ACT 
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY ON THE BUREAU OF RECLAMATION'S IMPLEMENTATION OF THE 
    SECURE WATER ACT, TITLE 9501 OF P.L. 111-11, AND THE BUREAU OF 
 RECLAMATION'S WATERSMART PROGRAM, WHICH INCLUDES THE WATERSMART GRANT 
      PROGRAM, THE BASIN STUDY PROGRAM, AND THE TITLE XVI PROGRAM

                               __________

                             MARCH 16, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-190 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  DEBBIE STABENOW, Michigan, Chairman

BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, ARIZONA
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Connor, Michael L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     4
Entsminger, John, Representing the Colorado River Basin States...    30
Kassen, Melinda, J.D., Director, Western Water Project, Trout 
  Unlimited......................................................    12
Keppen, Dan, Executive Director, Family Farm Alliance............    17
Pack, Anthony J., General Manager, Eastern Municipal Water 
  District.......................................................    33
Stabenow, Hon. Debbie, U.S. Senator From Michigan................     1
Wyden, Hon. Ron, U.S. Senator From Oregon........................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    53


                            SECURE WATER ACT

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Debbie 
Stabenow presiding.

 OPENING STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Good morning. We are very pleased to have 
all of you with us, and we thank our distinguished panel this 
morning.
    Today's hearing is an oversight hearing to receive 
testimony on the Bureau of Reclamation's implementation of the 
SECURE Water Act and the Bureau of Reclamation's water 
conservation initiative known as the WaterSMART program.
    Senator Risch is our ranking member today and will be 
joining us shortly, and I will turn it over to him for comments 
and in a moment to our chairman, distinguished chairman whose 
leadership has brought us the SECURE Water Act. We are very 
pleased to have Senator Wyden with us this morning as well.
    We all know that water is a precious resource for all of 
us, and the legislation, the SECURE Water Act, authored by our 
chairman, Senator Bingaman, is a very important piece of 
legislation to protect that resource.
    This law, enacted last year, expands the tools available to 
increase water use efficiency, acquire additional water use 
data, improve water management, and enhance our understanding 
of climate change impacts on water availability and energy 
production in the United States.
    Simulations suggest that water supplies could be 
significantly affected by climate change over the course of the 
coming decade. So it is important to try to address these 
issues right now. The Department of Interior's WaterSMART 
initiative is designed to tackle the challenges of water issues 
today.
    We have a great group of witnesses. We appreciate your 
being here. Before turning it over to our witnesses, let me 
call on our chairman, Senator Bingaman.
    [The prepared statement of Senator Risch follows:]
   Prepared Statement of Hon. James E. Risch, U.S. Senator From Idaho
    Senator Stabenow, it's a pleasure to be here today, and I thank you 
for chairing this important hearing.
    I am pleased to join you in welcoming the witnesses and members of 
the public. I know Chairman Bingaman has a lot of interest in this 
hearing, in particular as it relates to the implementation of the 
Secure Water Act.
    This oversight hearing provides us an opportunity to examine what 
the US Bureau of Reclamation is currently undertaking to ensure we have 
access to a reliable, safe and secure water supply, while maintaining 
and preserving the natural habitats of some of our nation's most 
valuable wildlife.
    However, as we address the role of Reclamation in providing a 
reliable water supply, we need to ensure the government and its 
agencies recognize water resources are the responsibility of the 
individual state and the citizens and groups within that state.
    Allocation decisions and recommendations on all water resources 
projects and their management should be a state decision. Each federal 
agency, including the Bureau of Reclamation, must recognize and work 
within the state's own water resources planning structure.
    In Idaho, our lakes, rivers and streams are a critical natural 
resource for all of our state. How Idaho rivers build into the greater 
Columbia Basin impacts the entire northwest region. This relationship 
provides great opportunities and challenges that need better 
understanding.
    Once again, I thank the witnesses for coming today. And thank you, 
Senator Stabenow, for conducting this hearing. I look forward to 
today's testimony.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Stabenow. Thanks 
for holding this hearing and chairing it.
    This is an important issue, and it is great to have Mike 
Connor back here. He worked hard on this, of course, and is the 
reason that we were able to get this legislation put together. 
Now, of course, the Bureau of Reclamation, with him as the head 
of that bureau, has the job of trying to implement this 
legislation.
    So I do think it is an extremely timely subject and one 
that is very important for my State of New Mexico and for the 
entire West and the entire country. So I look forward to 
hearing all the witnesses and learning what we can about how we 
are doing with the vision that we had in enacting the 
legislation.
    Thank you very much.
    Senator Stabenow. Thank you very much, Chairman Bingaman.
    Senator Wyden, if you wanted to make a comment, we would 
welcome it.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Madam Chair, and I 
appreciate the courtesy of being able to come.
    Water is of enormous importance to our area, as Dan Keppen, 
who I will introduce in just a moment, knows. I think it is 
fair to say that at home in Oregon, we probably wish that some 
of the snow that fell in Washington, DC, in February had 
somehow migrated to our part of the world.
    I think you are going to enjoy, Madam Chair, Dan Keppen, an 
Oregonian. He is representing today the Family Farm Alliance. 
There is probably nobody in the solar system who knows more 
about water and agriculture issues in our State than Dan.
    Senator Merkley and I are working together to get 
assistance for the farmers in the hard-hit Klamath area from 
the Federal agencies. It brings home the stark fact that every 
gallon of water is a precious thing.
    Just very briefly, Madam Chair, in our part of the world, 
disputes in the West about taking water from a river used to be 
resolved with a gun. Now they tend to be resolved with steel 
pipe and water conservation projects, and that is why, as you 
noted, the WaterSMART program is such an extraordinary 
breakthrough in terms of water management.
    In our part of the country, with the help of the bureau, 
the Central Oregon Irrigation District's Juniper Ridge Project 
in the Deschutes Basin is going to replace 2.5 miles of 
irrigation canal with steel pipe and return an additional 12.7 
million gallons of water in the river during the 6-month 
irrigation season.
    Water conservation efforts in Oregon, though, don't just 
begin or end with modernizing irrigation canals. The city of 
Hermiston, where I just had a town meeting, has proposed a new 
water treatment plant that is going to deliver enough 
additional water to the local irrigation district to irrigate 
600 acres of high-value crops.
    So what we are going to hear from our witnesses today is 
new approaches to sustaining the farm economy in the rural 
West, not just in Hermiston, but in a variety of western areas 
that certainly face an uncertain future because of dwindling 
water supplies.
    The House has already passed legislation to authorize that 
Hermiston project, and I look forward to the committee taking 
action on companion legislation I have introduced, S. 1573, to 
do the same.
    One final point, it is very good that we have Mike Connor 
at his post, working on these issues. In my view, the 
administration has made an excellent choice. Mike knows that 
all of us on the committee are ready to work with him to truly 
make water conservation one of the tools that our States can 
use to make our rural communities economically viable while we 
preserve our natural treasures.
    So, Madam Chair, you are kind to let me, in effect, barge 
in and make this statement. You have got a great panel of 
witnesses, and I look forward to working with you and them and 
particularly appreciate Dan being back here. He is somebody who 
has consistently given me good counsel on water and ag issues 
over the years, and we appreciate him being included.
    Senator Stabenow. Thank you very much for your leadership 
as well.
    Mr. Keppen, you have a high threshold now. The solar 
system, I think, is what Senator Wyden said.
    [Laughter.]
    Senator Stabenow. So that is a pretty high bar.
    First, we are going to hear from Mike Connor, the 
Commissioner of Reclamation. Next, we will hear from several 
witnesses who represent water users and important interest 
groups that have a stake in dealing with water supply issues.
    Ms. Melinda Kassen, the managing director of Western Water 
Project of Trout Unlimited in Boulder, Colorado. Welcome.
    Mr. Dan Keppen, who is in the solar system an executive 
director of the Family Farm Alliance, Klamath Falls, Oregon.
    Mr. John Entsminger, deputy general counsel to the Southern 
Nevada Water Authority, representing the Colorado River Basin 
States in Las Vegas, Nevada. Welcome as well.
    Mr. Tony Pack, general manager of the Eastern Municipal 
Water District in Perris, California.
    So, we welcome all of you, and we will turn it now to Mr. 
Connor. Welcome.

    STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you very much.
    Madam Chairwoman, members of the subcommittee, Chairman 
Bingaman, Senator Wyden, I appreciate the opportunity to be 
here. I am Mike Connor, the Commissioner of the Bureau of 
Reclamation.
    As a threshold matter, I would just like to say I 
appreciate the high expectations, and I have a new appreciation 
for the implementation side of things, as opposed to the idea 
creation on the legislative side of things.
    But I am pleased to be here to discuss Reclamation's 
implementation of the SECURE Water Act and its relation to the 
department's WaterSMART program, an initiative that was 
announced just a few weeks ago. My written statement has been 
submitted for the record, and I will summarize it briefly.
    The WaterSMART program stands for Sustain and Manage 
America's Resources for Tomorrow. We believe it will assist 
local communities in stretching limited water supplies and help 
alleviate conflicts over water. The initiative is highlighted 
in the fiscal year 2011 budget request.
    The American West is now the fastest-growing region of the 
country and faces serious water challenges. Extended droughts 
are impacting water availability, and climate change is likely 
to compound the situation. At the same time, there is an ever-
increasing competition for limited water resources. 
Environmental needs are much more apparent, population is 
growing, energy needs are on the increase, and regions of the 
West that have been relying on groundwater are seeing aquifer 
levels decline significantly.
    With respect to climate change, the most immediate impact 
will be on the hydrologic cycle. In the western United States, 
rising temperatures are increasing evaporation and perhaps the 
severity of recent droughts. A greater portion of winter 
precipitation is falling in the mountains as rain rather than 
snow, reducing the winter snowpack. Winter low temperatures are 
rising, and the snowpack is melting earlier.
    Collectively, these trends for precipitation and 
temperature are producing earlier runoff, making it harder to 
use the winter precipitation later in the summer. These changes 
require new approaches to water management.
    The SECURE Water Act was developed with these water related 
challenges in mind. Fundamentally, it provides authority to 
ensure that Federal water and science agencies work together 
with the States and local water managers to plan for climate 
change and other threats to water supplies. Ultimately, 
Reclamation's goal in implementing the SECURE Water Act and the 
WaterSMART initiative is to promote certainty and 
sustainability in the use of limited water resources, whether 
it be for agricultural, municipal, industrial, environmental, 
or power generation purposes.
    Science is fundamental to effective water management, and 
Reclamation will be expanding its research into the effects of 
climate change on the water cycle. Some highlights of the 
research program include, one, creation of downscaled climate 
projection archives. This is an archive of global climate model 
projections downscaled to scales that are useful for water 
management.
    Two, evaluations of global climate model projections to 
determine how flood frequencies may change in the 21st century 
and, 3, evaluation of whether the ability to predict water 
supply is diminished by climate change, and the identification 
of possible new, more accurate methods of prediction.
    Reclamation will use the activities described above and 
other available data to undertake West-wide Climate Change Risk 
Assessments. As required by the SECURE Water Act, these 
assessments will provide for all of the major river basins in 
the West initial projections of how climate change will affect 
temperature and precipitation, water supply, and water demand. 
These assessments will also include reconnaissance-level 
analysis of how project operations and environmental conditions 
may be affected by changes in hydrologic conditions.
    Building on basic scientific information, WaterSMART 
includes Reclamation's Basin Studies program by which 
Reclamation is partnering with an array of stakeholders to 
conduct comprehensive studies that evaluate the impacts of 
climate change and define options for meeting water demands in 
the specific river basins in the West.
    The Basin Studies will identify adaptation strategies to 
resolve basin-wide water supply issues, including changes to 
the operation of water supply systems, modifications to 
existing facilities, development of new facilities, or 
nonstructural changes. In fiscal year 2009, Reclamation 
provided $3 million in funding to initiate the first 3 basin 
studies--Colorado River Basin, the Yakima River Basin in 
Washington, and the St. Mary's and Milk River systems in 
Montana.
    Although a better understanding of water resources is 
critical, improved water management is an ongoing process with 
immediate opportunities. Simply put, maximizing the efficient 
use of water is essential to any adaptation strategy.
    Currently, Reclamation is implementing projects to help 
advance water conservation and water reuse through the 
WaterSMART initiative. Reclamation's Fiscal Year 2011 request 
for the WaterSMART program is $62 million, of which $6 million 
is slated for the Basin Studies program I just discussed. The 
balance of the $62 million request is for projects to improve 
water management, including $27 million for WaterSMART grants 
and $29 million for the Title XVI program.
    WaterSMART grants, which were previously known as challenge 
grants, will continue to provide cost-shared funding for on-
the-ground projects. To date, the grants have enabled huge 
strides in water conservation, water marketing among willing 
sellers and buyers, and have helped build projects that improve 
water management while incorporating renewable energy aspects 
or addressing endangered species needs.
    Since 2004 through fiscal year 2009, over $74 million in 
Federal funding has been awarded to 167 grant projects for 
improvements in 16 western States. The improvements resulting 
from these grants are projected to conserve approximately 
580,000 acre-feet per year when fully constructed.
    Reclamation committed $40 million of its $950 million 
Recovery Act appropriation to the grant program, and as 
evidence of the program's popularity, Reclamation received 
funding requests exceeding $350 million for that $40 million 
opportunity. The grants will leverage Federal funding by 
requiring a minimum 50 percent non-Federal cost-share 
contribution.
    I will quickly summarize since I am running out of time.
    Title XVI provides authority for Reclamation's water 
recycling and reuse program and is the third major component of 
the WaterSMART program. Reclamation currently has a backlog of 
$626 million in authorized Title XVI projects, even after the 
allocation of $135 million in Recovery Act funds.
    Overall, Federal investment in Title XVI has totaled about 
$524 million and resulted in an estimated 245,000 acre-feet 
annually of recycled water. We project that to grow to 350,000 
acre-feet through fiscal year 2011. The administration 
recognizes the success of this program and, for that reason, 
has significantly increased the budget request for these 
projects in 2011.
    Obviously, there is a lot going on with respect to the 
SECURE Water Act and the WaterSMART initiative. My written 
statement provides greater details.
    Thank you for the opportunity to discuss the programs, and 
I will answer questions at the appropriate time.
    [The prepared statement of Mr. Connor follows:]
   Prepared Statement of Michael L. Connor, Commissioner, Bureau of 
                Reclamation, Department of the Interior
    Madam Chairwoman and Members of the Subcommittee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation (Reclamation). I am pleased 
to be here today on behalf of the Department of the Interior 
(Department) to discuss the WaterSMART Program and the Department's 
efforts through that program to implement the Secure Water Act (Title 
IX, Subtitle F of Public Law 111-11). The WaterSMART Program (Sustain 
and Manage America's Resources for Tomorrow) will assist local 
communities in stretching water supplies, and is highlighted in the 
fiscal year 2011 Budget request released by the President. The FY 2011 
Budget provides a total of $73 million for the WaterSMART Program, $62 
million for Reclamation and $11 million for the U.S. Geological Survey 
(USGS).
    The FY 2011 Bureau of Reclamation Budget provides:

  <bullet> $29 million for water recycling and reuse projects (Title 
        XVI);
  <bullet> $27 million for competitive WaterSMART grants (formerly 
        called challenge grants); and
  <bullet> $6 million for water basin studies.

    Through its WaterSMART program, the Department of the Interior has 
set an ambitious high priority performance goal of conserving up to 
350,000 acre-feet of water by 2012.
    The USGS also has $11 million in its FY 2011 Budget for its 
scientific endeavors under the WaterSMART program. I will discuss the 
Reclamation and USGS efforts related to the Secure Water Act and the 
WaterSMART program in detail later in this statement.
Water Security: Challenges Ahead and the Need for Coordinated Action
    I want to start by briefly discussing the factors that led Congress 
to enact the Secure Water Act and that spur our commitment to use the 
levers we have available as a federal agency to confront water 
management challenges. The American West is now the fastest growing 
region of the country and faces serious water challenges. Competition 
for finite water supplies, including water for environmental needs, is 
increasing as the need for water continues to grow. At the same time, 
extended droughts are impacting water availability and climate change 
is likely to compound the situation. As our climate changes and the 
earth warms, the most immediate impact is on the hydrologic cycle. 
Warming impacts where precipitation falls, how much falls, in what 
form, and the rate of consumption. These changes directly affect the 
water supply available for drinking, irrigating crops, generating 
electricity, supplying industry, terrestrial and aquatic habitats, and 
filling our lakes, rivers, and aquifers.
    In the Western United States, these changes are not just 
anticipated for the future, but are being measured today:

  <bullet> Average temperatures are rising, thereby increasing 
        evaporation and perhaps increasing the severity of recent 
        droughts;
  <bullet> A greater portion of winter precipitation is falling in the 
        mountains as rain rather than snow, reducing the winter 
        snowpack;
  <bullet> Winter low temperatures are rising, and the snowpack is 
        melting earlier in the spring; and
  <bullet> Collectively, these trends for precipitation and temperature 
        are producing earlier runoff, making it harder to use the 
        winter precipitation later in the summer (i.e. reducing the 
        capacity for natural storage).

    And the Western States are not alone in experiencing water supply 
challenges. In 2007, parts of Georgia, Alabama, North Carolina, South 
Carolina and Tennessee, traditionally water-rich states, had their 
lowest annual rainfall on record, and streamflows in many areas were at 
all-time lows. As recently as 2008, low precipitation in Georgia, 
Alabama, and Florida and conflicting demands for water for metropolitan 
supply, agricultural demands, power generation, and ecosystem needs 
resulted in litigation costing those States millions of dollars. 
Neither the East nor the West is immune to water shortages. That is why 
a national program is so important.
    It is interesting to note that the majority of irrigation 
withdrawals and irrigated acres are still in the Western states, but 
significant increases in irrigation have occurred in several eastern 
and southern states. According to a recent USGS report, ``Estimated 
Uses of Water in the United States in 2005,'' Circular 1344, irrigation 
withdrawals declined by nearly 6 million AF in the 17 Western States 
from 1995 to 2005, while they increased by 4.5 million AF in the 31 
eastern States during this decade. Irrigated acres in the 17 Western 
States increased steadily to a peak of nearly 49 million acres in 1980, 
and varied from 45 to 47 million acres since then. On the other hand, 
irrigated acres in the 31 Eastern States have steadily increased in 
each reporting year, gaining nearly 3.4 million acres between 1995 and 
2005 when nearly 16 million acres were irrigated.
    The science is quite clear that climate change will add to the 
challenges we face today in managing our water supply, water quality, 
flood risks, wastewater, aquatic ecosystems, and energy production. 
These new stresses are likely to be felt first in the fastest growing 
region of the nation--the West. The Western States accounted for 32% of 
the nation's population growth from 1990 to 2000, with some of the 
fastest growth in the driest areas.
    The fundamental purpose of the Secure Water Act is to provide 
authority so that the Federal water and science agencies can work 
together with the States and local water managers to plan for climate 
change and the other threats to our water supplies, and take action to 
secure our water resources for the communities, economies, and the 
ecosystems they support.
    The Department of the Interior's strategy for implementing the 
Secure Water Act includes collaboration among agencies to enhance 
climate change science, which will allow us to better assess the 
threats to our water systems and implement mitigation strategies. The 
particular areas of concern are:

  <bullet> Water supply, including both surface storage and groundwater 
        aquifers;
  <bullet> Generation of hydroelectric power;
  <bullet> Cooling water for thermal power plants;
  <bullet> Water required for development of new energy sources;
  <bullet> River flows to maintain ecosystems and water quality;
  <bullet> Recreational use of lakes and rivers; and
  <bullet> Protection from floods and rising sea levels.
                       introduction to watersmart
    Given increased demands for water from growing populations and 
energy needs, amplified recognition of environmental water 
requirements, and the potential for decreased supplies due to drought 
and climate change, a water balance cannot be achieved without water 
conservation and water reuse. Federal leadership is critical to 
widespread acceptance and implementation of effective conservation and 
recycling techniques. The purpose underlying the Department's 
WaterSMART Program is to work to achieve a sustainable water strategy 
to meet our Nation's water needs.
    Reclamation's WaterSMART Program includes WaterSMART Grants, the 
Basin Studies Program, including West-wide Climate Change Risk 
Assessments (WWCCRA), and the Title XVI Water Recycling and Reuse 
Program, which will be discussed at the end of this Statement. 
Reclamation will also partner with States, tribes and local entities 
under WaterSMART to develop incentives and best practices for 
implementing water conservation and water recycling projects. USGS will 
also play an important role through the USGS WaterSMART Availability 
and Use Assessment program. An interdisciplinary science approach will 
be used to implement this assessment.
    The remainder of this statement will discuss the Department of the 
Interior's implementation of the Secure Water Act, including the 
relevant programs that fit within the WaterSMART framework. We have 
grouped the federal programs discussed to reflect the following 
overarching goals: Collaboration among Federal Water Agencies, 
Enhancing Climate Change Science, Assessing and Preparing for Threats 
to the Water Supply, and Implementing Mitigation Strategies.
               collaboration among federal water agencies
    The Secure Water Act requires increased collaboration among the 
Federal water agencies. Reclamation is working closely with the lead 
science agencies in the areas of climate and water, namely the USGS and 
the Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA), through the NOAA-led interagency National 
Integrated Drought Information System (NIDIS) and NOAA's Regional 
Integrated Sciences and Assessments (RISA) university centers to ensure 
that the best information and science is available for water 
management. As contemplated by the Act, collaboration will also extend 
to applicable State and local entities, non-governmental organizations 
(NGO's), academic institutions and tribes.
    These partnerships will also build on collaborations that have 
already begun:

  <bullet> Together with the United States Army Corps of Engineers 
        (USACE), NOAA, and the USGS, Reclamation has formed the Climate 
        Change and Water Working Group (C-CAWWG) to bring the water 
        managers and climate scientists together to create efficient 
        research and development (R&D) collaborations and information 
        sharing across the federal agencies toward understanding and 
        addressing climate change impacts on Western water supplies and 
        water use.
  <bullet> Reclamation, the USACE, NOAA and the USGS collaborated to 
        write Climate Change and Water Resources Management: A Federal 
        Perspective, USGS Circular 1331. This report represents the two 
        primary water ``operating agencies'' and the two primary water 
        ``science agencies'' collaborating to address the need for a 
        comprehensive assessment of approaches for including climate 
        change in water resources management.
  <bullet> As part of CCAWWG coordination, Reclamation and the USACE 
        are developing detailed descriptions of information and tools 
        that water managers need from the science agencies and other 
        researchers. Perspectives from both State and local water 
        managers will also be sought and included in this report.
  <bullet> Reclamation is working with the USGS and NOAA, including 
        NOAA's RISA program to develop a Climate Change Training 
        program for water managers. In discussions with water managers, 
        a credible, consistent source of climate information and 
        training is always one of the highest priorities identified.
  <bullet> Reclamation is providing input to NOAA as it plans for the 
        next generation of Global Circulation Models (GCMs) to define 
        the types of outputs that will be of most value to water 
        managers.
  <bullet> Reclamation is participating in the Postdocs Applying 
        Climate Expertise (PACE) Fellowship program with NOAA to 
        sponsor research activities focused on water management needs. 
        There are currently three active postdocs participating in this 
        program--two focused on water supply questions for the Colorado 
        River Basin and one studying potential changes to extreme 
        precipitation events.
                    enhancing climate change science
Reclamation's Role
    Reclamation will expand its research into the effects of climate 
change on the water cycle and how that may be managed for now and in 
the future. Some highlights of the research program and research 
underway include:

  <bullet> Creation of a downscaled climate projection archive. This is 
        an archive of GCM projections downscaled to spatial scales 
        useful for water management analyses;
  <bullet> Evaluations of global climate model projections to determine 
        how flood frequencies may change in the 21st century;
  <bullet> Evaluation of whether our ability to predict water supply is 
        being diminished by climate change, and identification of 
        possible new, more accurate methods; and
  <bullet> Evaluation of how various hydrologic forecast models perform 
        under climate change scenarios, leading to more informed 
        choices among models.
The USGS Role
    The USGS will bring its science to bear on water cycle climate 
effects through its participation in the Department's Energy and 
Climate Change Council, which is coordinating activities within and 
across the bureaus to develop and implement an integrated strategy for 
climate change and energy response by the Department. Close 
coordination between this Council and the WaterSMART Program is a 
Departmental priority. Finally, at Congressional direction, the USGS 
created a National Climate Change and Wildlife Science Center (NCCWSC) 
to meet the climate adaptation science needs of resource managers. The 
USGS engaged Federal agencies, States, Tribes, NGOs, and others to 
design the structure and operations of the Center. Over the next two 
years, the Department will establish five of the proposed eight 
regional Climate Science Centers (CSCs) that will be staffed by USGS 
and partner scientists and information specialists to deliver basic 
climate-change-impact science. All of these measures will aid us in 
determining the effects of climate change on the water cycle.
        assessing and preparing for threats to the water supply
West-wide Climate Change Risk Assessments (Section 9503(b)(1)-(3) of 
        Secure Water Act)
    Reclamation will use the research and development activities 
described above to undertake West-wide Climate Change Risk Assessments. 
These assessments will provide consistent projections for all of the 
major river basins in the West of how climate change will affect:

  <bullet> Temperature and precipitation;
  <bullet> Water supply; and
  <bullet> Water demand and consumptive use.

    These assessments will also include reconnaissance-level analysis 
of how water project operations may be affected.
    This information will provide a sound and consistent foundation for 
the Basin Studies and other planning activities that will formulate 
local and regional mitigation strategies to address climate change and 
other threats to our water supplies.
Basin Studies ($6 million in the FY 2011 Budget) (Section 9503(b)(1)-
        (4) of Secure Water Act)
    Through the Basin Study Program, Reclamation will partner with 
basin stakeholders to conduct comprehensive studies to evaluate the 
impacts of climate change and define options for meeting future water 
demands in river basins in the West. The Basin Studies will identify 
adaptation strategies to resolve basin-wide water supply issues, 
including changes to the operation of water supply systems, 
modifications to existing facilities, development of new facilities, or 
non-structural changes. The Basin Studies will build on the West-wide 
Risk Assessments to develop basin-specific strategies to help meet 
water demands. By encouraging input from basin stakeholders, the Basin 
Studies will also build capacity and collaboration in the process of 
identifying water management solutions.
    In FY 2009, Reclamation provided funding to initiate the first 
three basin studies under this program, including:

  <bullet> The Colorado River Basin Water Supply and Demand Study ($1 
        million Reclamation, $1 million matching) covering portions of 
        Arizona, California, Colorado, Nevada, New Mexico, Utah and 
        Wyoming;
  <bullet> Yakima River Basin Study and Associated Basin Restoration 
        Implementation Plan, covering south central Washington ($1.3 
        million Reclamation, $1.3 million matching); and
  <bullet> Modeling for the Future of the Milk and St. Mary River 
        Systems in north central and southern Montana ($350,000 
        Reclamation, $350,000 matching).

    The Colorado River study provides an ideal example of the 
collaborative process that we will employ under the Basin Study 
Program. The study encompasses the Colorado River Basin (upper and 
lower) and those areas of the seven basin states--Wyoming, Colorado, 
Utah, New Mexico, Arizona, Nevada, and California (Basin States)--that 
receive Colorado River water. Cost-share partners include each of the 
seven Basin States. The proposal is to complete a comprehensive review 
of water supply and current and long-term demands through 2060 within 
the Colorado River Basin; to assess options for resolving water supply 
imbalances; and to develop recommendations for future consideration to 
address current and projected imbalances. Paramount to the study is an 
assessment of the potential impacts of climate variability and climate 
change on water supplies and demands, including impacts on hydropower.
WaterSMART Water Availability and Use Assessment Initiative
    To answer the question, ``How much water do we have in the United 
States?'' the USGS will put together a cohesive national picture of 
water availability and how it varies across our country through a new 
initiative called the WaterSMART Water Availability and Use Assessment. 
Many factors affect the amount of water that is available--
precipitation patterns, streamflows, groundwater availability, and land 
uses. Trends in availability are already apparent in many locations 
across the country. The WaterSMART Water Availability and Use 
Assessment Initiative will account for the changing amount, quality, 
and use of water resources across the Nation. It gives a standard way 
for the Nation to understand water availability using measurements or 
estimates of the different components of the water cycle, including 
precipitation, surface water, and groundwater. The key components of 
this initiative include:

  <bullet> A nationwide system to deliver information about the water 
        availability factors that every manager needs to know when 
        dealing with availability questions--precipitation and 
        evapotranspiration, surface-water runoff and baseflows, 
        recharge to groundwater and changing storage in aquifers.
  <bullet> Increased knowledge of water-use science--withdrawals, 
        demands, consumption, and return flows.
  <bullet> An investment in the science of ecological flows.
  <bullet> A new grant program for State water resource agencies to 
        assist them with critical work on their water use databases.
  <bullet> A series of ``focus area'' studies where there is a desire 
        on the part of watershed stakeholders to conduct a 
        comprehensive three-year technical assessment of water 
        availability with the best available tools. The USGS will work 
        with watershed stakeholders and the various agencies involved 
        in these geographic focus areas to scope and conduct these 
        studies.
                   implementing mitigation strategies
    The science activities just mentioned are necessary to inform the 
management needs that exist with respect to water resources. Improved 
management, however, is an ongoing process and much more can be done 
now. With increased demands for water from growing populations and 
energy needs, amplified recognition of environmental water 
requirements, and the potential for decreased supplies due to drought 
and climate change, a certainty and sustainability with respect to the 
use of water resources cannot be achieved without water conservation 
and water reuse. Federal leadership is critical to widespread 
acceptance and implementation of effective strategies to mitigate the 
impacts of climate change.
WaterSMART Grant Program ($27 million in the FY 2011 Budget)
    WaterSMART Grants (previously Water Conservation Initiative 
Challenge Grants) provide cost-shared funding for the following types 
of on-the-ground projects: (1) water conservation and efficiency 
projects that allow users to decrease diversions and to use or transfer 
the water saved; (2) water marketing projects with willing sellers and 
buyers, including water banks, that transfer water to other uses to 
meet critical needs for water supplies; (3) projects that improve water 
management by increasing the use of renewable energy, by increasing 
operational flexibility (constructing aquifer recharge facilities or 
making system optimization and management improvements), or by 
addressing endangered species and other environmental issues; and (4) 
pilot and demonstration projects that address the technical and 
economic viability of treating and using brackish groundwater, 
seawater, impaired waters, or otherwise creating new water supplies 
within a specific locale.
    WaterSMART Grants leverage Federal funding by requiring a minimum 
of 50 percent non-Federal cost-share contribution. Grants are available 
to States, tribes, irrigation and water districts, and other entities 
with water or power delivery authority. Beginning in 2010, Reclamation 
can also provide cost-shared assistance to universities, non-profits, 
and organizations with water or power delivery authority for research 
activities designed to enhance the management of water resources, 
including developing tools to assess the impacts of climate change on 
water resources, and research that will increase the use of renewable 
energy in the management and delivery of water and power. Additionally, 
to ensure that the most effective conservation and reuse approaches are 
employed, Reclamation will begin partnering with States, tribes and 
local entities to develop incentives and best practices in water 
conservation techniques, water recycling and reuse methodologies, and 
land use policies.
    Since 2004 through fiscal 2009, over $73.8 million in Federal 
funding (including Recovery Act funding) has been awarded to 167 Grant 
projects for improvements in 16 western states. We expect that these 
projects will conserve 540,000 acre-feet per year when fully 
constructed. Reclamation committed $40 million of its $950 million 
Recovery Act appropriation to the Grant Program, and as evidence of the 
Program's popularity, Reclamation received funding requests exceeding 
$350 million for that $40 million opportunity. We are continuing the 
Program in 2010, and will solicit applications for 2010 WaterSMART 
Grants within the next several weeks.
    Based on Reclamation performance data, challenge grants have 
provided a yearly average of 87,273 estimated acre-feet conserved since 
2004. Grant projects include such activities as converting leaky dirt 
canals to pipeline, eliminating water losses due to seepage and 
evaporation to result in substantial water savings; installation of 
measuring devices, including Supervisory Control and Data Acquisition 
(SCADA) systems to improve control over water deliveries and to reduce 
operational spillage; installation of automation technology to allow 
more precise, remote control of water diversions and deliveries; and 
projects involving water marketing such as a pilot water bank in the 
Deschutes River Basin in Oregon aimed at facilitating the voluntary 
transfers of water among users.
Title XVI Water Reclamation and Reuse Program ($29 million)
    Title XVI of P.L. 102-575, as amended (Title XVI), provides 
authority for Reclamation's water recycling and reuse program. The 
Title XVI program is focused on identifying and investigating 
opportunities to reclaim and reuse wastewaters and naturally impaired 
ground and surface water in the 17 Western States and Hawaii. Under the 
program, Reclamation makes available cost-shared funding for planning, 
design, and construction of water recycling projects, as well as 
research and demonstration projects.
    For purposes of the Title XVI program, a water reuse project is a 
project (including the necessary facilities and features) that reclaims 
and reuses municipal, industrial, domestic, or agricultural wastewater 
and naturally impaired groundwater and/or surface waters. Consistent 
with State law, reclaimed water can be used for a variety of purposes, 
such as environmental restoration, fish and wildlife, groundwater 
recharge, municipal, domestic, industrial, agricultural, power 
generation, or recreation. Water reuse is an essential tool in 
stretching the limited water supplies in the West. Title XVI projects 
develop and supplement urban and irrigation water supplies through 
water reuse, thereby improving efficiency, providing flexibility during 
water shortages, and diversifying the water supply. Overall, Federal 
investment in Title XVI has totaled about $524 million through FY 2009, 
and resulted in an estimated 245,000 acre-feet of water made available 
in 2009, a figure that will grow as projects reach full build-out. This 
Administration has significantly increased the budget request for these 
projects in 2011. New criteria Reclamation is developing in 2010 will 
enable us to review and rank Title XVI project funding proposals, and 
fund them. Some of the issues that will be looked at include reducing 
existing diversions or addressing specific water supply issues in a 
cost-effective manner, addressing environmental and water quality 
concerns, and meeting other program goals.
Feasibility Studies
    The Secure Water Act authorizes Reclamation to conduct feasibility 
studies to study the feasibility and impacts of constructing 
infrastructure necessary to address the effects of global climate 
change on water resources. New infrastructure could include the 
construction of water supply or water management facilities, or 
infrastructure to benefit environmental needs or enhance habitat.
    I have described initial efforts of an implementation process that 
will unfold over the coming years. Both the WaterSMART Program and the 
Secure Water Act hold the potential to enable tremendous strides 
forward in preparing both our water supply infrastructure and the 
people who manage it for meeting the challenges of tomorrow.
    Thank you for the opportunity to address the subcommittee. I am 
please to answer any questions you may have.

    Senator Stabenow. Thank you very much.
    I did forget to indicate in the beginning that we do ask 5 
minutes, and we will take your written statements as well so we 
have enough time for questions.
    So, Ms. Kassen, welcome.

  STATEMENT OF MELINDA KASSEN, J.D., DIRECTOR, WESTERN WATER 
                    PROJECT, TROUT UNLIMITED

    Ms. Kassen. Thank you, Madam Chairwoman, Senator Bingaman--
Mr. Chairman--Senator Wyden.
    Thank you for having this hearing today on the SECURE Water 
Act. Trout Unlimited supported SECURE because Reclamation must 
address water availability in light of increased population 
and, whether it is drought or climate change, less water in the 
West.
    I believe that conservation work on the ground will be 
critical to ensuring that SECURE lives up to its promise of 
protecting and restoring ecological resiliency--the phrase in 
the statute--in all of the West's rivers.
    TU is a national not-for-profit conservation organization, 
organized in Michigan, with over 135,000 members, almost all of 
whom are sportsmen and women dedicated to healthy fisheries and 
their habitats. TU started the Western Water Project, which I 
direct, in 1998 to use and improve State water law systems to 
achieve our goal of providing clean, flowing water for native 
and wild trout and salmon. We now operate in 7 States with 25 
staff--lawyers, engineers, and biologists.
    Our approach is less of a top-down one than to work 
collaboratively with land owners to improve stream flows on the 
ground. We have proven this strategy throughout the West. We 
have provided leadership and innovative ideas for partnerships 
to protect and restore flows, which means things like we buy--
help irrigators buy solar pumps that will help them maintain 
their water yield but will also allow a change in diversion 
infrastructure so that stream flows improve.
    These kinds of partnerships, we believe, are key to 
sustaining and restoring ecological resiliency from headwaters 
to deltas. We focus more on the headwaters, but it is the same 
needs throughout the system.
    One of the innovations of SECURE, from our standpoint, was 
that it put ecological resiliency and helping to ensure and 
maintain other environmental--sorry, other water needs at the 
same level in the statute. It was equally important to protect 
ecological resiliency as it was to protect existing yield for 
existing users, and that obviously requires balance. But it is 
different from many previous authorities that have been given 
reclamation, and we see that as an innovation.
    The other innovation that we think is important is that 
Reclamation was directed not just to work with traditional 
States and beneficiaries, but also with other entities who have 
other kinds of interests, like NGO's and nondirect 
beneficiaries. That since our experience, whether in the 
Wenatchee and the Blackfoot in the Little Snake, our 
experiences suggest that having a broader table helps come 
about with solutions. We think that is a terrific approach.
    As Commissioner Connor said, there are currently 3 basin 
studies proceeding. Trout Unlimited is involved in the Yakima 
and in the Colorado River Basin studies. The--I guess we are 
glad that this hearing is happening because we were a little 
disappointed not with the amount and dedication of money for 
this program in the President's new budget, but with the way 
the Colorado River Basin study, in particular, is proceeding.
    Because unlike the Yakima study, where rural economy and 
ecology are sort of twin goals, and it is a big table with 
NGO's and growers and local governments and the States, the 
Colorado River Basin study has 5 program objectives. 
Environmental flows, ecological resiliency are not there. The 
table has been set for the States and Reclamation, and there 
are no NGO's. There are no irrigation districts. Nobody else is 
at the table.
    We are allowed to comment, but as you guys know, it is very 
different to be at the table than to be allowed to say 
something after things have been crafted. So we are hopeful 
that there can be a slight course correction relatively soon 
not only for the Colorado River Basin study, but to make sure 
that all of the new studies that are done under SECURE and all 
of the processes going forward can live up to the mandate of 
SECURE, which was not only to have everyone at the table, but 
to consider ecological resiliency as well as traditional water 
uses.
    Thank you.
    [The prepared statement of Ms. Kassen follows:]
  Prepared Statement of Melinda Kassen, J.D., Director, Western Water 
                        Project, Trout Unlimited
    Madame Chairman Stabenow, Ranking Member Brownback, and 
Subcommittee members, thank you for providing oversight this morning 
for the Bureau of Reclamation's implementation of the SECURE Water Act, 
originally introduced by Chairman Bingaman and passed last year as part 
of the Omnibus Public Land Management Act of 2009 (PL 111-11). Trout 
Unlimited (TU) strongly supported SECURE from its introduction. We 
believe that our work on the ground in the West will be a critical 
component of ensuring that SECURE lives up to its promise of protecting 
and restoring ecological resiliency for western rivers in the face of 
the impacts predicted as a result of climate change.
                               who we are
    TU is a non-profit conservation organization with over 135,000 
members nation-wide, almost all of whom fish and many of whom are 
sportsmen and -women dedicated to the protection and restoration of 
cold water fisheries and their habitats. TU created the Western Water 
Project in 1998 to use and improve state water law systems so that they 
all include the tools needed to achieve our goal of providing clean, 
healthy flowing water for native and wild trout and salmon. TU's 
Western Water Project now operates in seven states and employs 26 
professional staff, including lawyers, engineers and biologists.
                       why tu cares about secure
    A defining feature of TU's Western Water Project is our 
determination not to approach the challenges facing western rivers just 
from the top down, but rather to work collaboratively, on-the-ground 
with landowners to improve stream flows. We have proven the efficacy of 
this strategy throughout the West by providing leadership and 
innovative ideas for enhancing instream flows through partnerships. 
Expanding these kinds of partnerships must be an integral part of 
protecting and restoring the ecological resiliency of the West's 
rivers, from headwaters to deltas. As a result, we believe that non-
governmental organizations (NGO) collaboration with water users will be 
fundamental to the success of SECURE.
    As TU develops projects to reconnect tributary streams to mainstem 
rivers, for example, we work both to improve aquatic habitat and 
increase the efficiency of an irrigator's water delivery system. We 
want our projects to be truly win-win, resulting both in more secure 
water deliveries and in healthier fisheries. In Montana, we are leasing 
water from ranchers in the Blackfoot River to replenish stream flows, 
while also funding improvements to ranchers' irrigation systems. In 
Idaho, we have pioneered the use of the state's water bank to move 
water through rivers in ways that both increase fish habitat and 
restore the depleted Eastern Snake Plain Aquifer. And we have learned 
to harness renewable energy in these projects, so that when we work 
with a landowner to replace a diversion structure that has historically 
dried up a reach of a creek, we can install a solar-powered pump so 
that the producer does not incur fuel costs for delivery of water.
    Our work reconnecting cold water fishery habitat in the headwaters 
of western states improves the resiliency of both native and wild fish. 
Connected habitats allow fish to move within a system, for example, to 
avoid localized drought or fire. Increasing the size of a fishery by 
reconnecting streams over a larger habitat improves the genetic pool 
for the fish, thereby giving them a healthier long term prognosis over 
smaller, more isolated populations. TU is working hard on the ground to 
recover endangered species of trout, but also to keep sensitive species 
from ever being listed. Thus, for example, we sought and won passage of 
a new provision of Utah law that allows fishery organizations to lease 
water from irrigators to improve flows for native species of trout in 
hopes that this will lead to stronger populations of both Bonneville 
cutthroat trout and Colorado River cutthroat trout--species whose 
habitats have declined, but are not yet listed.\1\
---------------------------------------------------------------------------
    \1\ Colorado River Cutthroat Trout currently occupy 16% of the 
subwatersheds in their historical range. See, http://www.tu.org/
science/conservation-success-index/colorado-river-cutthroat. Bonneville 
Cutthroat Trout occupy 35% of their historical range. See, http://
www.tu.org/science/conservation-success-index/bonneville-cutthroat.
---------------------------------------------------------------------------
    Cold water fish in the West will be especially affected by 
increases in temperature; these fish require cold water to survive. For 
this reason, projected impacts from climate change make our work in the 
West of securing robust populations of cold water fish all the more 
pressing. Re-operations of Bureau of Reclamation facilities, such as we 
helped achieve on the South Fork of the Snake River in Idaho early in 
the last decade, provide critical flows of cold water for native trout 
while maintaining water yields for Reclamation's project beneficiaries. 
TU scientists are continuing to use climate models and spatial data to 
anticipate climate-related stressors on native trout so that we can 
develop strategic partnerships to proactively address these 
challenges.\2\
---------------------------------------------------------------------------
    \2\ For more information about TU's Conservation Success Index, 
see, www.tu.org/science/conservation-success-index. For a specific 
example of the work, which shows the status of Colorado River cutthroat 
trout, see http://www.tu.org/science/conservation-success-index/
colorado-river-cutthroat.
---------------------------------------------------------------------------
    Because of the threats associated with a warming climate, including 
warmer water and lower flows, TU strongly supported passage of the 
SECURE Water Act. My staff worked closely with staff for this committee 
to help develop the concepts embodied in SECURE.
                          the secure water act
    Among a host of other excellent programs, SECURE authorizes a 
multi-step process to address projected climate change impacts from 
Reclamation facilities in eight major river basins.\3\ First, the 
Secretary shall analyze climate change impacts in the major river 
basins.\4\ Then, the Secretary shall develop strategies to mitigate 
those impacts.\5\ Next, the Secretary shall conduct feasibility studies 
as to these strategies.\6\ Finally, the Secretary may make grants to 
implement activities that prevent water crises, address climate related 
impacts to water supplies or increase ecological resiliency in the face 
of climate change.\7\
---------------------------------------------------------------------------
    \3\ These basins are listed in Sec. 9502(12)(B).
    \4\ See, Sec. 9503(b)(3).
    \5\ See, Sec. 9503(b)(4).
    \6\ See, Sec. 9503(d).
    \7\ See, Sec. 9504.
---------------------------------------------------------------------------
    TU supported SECURE as important additional authority for 
Reclamation because it requires the agency not only to confront the 
potential impacts of climate change on rivers where Reclamation's 
facilities are located, but also to brainstorm, analyze and ultimately 
implement solutions to the negative impacts of climate change that the 
models and water managers anticipate. Thus,

  <bullet> The Congressional findings in SECURE repeatedly place water 
        for the environment on the same list of important 
        considerations as water supplies for cities and agriculture.\8\
---------------------------------------------------------------------------
    \8\ See, Sec. 9501(1), (2), (3) and (7).
---------------------------------------------------------------------------
  <bullet> The climate change adaptation program that SECURE directs 
        the Secretary to establish, is supposed to ``ensure . . . that 
        strategies are developed . . . to address potential water 
        shortages, conflicts, and other impacts to water users [in], 
        and the environment of, each service area'' (emphasis 
        added).\9\
---------------------------------------------------------------------------
    \9\ See, Sec. 9503(a)(2).
---------------------------------------------------------------------------
  <bullet> The basin analyses must look at impacts both to ``fish and 
        wildlife habitat'' and ``flow and water dependent ecological 
        resiliency,''\10\ along with Reclamation's ability to deliver 
        water to its contractors, generate power, manage flood control, 
        provide recreation, and protect endangered species and water 
        quality.
---------------------------------------------------------------------------
    \10\ See, Sec. 9503(b)(3)(D) and (G).
---------------------------------------------------------------------------
  <bullet> The Secretary is to consult non-Federal participants 
        (including NGOs) about mitigating these impacts, including 
        strategies related to ``habitat restoration plans''\11\ along 
        with reservoir operations, water conservation and water 
        storage;
---------------------------------------------------------------------------
    \11\ See. 9503(b)(4)(B).
---------------------------------------------------------------------------
  <bullet> The Act also authorizes the Secretary to cooperate with non-
        Federal participants to ``conduct . . . studies to determine 
        the feasibility and impact on ecological resiliency of 
        implementing each mitigation and adaptation strategy'' that the 
        Act identifies, and that the Secretary determines to be 
        necessary, to address the effects of climate change on water 
        resources;\12\ and,
---------------------------------------------------------------------------
    \12\ See, Sec. 9503(d)(1).
---------------------------------------------------------------------------
  <bullet> In the grant program for states, tribes and organizations or 
        districts with water or power delivery authority, the Secretary 
        is authorized to make grants and enter agreements for many 
        purposes, including ``to address any climate-related impact to 
        the water supply . . . that increases ecological resiliency to 
        the impacts of climate change.''\13\
---------------------------------------------------------------------------
    \13\ See, Sec. 9504(a)(1)(H)(i). Subsection (a)(3)(B) of Sec. 9504 
limits grants for irrigation improvements so as not to increase water 
for irrigation, but rather to conserve water for other uses, presumably 
municipal, industrial, recreation or ecological resiliency.

    We now look to Reclamation to lead effective implementation of 
SECURE, and to Congress to provide useful oversight and adequate 
funding to bring it to fruition.
    Other important programs in SECURE that TU strongly endorses are 
the climate change and water panel to review, gather and extend 
scientific research regarding the effects of climate change on western 
rivers,\14\ the national streamflow information program of the US 
Geological Survey,\15\ and the national water availability and use 
assessment program.\16\ We will not be able to overcome our challenges 
without data, and each of these programs will improve our understanding 
of what we have now and what the future may bring.
---------------------------------------------------------------------------
    \14\ See, Sec. 9506.
    \15\ See, Sec. 9507.
    \16\ See, Sec. 9508.
---------------------------------------------------------------------------
                    important innovations in secure
    For TU, one of the most important innovations in SECURE is that, 
both for the analysis of impacts and for the development of solutions, 
Reclamation was directed to consider not only affects on water supply 
and yield, but also on the ecological resiliency of the West's rivers. 
SECURE effectively recognized that ensuring healthy environmental flows 
needed to be on the same footing with providing water to sustainable 
agriculture and growing cities. We agree with this principal because 
our work on the ground in rural communities has demonstrated time and 
again, from Washington's Wenatchee to Montana's Blackfoot to Colorado 
and Wyoming's Little Snake, that healthy rivers are an integral 
component of healthy communities. Cities build river walks for a 
reason; even Las Vegas celebrates the location where desert springs 
provided water for a nascent metropolis. And rural communities 
celebrate the waters that run through them as well, from building kayak 
courses through town as has happened in a dozen Colorado towns, to 
promoting river recreation as a critical part of a diversified rural 
economy, as we see in Idaho's Big Lost and Wood River basins.
    Another innovation in SECURE is its directives to Reclamation to 
work on water matters not only with states and project beneficiaries, 
as they have long done, but also with non-governmental organizations. 
We appreciate that SECURE inherently recognizes that the successes of 
TU and other conservation NGO's working in western communities mean 
that we can make a valuable contribution to Reclamation's analyses and 
implementation of the strategies SECURE identifies.
                         current implementation
    The President signed SECURE into law less than one year ago, on 
March 30, 2009, so this process is still in its infancy. Reclamation 
recognized the importance of the new law by moving $3 million in funds 
to Basin Studies and seeking $18 million for the challenge grant 
program established under '9504. TU appreciates that Reclamation is 
taking its responsibilities seriously.
    In fact, when the law was signed, Reclamation had already begun a 
competitive process to choose rivers for basin studies under different 
authority. Last September, it formally announced the winners: the 
Colorado, Yakima and Milk-St. Mary's. (Due to the cold water resources 
in Washington, Colorado, Utah and Wyoming, TU is especially interested 
in the Colorado and Yakima Basin Studies.) While the Basin Study 
processes began under previous authorizations before passage of the 
Act, they have become the vessel into which Reclamation is pouring its 
SECURE efforts Thus, it will be important that these and future Basin 
Studies are modified during implementation to meet all of the goals of 
the SECURE Water Act.
    In its FY11 budget request, Reclamation envisions continuing the 
Basin Studies, expanding its capacity to award grants, and adding some 
west-wide scientific analyses and two, new, not-yet-established 
Landscape Conservation Cooperatives in the Colorado River Basin. With 
regard to the Basin Studies, the Reclamation budget justifications, 
submitted last week, stated:

          Through the Basin Studies, Reclamation will work with States, 
        Tribes and local partners to analyze the impacts of climate 
        change on water and power facilities in the West and identify 
        mitigation strategies to adapt to climate variability and 
        chronic water shortages. Such efforts are critical in Western 
        States as they cope with the impacts of climate change and 
        areas experience record droughts and populations increases. 
        Each study includes state of the art projections of future 
        water supply and demand on a basin-wide scale; analysis of how 
        the basin's existing water and power operations and 
        infrastructure will perform in the face of changing water 
        realities; and recommendations on how to optimize operations 
        and infrastructure in the basin to supply adequate water in the 
        future.\17\
---------------------------------------------------------------------------
    \17\ The U.S. Department of the Interior, Bureau of Reclamation. 
Budget Justifications and Performance Information, Fiscal Year 2011. 
Water and Related Resources, p. 2.

    TU was disappointed with the failure of this description to mention 
the impacts of climate change on environmental flows or the need to 
identify mitigation strategies to maintain or improve ecological 
resiliency.
    Notwithstanding this oversight, the Yakima Basin Study, where the 
sole non-Federal cost-share partner is the State of Washington's 
Department of Ecology, has developed an integrated management plan 
framework, including needs analysis, that specifically proposes 
elements related to fishery habitat restoration and enhancement. The 
workgroup that guides the Yakima study and implementation process also 
includes one conservation NGO (American Rivers) with a long-standing 
presence in the Basin. The challenge for that workgroup will be to 
reach an agreement where the ultimate balance of strategies includes an 
economically efficient mix of traditional responses (e.g., new storage) 
and innovative ones, like conservation and water marketing.
    However, in the Colorado River Basin Study, the basin states and 
non-Federal partners like the Southern Nevada Water Authority (who Pat 
Mulroy on this panel directs) are engaged in a much less open process. 
The first fact sheet that Reclamation released describing the focus of 
the program did not mention either environmental or ecological water 
needs.\18\ The same is true for the five program objectives listed in 
the plan of study.\19\ Moreover, not only are there no conservation 
NGOs at the table, but the stakeholder plan that Reclamation recently 
released provides for public comment,\20\ but not for direct engagement 
in crafting the analyses being done in the next year, or in determining 
which alternatives are ripe for consideration as adaptation strategies. 
While Reclamation's project manager for this study has met with several 
interested conservation NGOs (including TU) about the study, outreach 
we genuinely appreciate, having an opportunity to comment simply does 
not equate to having a seat at the table where the study and strategies 
are shaped.
---------------------------------------------------------------------------
    \18\ See fact sheet link at, http://www.usbr.gov/lc/region/
programs/crbstudy.html.
    \19\ See, http://www.usbr.gov/lc/region/programs/crbstudy/pos.pdf.
    \20\ See, http://www.usbr.gov/lc/region/programs/crbstudy/pip.pdf.
---------------------------------------------------------------------------
    Thus, while Reclamation is just beginning to implement SECURE, TU 
is concerned that, especially in the Colorado River Basin Study, 
because the process began under other authorities, it is proceeding 
without adequate emphasis on ecological resiliency, and without 
providing conservation NGOs with the opportunities that SECURE set out 
regarding the development and assessment of basin strategies.
                            recommendations
    TU is encouraged that Reclamation is taking seriously its authority 
to implement the SECURE Water Act. Obviously, to meet the additional 
challenges that may occur for water needs for cities, irrigators, the 
environment and industry as a result of the predicted impacts due to 
climate change, Reclamation will need to work with all of its partners 
in the West, including NGOs. In addition, Congress will need to provide 
the necessary funding to achieve the goals of SECURE so that we can 
have vibrant cities and rural communities, along with healthy rivers. 
TU is confident in Reclamation's ability to make the adjustments 
necessary to fulfill the goals of SECURE, and supports Reclamation's 
budget request for the WaterSMART program.
    While there are many aspects of its plans that we appreciate and 
endorse, TU believes that Reclamation's implementation of SECURE would 
be substantially improved were it to place appropriate emphasis on 
ecological resiliency, and expand the Basin Studies to bring 
conservation NGOs to the table as they work with the states and project 
beneficiaries to analyze impacts and develop strategies, as well as to 
find the funds necessary for the Secretary to conduct feasibility 
analyses on such strategies. TU believes that our work and that of 
other conservation NGOs demonstrates that we can add substantial value 
to the process of adapting the nation's water supply to the challenges 
posed as a result of drought and increased populations in the West such 
that we should have a seat at the table for these discussions.
    Thank you for the opportunity to testify. I look forward to 
answering your questions.

    Senator Stabenow. Thank you very much.
    Mr. Keppen.

   STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, FAMILY FARM 
                            ALLIANCE

    Mr. Keppen. Good morning, Madam Chair and Senator Bingaman 
and Senator Wyden.
    Great to see you and really appreciate the support of you 
and Senator Merkley on our situation in Klamath. I have got a 
pit in my stomach thinking about it right now, but thank you 
for your leadership.
    The Family Farm Alliance is a group. We are a nonprofit. We 
represent farmers, ranchers, allied industries, irrigation 
districts in the 17 western States. All we are focused on is 
ensuring availability of reliable, affordable irrigation water 
for our western farmers and ranchers.
    Today, I was asked to talk about SECURE Water Act and the 
Bureau of Reclamation's water conservation initiative, and I 
have also been asked to explain a case study that we are 
putting together, which will really have relevance to a lot of 
things that we are talking about today. I have actually 
included 2 of the case studies in the written testimony I 
submitted to you earlier.
    I will start with the SECURE Water Act. My organization has 
twice testified before this committee on climate change and 
water, when Senator Bingaman's legislation was moving through 
the last Congress, and we offered specific recommendations on 
that SECURE legislation as it was being crafted. We were 
pleased to see that many of our recommendations were included 
in the final law, which was signed by President Obama a year 
ago.
    We supported SECURE in part because it provides water 
managers with effective, on-the-ground tools to fix 
infrastructure problems that are further complicated by climate 
change. SECURE expands opportunities for the types of programs 
already funded through Reclamation's WaterSMART grant program, 
and these projects provide for improved water management, 
enhanced supplies, water conservation, and then better 
efficiencies.
    We strongly support SECURE, but we do have questions about 
how this program is being implemented. It is kind of in its 
infancy. Our members want to know where the dollars are being 
spent, what types of programs and projects are receiving 
priority, and most importantly, how can they get involved. In 
particular, I think we would like to see projects that really 
do tie in to Reclamation's core mission of providing water and 
power to their customers.
    We are also curious to see how SECURE is going to fit into 
the bigger picture efforts by Congress to address climate 
change. We think that the goals and programs of the SECURE 
Water Act should actually specifically be included in the 
comprehensive climate legislation that is underway to ensure 
that this program is funded with priority.
    I would like to focus now a little bit on the Reclamation's 
water conservation initiative and, in particular, on the 
WaterSMART grant component. This program, formerly known as a 
challenge grant program, is one that many of our members have 
benefited from in recent years. Appendix B of my written 
testimony summarizes how the Tulare Irrigation District in 
California has really funded a variety of really innovative 
water-saving projects with the assistance of this grant 
program.
    My testimony also identifies some of the shortcomings in 
the administration of this grant program, and we offer 
recommendations on how to address those. They are pretty minor. 
Overall, most of our members have benefited from this 
WaterSMART grant program.
    I believe, really, there is just not enough money in it to 
address the needs that are out there. So, we were pleased to 
see in Reclamation's budget request this year $27 million for 
that program. That is twice as much as what was funded in the 
last fiscal year, and we think that is a great start.
    I was asked by this subcommittee to talk about our case 
study report, and I am in the process of putting that together. 
We are a pretty thin organization, you know? We don't have a 
lot of overhead, a lot of administration staffing. So we are in 
the process of getting it together. It is coming together 
nicely but will be released in the next month or so.
    This report is going to include several case studies that 
highlight real-world examples of water conservation, water 
transfers and markets, aging infrastructure, and water 
restoration and enhancement activities. We are going to 
describe water conservation and management projects that work 
well, especially those that have benefited from WaterSMART 
program grants, and then pass those lessons learned on those 
projects to our partners with the Bureau of Reclamation.
    Our report can further be used to describe the types of 
conservation activities that should be funded under the climate 
change bills currently moving through Congress.
    Finally, we want to describe the complications facing local 
water users, the creative solutions that can be developed to 
meet those problems and offer recommendations that lead to more 
local success stories. One case study in Wyoming, included as 
appendix to my written testimony, describes the efforts of the 
Little Snake River Conservation District to take the lead in 
creating truly holistic watershed solutions.
    This land owner-driven organization is now working 
collaboratively with over 30 different partner organizations, 
including Trout Unlimited, and this example supports an 
important objective of our report. We want to demonstrate that 
water managers, ranchers, and farmers are experienced and 
creative individuals, and they should be looked to as an 
important resource to help resolve the water conflicts of the 
West.
    When we are done, this report will cover about 12 different 
case studies that will span probably every major watershed in 
the western United States.
    The impacts of climate change on western water supplies 
will challenge all water users in the near future. Being 
prepared requires investment and adaptation in the management 
of western water supplies. To survive this trial, our efforts 
need to begin today--before crises, before conflict, and before 
there are winners and losers.
    Unfortunately, in some parts of the West, that may be too 
late. We need to get going quickly, and we think that the 
Reclamation's water conservation initiative is a positive step 
in the right direction.
    Thank you.
    [The prepared statement of Mr. Keppen follows:]
   Prepared Statement of Dan Keppen, Executive Director, Family Farm 
                                Alliance
    Good afternoon, Chairwoman Stabenow, Ranking Member Brownback, and 
Members of the Subcommittee. My name is Dan Keppen, and I serve as 
executive director of the Family Farm Alliance (Alliance).
    The Alliance is a grassroots organization of family farmers, 
ranchers, irrigation districts and allied industries in 16 Western 
states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental and 
national security reasons--many of which are often overlooked in the 
context of other policy decisions.
    I would like to acknowledge and thank Alliance Members Dick Moss 
(Provost & Pritchard, Visalia, California), Tom Knutson (Nebraska State 
Irrigation Association), Pat O'Toole (Ladder Ranch, Wyoming) and Larry 
Hicks (Little Snake River Conservancy District, Wyoming) for their 
assistance in developing this testimony.
                              introduction
    I am honored to be here today to discuss the SECURE Water Act 
(SECURE) and the Bureau of Reclamation's Water Conservation Initiative, 
which includes the WaterSMART Grant Program, the Basin Study Program, 
and the Title XVI Program. The Family Farm Alliance has twice 
previously testified before the Committee on climate change and water, 
and offered specific recommendations on the SECURE legislation. We were 
pleased to see that many of our recommendations were included in the 
final law. I will address SECURE is this testimony, particularly as it 
relates to broader climate change legislation that may be considered by 
the Senate. The Alliance believes that the goals and programs of the 
SECURE Water Act should be specifically incorporated into any 
comprehensive climate legislation to ensure that they receive adequate 
resources and emphasis.
    I have also been asked today to explain the Family Farm Alliance 
Water Management Case Study Report, which we are currently developing, 
and has relevance to several of the topics on this hearing's agenda. I 
have included two of these case studies as appendices to this 
testimony, which we hope will provide insight into the positive and 
negative aspects associated with implementing conservation projects 
involving agricultural water users and government partners.
   alliance involvement with the secure water act and climate change 
                                 issues
    The Family Farm Alliance Board of Directors in 2007 established a 
subcommittee to develop a white paper that addresses the important 
issue of climate change, its possible impact on Western water supplies 
and irrigated agriculture, and recommendations on how to plan and 
provide stewardship for this change. The report was prepared by an 
Alliance climate change subcommittee, our Advisory Committee, and water 
resources experts from around the West. That document--titled ``Water 
Supply in a Changing Climate: The Perspective of Family Farmers and 
Ranchers in the Irrigated West''-was released just over two years ago.
    Our report shows that climate change could further strain fresh 
water supplies in the American West. We must begin to plan for that 
now, and not wait until we are forced to make decisions during a 
crisis.
                    reinforcing the secure water act
    Last year, Congress moved to address the potential impacts of 
climate change on western state water supplies. It approved the SECURE 
Water Act (signed into law by President Obama in March 2009 as P.L. 
111-11, Title IX, Subtitle F) creating federal inter-agency programs to 
assess the effects of climate change on water supplies, develop 
strategies and technologies to address potential water shortages and 
increase the collection of data on current and future water supply 
availability. The Family Farm Alliance supported the SECURE Water Act 
in part because it provides water managers with highly beneficial ``on-
the-ground'' solutions to infrastructure problems exacerbated by global 
climate change. SECURE authorizes the Secretary of the Interior to 
provide cost-shared grants for planning, designing, or constructing 
improvements to water infrastructure that conserve water, provide 
management improvements, and promote increased efficiencies. This 
expands opportunities for the types of projects already funded through 
the Bureau of Reclamation's WaterSMART Grant Program, which many Family 
Farm Alliance members have benefited from. These projects provide for 
improved water management, enhanced supplies, water conservation, and 
greater efficiencies, thereby stretching dwindling water supplies.
         questions about implementation of the secure water act
    The Alliance strongly supported the SECURE Water Act. Our members 
now have questions about how this program is being implemented. They 
want to know where the dollars are being spent, what types of projects 
and programs are receiving priority--and, most importantly--how can 
they get involved? It is our hope that today's hearing will lead to 
improved dialogue between the Bureau of Reclamation and Western water 
users that begins to answer these questions.
            other climate change legislation considerations
    There is broad scientific consensus that even modest changes in the 
global climate would likely alter precipitation patterns in ways that 
could pose serious threats to water supplies and agricultural 
production worldwide, particularly in arid regions such as the American 
West where a large portion of agricultural production is dependent upon 
irrigation. A significant reduction in the amount of food and fiber 
produced by American farmers would have adverse consequences for our 
economy and national security and for our trading partners abroad.
    In the past year, legislation has been introduced to address 
climate change in a comprehensive and aggressive manner. We had hoped 
that Congress would share our concern that safeguarding the nation's 
ability to feed itself should be one of the principal goals of any 
legislation whose purpose is to marshal a national effort to minimize 
and adapt to the effects of climate change. Unfortunately, while House-
passed climate legislation (H.R. 5424) and legislation (S. 1733) 
introduced by Senators Boxer and Kerry would commit the federal 
government to employ ``all practical means'' to protect fish and 
wildlife from the adverse effects of climate change, those proposals 
include no comparable commitment to ensuring the continued vitality of 
domestic agriculture and agriculturally-based rural communities. 
Legislation (S. 1933) introduced by Chairman Bingaman takes a more 
reasonable approach to natural resources adaptation, and it 
specifically incorporates the goals and measures of SECURE. But it, 
too, places the greatest emphasis on fish and wildlife.
    The Family Farm Alliance supports the goal of conserving natural 
resources with fish and wildlife adaptation planning, research and 
programs. But the lack of comparable attention to adaptation needs of 
domestic agriculture and rural communities calls into question the 
intent and effects of a large-scale effort focused exclusively on 
natural resources.
    If Congress enacts comprehensive climate-change legislation, it 
must include additional adaptation programs for irrigated agriculture 
and rural resource-based communities if such efforts are to be given 
the necessary attention and resources. Farms and communities in the 
western United States face the prospect of economic disruption and 
increased competition and conflict over agricultural and water 
resources as a result of climate change. Helping them adapt to and 
withstand the impacts of climate change should be no less a national 
priority than meeting the needs of fish and wildlife and of farmers in 
other nations.
    We refer you to the October 27, 2009 statement the Alliance 
submitted to the Senate Committee on the Environment and Public Works. 
It provides specific observations and recommendations on how Congress 
can provide adaptation programs that benefit Western irrigated 
agriculture and rural communities. We hope this subcommittee can play a 
role in advancing these recommendations as the Senate considers climate 
change legislation.
    the bureau of reclamation's watersmart (challenge) grant program
    Reclamation's Challenge Grants--now renamed WaterSMART Grants--
leverage Federal funding by requiring a 50 percent non-Federal cost-
share contribution. Grants are available to States, tribes, irrigation 
and water districts, and other entities with water or power delivery 
authority. Many members of the Family Farm Alliance have benefited from 
this program in recent years. Appendix B summarizes how one of our 
members--Tulare Irrigation District (CALIFORNIA)--has funded a variety 
of water-saving projects with the assistance of WaterSMART Grant funds.
    Tulare Irrigation District (TID) is fortunate to have aggressive 
staffers who are always looking for opportunities and are willing to 
invest time and money to secure grants for projects that conserve water 
and promote conjunctive management of surface and groundwater. TID has 
benefited from partnering with others and sharing project benefits. 
These types of partnership generate significant local and regional 
support for project proposals. The keys to TID's grant success have 
been: 1) Paying close attention to grant requirements; 2) Sufficient 
planning to demonstrate a thoughtful and consistent approach; and 3) 
Recognition that a ``phased'' approach can be used to incrementally 
fund larger projects.
    TID and other Alliance members have also identified shortcomings in 
the administration of the WaterSMART Grant program and have developed 
the following recommendations on how to address those problems:

          A. There is often a ``disconnect'' between required funding 
        timelines and needed National Environmental Protection Act/
        National Historic Preservation Act (NHPA) reviews. In 
        California, local water users believe these reviews could be 
        satisfied in a much more expeditious manner by relying on 
        existing, similar state reviews. For aging water 
        infrastructure, the historic review requirements should be 
        modified, perhaps by developing a programmatic approach to the 
        NHPA requirements for water facilities.
          B. Federal administrators sometimes have a lack of 
        understanding about the limited construction ``window'' that is 
        available when working on water delivery systems. Early 
        ``kickoff meetings'' with project proponents and Reclamation 
        personnel should be a required step in these projects.
          C. Grant applicants sometimes face financial and time-
        management difficulties looking for multiple partners to share 
        the benefits of a proposal, especially for smaller grants. If 
        multiple benefits and collaborative efforts are to be 
        emphasized, commensurate funding should be made available to 
        support these necessary administrative actions.

    The vast majority of Family Farm Alliance members who have 
benefited from WaterSMART Grants believe that there is not enough money 
to address the needs that are out there (see ``Other Needs'' below). We 
were pleased to see that the Bureau of Reclamation's Fiscal 2011 budget 
request includes $27 million of WaterSMART Grants, double the FY 10 
level of funding. This is a good start.
    Our Members and others in western irrigation also lament the 
absence of any current program to address major rehabilitation needs, 
similar to the now-defunct ``Small Reclamation Projects Rehabilitation 
and Betterment Program''.
 importance of federal climate change, conservation and infrastructure 
                               assistance
    Water conservation, recycling and desalination efforts and water 
transfers are important tools for improved management of increasing 
scarce water resources. However, these demand-management actions must 
be balanced with supply enhancement measures that provide the proper 
mix of solutions for the varying specific circumstances in the West.
    Supply enhancement should include rehabilitation of existing 
facilities and construction of new infrastructure. Rehabilitation 
measures should focus on maximizing the conservation effort through 
increased delivery efficiencies, construction of re-regulation 
reservoirs to minimize operational waste, and construction of new dams 
and reservoirs in watersheds with inadequate storage capacity to 
increase beneficial use and provide operational flexibility. Additional 
groundwater supplies should also be developed, but in a manner where 
groundwater use falls within the safe yield or recharge parameters of 
the aquifer. Conjunctive management of surface and groundwater supplies 
should be encouraged. Installation of additional stream gauges, water 
meters, groundwater recharge projects to employ during times of high 
surface flow, groundwater monitoring wells and better estimates of 
consumptive use are of paramount importance for the equitable 
management of available water supplies.
    The federal government needs to seriously consider adopting a 
policy of supporting new projects to enhance water supplies while 
encouraging state and local interests to take the lead in the planning 
and implementation of those projects. Local and state interests have 
shown enormous creativity in designing creative water development 
projects. For example, the State of Wyoming has initiated its Dam and 
Reservoir Program, in which proposed new dams with storage capacity of 
2,000 acre feet or more and proposed expansions of existing dams of 
1,000 acre feet or more qualify for state funding. Wyoming water 
managers and policy makers recognize that dams and reservoirs typically 
provide opportunities for many potential uses. While water supply is 
emphasized in the Wyoming program, recreation, environmental 
enhancement, flood control, erosion control and hydropower uses are 
also explored as secondary purposes.
    Many water projects are ready to be developed in the West, as 
demonstrated by studies completed by the Family Farm Alliance and the 
Bureau of Reclamation in 2005. While conservation and recycling 
programs have done a tremendous job of meeting new growth, only a small 
amount of new water storage capacity has been developed in the past 30 
years. Maintaining the status quo simply isn't sustainable in the face 
of unstoppable population growth, diminishing snow pack, increased 
water consumption to support domestic energy, and increased 
environmental demands. It's time to start building the water 
infrastructure needed to cope with a changing climate, meet the needs 
of a burgeoning population, and support a healthy agricultural base in 
the West.
        family farm alliance water management case study report
    The Family Farm Alliance is currently compiling in to a report a 
number of case studies that highlight real-world examples of water 
conservation, water transfers and markets, aging infrastructure 
problems, and watershed restoration / enhancement. This document will 
be used in several forums. For example, we would like to describe water 
conservation and management projects that work well (best management 
practices), especially those that have benefited from WaterSMART 
grants, and pass the lessons learned from those projects on to the 
Bureau of Reclamation. One of those case studies, involving the Tulare 
Irrigation District (CALIFORNIA), is included as an appendix to this 
testimony. We are also hoping that observations and recommendations 
from these types of projects can be used to help influence how the 
SECURE Water Act will be implemented by Reclamation. Our report can 
further be used as a template to advocate for the types of conservation 
activities that could be potentially funded under the climate change 
bills currently moving through Congress.
    Another area of focus in our report will include water markets and 
transfers, where we would like to provide examples of successful 
efforts, identify where there are impediments to success, and describe 
where adverse impacts negated such benefits. These studies will help 
form the framework for Alliance policy on water transfers, which will 
be advanced in the agricultural / urban / environmental water sharing 
coalition we are involved with in the Colorado River Basin. We are 
already assembling work for transfer programs undertaken in the Central 
Valley (CALIFORNIA), in the Klamath Basin (CALIFORNIA / OREGON), in 
Southern California, and along the Front Range of the Rocky Mountains 
(COLORADO).
    We will also include examples of aging water infrastructure 
predicaments facing our members. Findings and recommended solutions can 
be used in our ongoing efforts to implement the loan guarantee 
provisions we advocated for in the Rural Water Supply Act and to 
underscore the additional funding needs that are required to address 
key infrastructure issues in the West, such as the St. Mary Facilities 
(MONTANA) and rehabilitation of Minidoka Dam spillway (IDAHO).
    Finally, we will describe the complications facing local water 
users, the creative solutions that can be developed to meet those 
problems and recommendations that ensure continued, locally-driven 
success. We already have developed one case study in Nebraska, where 
irrigation districts have completed project transfers resulting in 
expanded opportunities to partner with new entities to improve 
infrastructure, flood control, and water management. Another case study 
in Wyoming that describes the efforts of a local conservation district 
to take the lead in implementing holistic watershed solutions is 
included as an appendix to this testimony.
    An important objective of our final report will be to demonstrate 
that water managers, ranchers and farmers are resourceful and creative 
individuals that should play an active role in resolving the water 
conflicts of the West.
    When our report is completed, it will include at least a dozen 
individual case studies for projects located in virtually very major 
river basin in the Western United States. We look forward to sharing 
the final report with this committee and other important water policy 
makers.
                              other needs
    The SECURE Water Act and Reclamation's WaterSMART Grant Program are 
two important tools that improve the availability of reliable, 
affordable irrigation supplies and partially mitigate for climate 
change impacts to Western water resources. However, critical problems 
remain to be solved, and the Bureau of Reclamation and Congress can 
help address these needs.
1. Create Flexible Financing Options to Help Water Managers Proactively 
        Deal with Aging Infrastructure and Climate Impacts to Western 
        Water Supplies
    The Bureau of Reclamation (Reclamation) built and manages the 
largest part of the critical water supply infrastructure that is the 
foundation of the economic vitality of the 17 Western States. Much of 
this federally-owned infrastructure is now 50-100 years old, 
approaching the end of its design life, and needs to be rebuilt and 
rehabilitated for the next century. The Congressional Research Service 
has calculated the original development cost of this infrastructure to 
be over $20 billion, and Reclamation estimates the current replacement 
value of its water supply and delivery infrastructure at well over $100 
billion. These facilities are an essential component of the nation's 
food-production system and their operation helps ensure our ability to 
provide reliable and secure food for its own citizens and the rest of 
the world.
    The problem with fixing aging public infrastructure is primarily 
financial. There are not enough federal dollars to go around for these 
burgeoning needs. Yet, in the case of Reclamation water facilities, 
most of the rebuilding of this federal water infrastructure is paid for 
by the end users who contract with Reclamation for their water 
supplies. Reclamation estimates that $3 billion will be needed from 
project users in the near-term to provide for essential repairs and 
rehabilitation of Reclamation facilities.
    This is where the problem begins: under its legal authority, 
Reclamation must treat expensive, major rehabilitation and replacement 
projects as operation and maintenance costs (O&M) that must be paid for 
by the water users both in advance, and in the year in which the costs 
are incurred. For some of these projects, it is not uncommon for annual 
O&M bills for these rehab projects to be thousands of times larger when 
compared to previous years, with little time for water users to 
prepare. With the federal government holding title to these facilities, 
water users can not easily obtain financing to meet their O&M 
obligations, nor can they simply pass along huge increases in costs to 
their water customers in such a short period of time.
    In the past, Reclamation offered its water users direct loans to 
cover their share of these major expenses, allowing them to finance 
over many years their contractual share of these costs over time. 
However, these direct loans had been discontinued, as mounting 
pressures on the federal budget redirected funds that were 
traditionally dedicated to these loan programs. As a result, in most of 
these cases, the unthinkable happens: these vital rehabilitation and 
replacement projects are delayed or dropped, leaving the facility in 
badly decomposing or unsafe condition for future generations to deal 
with, and setting up the perfect storm of facility failure and 
resulting damages to property and person.
    With leadership from your Committee, Congress has sought creative 
ways to address this challenge, and we are encouraged by two recent key 
legislative fixes:

          A. P.L. 111-11, signed into law last March, includes new 
        authorities to address aging canal systems in urbanized areas 
        of the West. An important part of this law, (Title IX, Subtitle 
        G) authorizes the Secretary of Interior to advance funding for 
        the costs of ``extraordinary operation and maintenance work'' 
        that can be repaid by local authorities, with interest, over 50 
        years. The 50-year repayment option applies to both reserved 
        works and those works whose management has been transferred to 
        local entities by Reclamation. This extended repayment 
        authority has been welcomed by our members as a means of 
        securing affordable financing for repairs to federal 
        facilities.
          B. Title II of the Rural Water Supply Act of 2006 (PL 109-
        451) authorized a loan guarantee program within Reclamation 
        that would leverage a small amount of appropriated dollars into 
        a large amount of private lender financing available to 
        qualified Reclamation-contractor water districts with good 
        credit. In other words, the Congress has given the authority to 
        Reclamation to co-sign a loan to help their water contractors 
        meet their contract-required, mandatory share of rebuilding and 
        replacement costs of federally-owned facilities.

    I regret to report that this latter tool--the Reclamation loan 
guarantee option--continues to be held up because of incorrect 
interpretations of clear Congressional direction by the Office of 
Management and Budget (OMB). An April 3, 2008 memo prepared by OMB 
concluded that the Bureau can carry out the loan program only if it is 
willing to siphon large amounts of funding away from other programs and 
needs within its budget. This is not what Congress intended. In 2008, 
we shared with this Committee our findings that showed OMB's 
conclusions are wrong and that they are driven by a desire to prevent 
implementation of the program. We are baffled by OMB's opposition to a 
device specifically designed to help non-federal entities raise non-
federal money to repair federally owned infrastructure at little or no 
cost to the federal government.
    We need your help, through Congressional oversight and possibly new 
legislative language, to tell OMB that they are wrong, and to allow the 
Bureau of Reclamation to proceed with implementation of the loan 
guarantee program as Congress intended it to function. In addition, 
further Congressional attention and effort will necessary in order to 
help western water managers deal with aging water infrastructure and 
climate impacts to western water supplies.
2. Streamline the Regulatory Permitting Process
    Modern, integrated water storage and distribution systems can 
provide tremendous physical and economic flexibility to address climate 
transformation and population growth. However, this flexibility is 
limited by legal, regulatory, or other institutional constraints, which 
can take longer to address than actually constructing the physical 
infrastructure. The often slow and cumbersome federal regulatory 
process is a major obstacle to realization of projects and actions that 
could enhance Western water supplies.
    The Family Farm Alliance has long worked on finding ways to 
streamline the regulatory process, and worked closely with past 
administrations and Congress towards that end. In the past year, our 
members are becoming increasingly concerned about the number of 
environmental policies that are currently being re-written by this 
Administration. It appears the changes being contemplated could result 
in stricter requirements that would further slow down federal approvals 
on water projects that are already very time-consuming and challenging. 
We are concerned about the following administrative actions that could 
carry the risk of real potential harm for Western irrigators:

  <bullet> Economic and Environmental Principles & Guidelines for Water 
        and Related Resources Studies.--The White House in December 
        released a draft of new standards for federal water projects 
        that for the first time put environmental goals on the same 
        plane as economic development concerns. The proposed overhaul 
        of 1983 standards for the Army Corps of Engineers (Corps) 
        directs the agency to fold non-monetary benefits into project 
        assessments by measuring improvements to wildlife habitats and 
        biodiversity. These proposed changes for the Corps and Bureau 
        of Reclamation may have a significant impact on new water 
        project planning and federal funding in the future.
  <bullet> National Environmental Policy Act Expansion.--It is our 
        understanding that the Administration may soon issue an 
        executive order adding climate change to the list of factors 
        federal agencies must take into account when evaluating 
        projects and policies. Some conservation groups have pushed for 
        the expansion of the 40-year-old National Environmental Policy 
        Act (NEPA), which currently requires agencies to consider 
        environmental factors such as land use, biodiversity and air 
        quality. Our members fear that requiring analysis of climate 
        change impacts during the NEPA process, especially at the 
        project-specific level, will slow economic recovery while 
        providing no meaningful environmental benefits.
  <bullet> ESA Administrative Revisions.--The U.S. Fish and Wildlife 
        Service (USFWS) is considering wide-ranging revisions to the 
        1973 Endangered Species Act (ESA), that could provide new 
        definitions for some key provisions, including those addressing 
        critical habitat and consultations between service biologists 
        and other agencies over projects that could impact protected 
        animals and plants. For example, the USFWS earlier this year 
        proposed to revise a 2005 designation of critical habitat for 
        the bull trout, a threatened species protected under the ESA. 
        If finalized, the proposal would increase the amount of stream 
        miles originally designated as bull trout critical habitat in 
        five Western states by 18,851 miles and the amount of lakes and 
        reservoirs designated as critical habitat by 390,208 acres. The 
        problem here is, for many Western water users, the maze of 
        requirements for ESA permits that can restrict activities or 
        delay projects for months or years. We essentially supported 
        the administrative regulatory changes put forward prior to 2009 
        that would have streamlined the consultation process. It now 
        looks like those changes have been reversed, with no apparent 
        request for agency input offered to the regulated community.
  <bullet> EPA Pesticide Restrictions.--EPA is making a precedent-
        setting decision to impose pesticide restrictions that will 
        essentially prohibit their use in large areas of Washington, 
        Oregon, California and Idaho. The most serious deficiency in 
        EPA's announced plan involves expansion of no-use buffer zones 
        to every ditch, drain, canal, and irrigation furrow that might 
        eventually drain from an agricultural field into a salmon 
        habitat. EPA also recently singled out the state of Florida as 
        the first state in the nation on which they are proposing to 
        establish a nutrient standard for all bodies of water. These 
        proposed standards are being imposed on the basis of an 
        EarthJustice lawsuit and will establish nitrogen and phosphorus 
        standards different from the rest of the country. This is 
        another very disturbing development, but consistent with other 
        recent administration actions.
  <bullet> EPA Reconsideration of the ``Water Transfers Rule''.--A 2008 
        U.S. EPA rule allows water transfers from one water body to 
        another without Clean Water Act (CWA) permits. We now 
        understand that EPA is planning on reconsidering the ``Water 
        Transfers Rule'', which states that a mere transfer of water 
        from one meaningfully distinct navigable body of water to 
        another does not require a NPDES permit, even though the water 
        being transferred may add new pollutants to the receiving body 
        of water. The Justice Department in a recent document says EPA 
        may abandon the rule, a move that would subject water transfers 
        throughout the nation to pollution permitting requirements. 
        This could have severe consequences in states like California, 
        where huge quantities of water are moved from one basin to 
        another.

    Many of the above administrative changes are drawing praise from 
environmental organizations that have been advocating them for some 
time. The Family Farm Alliance hopes that the Administration will give 
equal consideration to the concerns of agricultural organizations. We 
pledge to work with the Administration, Congress, and other interested 
parties to build a consensus for improving the regulatory processes 
associated with improving water systems.
                               conclusion
    The impacts of climate change on sensitive Western water supplies, 
while not totally understood today, will significantly challenge all 
water users in the West--municipal, industrial, agricultural, and 
environmental--in the near future. Being prepared requires investment 
and adaptation in the management of Western water supplies. To survive 
this trial, our efforts need to begin today--before crises, before 
conflict, and before there are winners and losers. The SECURE Water Act 
is a very positive step in the right direction, providing much needed 
opportunities for partnerships with federal agencies; providing 
direction for federal policymakers in dealing with the impacts of 
climate change on our precious water supplies; and providing some 
innovative new tools that will be necessary in order for the federal 
government to proactively work with local and state water authorities 
on real solutions. The WaterSMART Grant Program could be improved in 
some minor ways, but, overall, a consistent complaint we hear from 
throughout the West is that there isn't enough money in the program to 
meet the overall need.
    We stand ready to assist you, Madame Chair, and the Members of this 
Subcommittee in furthering these efforts that are so important to all 
our communities in the face of such an uncertain and challenging 
future. We must emphasize, however, that we are facing water problems 
right now. As evidenced in California's San Joaquin Valley, 
legislation, water transfers and data collection alone will not resolve 
these problems. The amount of water on the planet remains the same. We 
need policy and water decisions that are based on sound science. And we 
need the infrastructure to conserve, reuse, store, treat, manage and 
convey water to where and when it is needed, at the quality and 
quantity needed, to resolve these problems and avoid even more severe 
consequences that loom on the horizon.
    Thank you for the opportunity to testify before this Committee 
today. I would be happy to answer any questions you might have.
appendix a: tulare irrigation district--a case study highlighting more 
 recent grant (``challenge grant'', now termed ``watersmart grants'') 
        and funding opportunities with a focus on usbr programs
Backdrop
    Many Western water projects are reaching the end of the original 
economic and design life. Dollars for preventative maintenance and 
system rehabilitation are hard to come by, while at the same time, 
costs are increasing because less water is being sold, regulations are 
increasing, farmed acreage is reduced, and energy and labor are more 
expensive. Water supply reliability has been reduced in recent years, 
which means that ways to increase additional yield are needed to even 
get back close to meeting demand. Fortunately, new technology is 
available to improve operational control. And local water managers are 
realizing that new partnerships are needed in order to obtain 
reasonable costs for improvements, all the while ensuring that benefits 
are shared.
    In California, Integrated Regional Planning (IRP) efforts are 
gaining in prominence. The State of California has embedded the IRP 
approach in Propositions 50 and 84 and the water bond proposal that 
will be voted upon in November 2010. The IRP approach advocates for 
collaboration and achievement of multiple benefits. It encourages a 
blending/exchange of resources to maximize local benefits, and the 
outcome is usually controlled more by regional partnerships then any 
one individual agency.
Organization
    Tulare Irrigation District (TID) covers 67,600 acres in 
California's San Joaquin Valley. TID is a Central Valley Project Friant 
contractor with major water rights on the Kaweah River and access to 
groundwater. Two growing communities--Visalia and Tulare--affect TID's 
operations. The district is water-short and located in an area of 
regional groundwater overdraft, exacerbated by conditions caused by San 
Joaquin River restoration efforts.
Key Actions
    System Optimization Review (SOR)--TID in 2009 undertook a $655,000 
planning study (with $300,000 USBR cost share) that will evaluate 
historic diversions, currently available supplies; existing delivery 
system capacity; past and projected demands; and groundwater pumping 
estimates (municipal and agricultural) and estimated safe yield. The 
SOR will assess potential groundwater recharge/banking projects and 
other projects/programs (pre-feasibility level), addressing specific 
issues raised in the SOR study. Based on this assessment, the SOR Study 
will prepare a Strategic Plan to address the pressing issues TID faces 
in the next several years. It will update the TID Groundwater 
Management Plan and re-assess current resources and capabilities. The 
Study will include a focused strategic planning effort to engage in 
regional collaboration, especially with nearby cities and other 
regional water managers. Projects and programs pre-feasibility analysis 
will also be performed.
Plum Basin Phase 1
    This $1,060,000 project (including a 2009 Challenge Grant cost 
share of $300,000 and partnered with the City of Tulare) proposes the 
construction of groundwater recharge basins and control structures.
SCADA Upgrade
    Improvements to District canal operations with new SCADA equipment 
and construction of new automated control structures will cost 
$765,300, with 2005 Challenge Grant cost share of $300,000.
Other TID grant successes
  <bullet> USBR Field Services Grant $50,000 in FY 2007 for SCADA 
        improvements at the Tagus Basin, a District water recharge and 
        regulation facility;
  <bullet> USBR Field Services Grant $50,000 in FY 2008 for the design 
        and installation of a ramp flume on Rockford Canal near Da 
        Costa Basin.
  <bullet> NRCS AWEP funding in FY 2009 for conservation projects--
        $4,000,000 to be spent over 5 years with TID growers;
  <bullet> ARRA Drought Relief Funding in FY 2009 of $925,000 for 2 
        well enhancements and 26 well rehabs for TID growers.
Lessons Learned
    Tulare Irrigation District (TID) is fortunate to have aggressive 
staffers who are always looking for opportunities and are willing to 
invest time and money to successfully secure grants for projects that 
conserve water and promote conjunctive management of surface and 
groundwater. TID has benefited from partnering with others and sharing 
project benefits, which generates significant local and regional 
support for their project proposals. The keys to TID's grant success 
have been: 1) Paying close attention to grant requirements; 2) 
Sufficient planning to demonstrate a thoughtful and consistent 
approach; and 3) Recognition that a ``phased'' approach can be used to 
incrementally fund larger projects.
    TID and other Alliance members have also identified some defects 
with Challenge Grant administration and have offered up recommendations 
to repair those flaws:

          A. There is often a ``disconnect'' between required funding 
        timelines and needed National Environmental Protection Act/
        National Historic Preservation Act (NHPA) reviews. In 
        California, local water users believe these reviews could be 
        satisfied in a much more expeditious manner by relying on 
        existing, similar state reviews. For aging water 
        infrastructure, the historic review requirements should be 
        modified, perhaps by developing a programmatic approach to the 
        NHPA requirements for water facilities.
          B. Federal administrators sometimes have a lack of 
        understanding about the limited construction ``window'' that is 
        available when working on water delivery systems. Early 
        ``kickoff meetings'' with project proponents and Reclamation 
        personnel should be a required step in these projects.
          C. Grant applicants sometimes face a conflict between the 
        desire to spread the grant program benefits and the efficacy of 
        spending significant sums of money to secure smaller grants.

    TID believes there is not enough Challenge Grant money to address 
the needs that are out there. They also lament the absence of any 
current program to address major rehabilitation needs, similar to the 
now-defunct ``Small Reclamation Projects Rehabilitation and Betterment 
Program''.
  appendix b: little snake river conservation district--a case study 
  highlighting integrated collaborative watershed management and the 
              importance of locally-led management efforts
Backdrop
    In most Western states, much of the water used derives from 
snowmelt in mountainous areas. We are hearing more frequent reports 
from state and local governments and water users who question how the 
federal government is managing the watersheds. Forested lands cover 
about one-third of the nation's land area, and although they have roles 
in timber production, habitat, recreation and wilderness, their most 
important output may be water. Forests provide natural filtration and 
storage systems that process nearly two-thirds of the water supply in 
the U.S. Forest vegetation and soils, if healthy and intact, can 
benefit human water supplies by controlling water yield, peak flows, 
low flows, sediment levels, water chemistry and quality. One of the 
biggest threats to forests, and the water that derives from them, is 
the permanent conversion of forested land to residential, industrial 
and commercial uses.
    Real management is needed in the real ``reservoir'' of the West--
our federally-owned forest lands in upper watershed areas.
Location
    The Little Snake River is a Colorado River Headwaters Basin arising 
on the continental divide with land in both Colorado and Wyoming. It is 
a major tributary to the Yampa and Green Rivers in the Upper Colorado 
Basin.
Geography and Hydrology
    The area is relatively geographically isolated from any large 
metropolitan or urban communities (> 300 miles from Denver or Salt Lake 
City). Population in the basin is less than 1,000 people. There are 
three towns in the basin, Baggs, Dixon, and Savery with populations of 
400, 82, and 26, respectively. There are 20,000 acres of irrigated 
lands adjacent to the main stem of the Little Snake River and its major 
tributaries. Land ownership in the basin is approximately 31% private, 
8% state, and 61% federal (BLM & USFS).
    Elevations and precipitation in the basin range from 10,000 feet 
and 55 inches of annual precipitation to 6,000 feet and 8 inches of 
annual precipitation. Low elevation landscapes are dominated by desert 
shrub land communities and transition to mixed mountain shrub, aspen, 
and pine/spruce/ fir plant communities at the highest elevation.
    Average annual water yield out of the basin is approximately 
449,000 acre-feet (AF) per year. Total consumptive water use in the 
basin is approximately 44,000 AF per year. The largest annual 
consumptive use is for municipal water project via a trans-basin 
diversion (21,000 AF) followed by agriculture (20,000 AF) and 
environmental and miscellaneous uses (3,000 AF). The first water rights 
for irrigation where filed with the Territory of Wyoming in March of 
1875.
Land Use and Habitat Characteristics
    Predominant land uses are range land agriculture, recreation, and--
more recently--fluid mineral development (oil & gas). Historically, the 
basin also supported some timber harvest and hard rock mining for 
copper, gold, and silver. Because of the basin's geographic isolation 
and low population, it has not incurred major deleterious impacts 
associated with human activity until the recently development of fluid 
minerals. Consequently, the area has a fairly intact ecosystem that 
supports the largest population of Colorado Cutthroat Trout, flannel-
mouth suckers, and round-tailed chubs. It also supports some of the 
largest populations of Columbian Sharp-tail and Greater Sage Grouse in 
the U.S. The basin is also home to 8,000 elk, 21,000 mule deer, 22,000 
antelope, 130 species of birds, 15 species of fish, and numerous other 
species of mammals and amphibians.
    In 1844 John C Fremont traversed the Little Snake River Valley and 
noted in his journals ``The country here appeared more variously 
stocked with game than any part of the Rocky mountains we had visited: 
and its abundance is owing to the excellent pasturage and its dangerous 
character as a war ground''. The game (wildlife) that attracted the 
warring Native American tribes to area was a byproduct of the excellent 
pasturage that Fremont spoke of. It is also the reason the area 
attracted early ranchers. The first cattle entered the Little Snake 
Basin in 1871 when Noah Reader brought 2,000 head that where turned out 
at the mouth of Savery Creek. In 1873 George Baggs brought 2,000 head 
into the valley near the vicinity of the town bearing his name. Today 
the area supports around 25,000 head of cattle, 6,000 head of sheep, 
and 2,500 head of horse both domestic and wild.
Organization
    The Little Snake River Conservation District (LSRCD) has a locally 
elected board of supervisors and is staffed by dedicated professionals.
Key Integrated Collaborative Watershed Management Actions
  <bullet> Muddy Creek and Savery Creek Clean Water Act Section 319 
        Watershed Projects. The LSRCD has received and administered 
        over $1 million dollars from EPA to implement best management 
        practice for livestock grazing.
  <bullet> Muddy Creek Wetlands. Established the largest wetland 
        project in the State of Wyoming and received over $800,000 in 
        grant funding for this project including $165,000 from Ducks 
        Unlimited.
  <bullet> Little Snake River Aspen Conservation Joint Venture. Locally 
        lead effort with BLM & USFS, private land owners to restore and 
        enhance 12,000 acres of Aspen forest.
  <bullet> Little Snake River Watershed Fish Barrier Assessment. 
        Collaborative effort with Trout Unlimited, LSRCD, and local 
        landowners/irrigators.
  <bullet> Little Snake Watershed Fish Barrier Removal and Aquatic 
        Ecosystem Restoration Project. Joint project with numerous 
        local, state, federal, and NGO partners. Current expenditure 
        and obligation for this project is $2.5 million.
  <bullet> Cooperative Conservation Planning Initiative (CCPI). This is 
        a USDA-NRCS farm bill program. The LSRCD is the local sponsor 
        on two different CCPI projects including the Fish Barrier 
        Removal and Hazardous fuels--forest health projects in the 
        Little Snake Basin.
  <bullet> Battle Collaborative Stewardship Contract. The USFS and the 
        LSRCD agreed to address hazardous fuels on 3,000 acres of the 
        Medicine Bow National Forest due to bark beetle infestation.
  <bullet> Little Snake River Conservation Planning initiative. This is 
        a joint effort among the LSRCD, NRCS, The Nature Conservancy 
        (TNC), and private land owners. It consists of inventorying and 
        updating conversation plans for 42,000 acres of private lands 
        for consideration under Conservation Easements.
Results
  <bullet> In 2005 the local community, working with the State of 
        Wyoming, constructed a 23,000 acre foot $30 million dollar 
        water storage project to provide water for municipal, 
        agricultural, fisheries and recreational use.
  <bullet> As part of the overall watershed project, Clean Water Act 
        Section 319 monies were utilized to implement grazing Best 
        Management Practice to restore and enhance riparian and upland 
        areas. Other funds and partners have assisted with the 
        restoration and enhancement of more than 20 miles of river and 
        stream channels for both cold and warm water fish species. Over 
        800 acres of wetland habitat has been constructed, improved, 
        and enhanced.
  <bullet> 3,500 acres of forest treatment has been completed to reduce 
        hazardous fuels and improve wildlife habitat.
  <bullet> Thousands of acres have been put under conservation 
        easements in order to perpetuate agricultural use and protect 
        critical wildlife habitat.
  <bullet> Ten irrigation diversion structures have been modified to 
        allow for fish passage and in 2011 all remaining irrigation 
        diversion structures in the Little Snake basin are scheduled 
        for modification for fish passage.
Recognition
    Since 1991 numerous agencies, organization, and NGO's have 
recognized the Little Snake River community and the local governmental 
natural resource agency, the Little Snake River Conservation District 
(LSRCD), as leaders in natural resource conservation. Following are 
list of acknowledgments and achievements.
  <bullet> 1996 USDI-BLM Rangeland Stewardship Award.
  <bullet> 1996-2000 National Demonstration Project ``Seeking Common 
        Ground--Livestock and Big Game on Western Range Lands''.
  <bullet> 1997 & 2002 EPA volume II & III Section 319 Success Stories.
  <bullet> 2007 National Association of Conservation District South 
        West Region Collaborative Conservation Award.
  <bullet> 2009 Rocky Mountain Elk Foundation Imperial Habitat Partner.

    Numerous articles featuring work conducted by the LSRCD, area land 
owners, and its partners have been featured in popular publications 
like Farm Journal, Beef Today, Bugle Magazine, Wyoming Wildlife, and 
Range Magazine as well as peer reviewed journal publication in the 
Journal of Soil and Water Conservation (2008) and the Journal of 
Rangeland Ecology (2009).
Lessons Learned
    These efforts have all been locally-led. Conservation of natural 
resources in the Little Snake River Basin integrated with agrarian life 
style and perpetuation of this culture is the highest priority for the 
local community in the Little Snake Basin. In Wyoming, the local 
residents have passed a conservation property tax to carry on this 
work. Since 1990 this tax has generated approximately $8 million 
dollars in local revenues. These funds have leveraged over $40 million 
dollars in project money to implement conservation and development 
projects in the Little Snake River Basin.
    Today the Little Snake River Basin hosts a myriad of wildlife, and 
robust natural resources while sustaining compatible agricultural uses 
and natural resource based recreation business. This was accomplished 
through local leadership and commitment of the Little Snake River 
Conservation District working collaboratively with over 30 different 
partner organizations and agencies that have assisted in the 
conservation of the Little Snake Basin, in a collaborative locally-led 
process.
    Properly managing federal watersheds and encouraging federal 
agencies to work with the agricultural community to solve local water 
problems is imperative. Through thoughtful planning, the Administration 
can play a truly important role in helping find the solutions that have 
proved so elusive to date.

    Senator Stabenow. Thank you very much.
    Now, Mr. Entsminger, welcome.

 STATEMENT OF JOHN ENTSMINGER, REPRESENTING THE COLORADO RIVER 
                          BASIN STATES

    Mr. Entsminger. Thank you, Madam Chair.
    I am happy to be here today on behalf of the Colorado River 
Basin States and to provide our views about the Colorado River 
Basin Water Supply and Demand Study, which is a cooperative 
effort between the Bureau of Reclamation and the basin States. 
I would also like to touch on some of the conservation programs 
we have in southern Nevada.
    The Colorado River Basin includes parts of seven western 
States, supplies water for municipal, industrial, agricultural, 
and environmental needs and includes most of the major western 
areas in the western and southwestern United States, including 
Denver, Salt Lake City, Albuquerque, Phoenix, Tucson, Los 
Angeles, and Las Vegas.
    The reservoirs on the main stem can store about 4 times the 
annual average flow of the Colorado River, and this storage has 
allowed us to weather past droughts, including a significant 
drought in the last 10 years.
    However, there is increasing concern on the river that 
increasing droughts, population growth, and climate change, 
which is projected to reduce the available yield of the river 
by as much as 10 to 30 percent over the next half century, 
could exacerbate supply and demand in balances.
    With this in mind, we strongly support Reclamation's 
ongoing water conservation initiative, which includes the Basin 
Studies program. Reclamation has committed $1 million to the 
Colorado River Basin study over the next 2 years, and the basin 
States have matched that $1 million with both cash and in-kind 
services so that it is a 50/50 cost-share over the next 2 
years.
    We are pleased that that program kicked off on January 22nd 
of this year, and the one concern we would note with the 
program is with a program of this magnitude and complexity, we 
want to ensure that there is sufficient funding to complete the 
program and ask that Congress look at that as necessary.
    Now I would like to turn my attention to some of our 
conservation efforts, and we note that there are significant 
conservation programs all over the Colorado River Basin, but in 
southern Nevada, 90 percent of our water supply that we use to 
supply 2 million people with water comes from the Colorado 
River. So conservation is not a small component of our resource 
program. It underlies our entire resource program.
    To date, we have enacted a number of demand management 
strategies. Our local governments, cities, and counties have 
passed ordinances which limit the amount of turf that can be 
installed in new homes. We have daily, weekly, and seasonal 
frequency limitations. Significantly, we have a block-tiered 
rate structure so that the lower rates, on the lower tiers, you 
have a lifeline rate that is for indoor usage. But as you go up 
and as you use more water outdoors, we send a pricing signal to 
try to curtail outdoor use in a very strong way.
    But we also provide incentives. To date, our WaterSMART 
Landscape Program has provided $155 million to the residents of 
southern Nevada to remove turf from our community. That program 
has resulted in the removal of over 140 million square feet of 
turf, or the equivalent of 3,200 acres of turf, with an average 
annual savings of more than 7 billion gallons of water for our 
community.
    However, we know that conservation is not going to be the 
only answer. We know that in the coming decades, new water 
supply projects will be needed, and that is why we are so 
supportive of the basin States program so that we can look at 
these supply and demand imbalances and, hopefully, be ahead of 
the curve in finding solutions for those imbalances.
    With that, I thank you for your time today, and I will be 
happy to answer any questions.
    [The prepared statement of Ms. Mulroy follows:]
Prepared Statement of Patricia Mulroy, General Manager, Southern Navada 
                     Water Authority, Las Vegas, NV
    Madam Chairman, I am Patricia Mulroy, General Manager of the 
Southern Nevada Water Authority (SNWA), Las Vegas, Nevada. I am pleased 
to provide my views to you today concerning the Bureau of Reclamation's 
Basin Study Program and specifically the Colorado River Basin Water 
Supply and Demand Study (Study), a cooperative effort between 
Reclamation and the seven Colorado River Basin States (Basin States). I 
would also like to describe our efforts at SNWA to promote water 
conservation to help meet our current and future demands.
                               background
    The Colorado River Basin (Basin) includes parts of the seven states 
of Arizona, California, Colorado, New Mexico, Nevada, Utah and Wyoming 
and is one of the most critical sources of water in the west. The 
Colorado River and its tributaries provide water to over 30 million 
people for municipal use, supply water to irrigate nearly 4 million 
acres of land, and is also the lifeblood for at least 15 Native 
American tribes, 7 National Wildlife Refuges, 4 National Recreation 
areas, and 5 National Parks.
    Many of the largest urban areas of the west and southwest such as 
Denver, Salt Lake City, Albuquerque, Las Vegas, Phoenix, Tucson, Los 
Angeles and San Diego rely on the Colorado River or its tributaries for 
all or a part of the water supply. Hydropower facilities along the 
Colorado River provide more than 4,200 Megawatts of generating 
capacity, helping to meet the power needs of the west while reducing 
the use of fossil fuels. The Colorado River is also vital to Mexico to 
meet both agricultural and municipal water needs.
    Most of the flow of the Colorado River and its tributaries 
originates as snowmelt from high mountain areas in Wyoming, Utah, and 
Colorado and moves downstream through some of the most arid regions of 
the U.S. Because of variations in weather and water use, Colorado River 
flows have fluctuated significantly each year and throughout the year. 
The reservoirs on the mainstream and its tributaries provide storage 
capacity of approximately four times the average annual natural flow. 
This storage has provided the ability to meet most demands in the 
Basin, even over periods of sustained drought, such as has been 
experienced since 2000.
    However, concern has increased regarding the adequacy of Colorado 
River runoff to meet future needs. This is based on recent severe and 
persistent drought, projection of continued population growth in the 
west and southwest, and predictions by Climate Scientists for as much 
as 10-30 percent decreases in average yield of the Colorado River due 
to climate change.
    In fact, water supply and demand imbalances already exist in some 
geographic areas in the Basin and are projected to increase in both 
magnitude and extent in the future. Over the past nine years, average 
annual Upper Basin water use has decreased by approximately 400,000 
acre-feet (a decrease of approximately 11 percent) due in large part to 
water shortages caused by the current drought.
 basin states and reclamation will conduct colorado river basin water 
                        supply and demand study
    The Basin States strongly support Reclamation's ongoing Water 
Conservation Initiative which includes the Challenge Grant, Title XVI, 
and Basin Study Programs. All of these Programs offer potential ways to 
help evaluate and meet current and future water supply challenges in 
the west and southwest areas served by the Colorado River.
    The Study is one example of how the Water Conservation Initiative 
can provide assistance in managing the Basin's limited water supply. 
The Basin States received notification from Reclamation in September of 
this year that our proposal was selected and would receive Federal 
cost-share funding. Reclamation has Federal funds in the amount of 
$1,000,000 that will be provided over a two-year period toward 
completion of this Study. The Basin States have committed to a 50 
percent cost share with Reclamation through cash and in-kind services 
to match the Federal contribution.
    The Study will analyze through the year 2060 water supply and 
demand imbalances throughout the Basin and in those regions outside the 
Basin that receive Colorado River water, assess options for resolving 
such imbalances, and develop recommendation to address current and 
projected imbalances. We view the Study as a critical next step in 
moving forward to address both short-term and long-term water supply 
needs and for identifying potential solutions for the Basin. It will 
build upon previous efforts by water utilities, the Basin States, and 
Reclamation to manage the Colorado River in the most effective way 
possible. We have worked closely with Reclamation to develop the 
necessary agreements and the final Plan of Study. I am pleased to 
report that the Study was initiated in January of this year.
    While we deeply appreciate the Federal contribution for this Study, 
we have some concern about whether the federal and non-federal funding 
will be sufficient to get the best results for a study of this scope 
and magnitude. We urge Congress to carefully consider the potential to 
provide additional funding to enable further cost sharing to fully 
achieve the goals of the Study.
     southern nevada water authority's water conservation programs
    I would now like to describe SNWA's conservation programs to 
provide the Subcommittee insight with respect to our efforts to help 
manage, conserve and stretch our supply of Colorado River water. While 
my remarks will focus on SNWA, I would point out that most urban and 
agricultural water entities throughout the Basin also have aggressive 
conservation programs.
    As you know, the Las Vegas area is located in one of the most arid 
parts of the U.S. At present, 90% of SNWA's water supply comes from the 
Colorado River. Promoting the efficient use of water is central to our 
mission. Our success in increasing efficiency of water use and 
reduction of water waste wherever possible has a direct link to the 
volume of water we will need in the future.
    While we consider conservation as one of the resources in our water 
portfolio, it is fundamentally different from other water resources. 
Unlike our ``wet'' resources such as the Colorado River, banked water, 
and groundwater, conservation is a tool we use to reduce overall 
demands.
    We have implemented a number of conservation activities since our 
formation in 1991. While we actively promote indoor conservation, our 
greatest opportunity for water conservation lies in reducing outdoor 
use, which accounts for about 60% of SNWA's water use. We use several 
tools to aggressively promote conservation in the SNWA service area. 
These include regulation, water pricing, incentives and education.
    During the past 18 years, city and county governments have adopted 
a variety of land use codes and water use ordinances to promote more 
efficient use of water in the Southern Nevada area. For example, a 2003 
code for construction of new homes prohibits turf in the front yard and 
limits it to 50% of the backyard landscaping. Restrictions also 
prohibit watering during the hottest times of day and limit how often 
residents may water during the week on a seasonal basis. More stringent 
policies have also been implemented to offset drought impacts and more 
recently these have become permanent measures to assist in overall 
conservation of water.
    Water rates, including block or tiered rates, are one of our most 
effective conservation tools. Higher rates are charged as water use 
increases. This measure encourages efficiency while ensuring 
affordability of water for essential uses. Rates are reviewed regularly 
to ensure they keep up with inflation, maintain their effectiveness in 
encouraging conservation, and maintain the fiscal integrity of the 
water utility.
    A variety of incentives are encouraging community participation in 
water conservation. Incentives encourage residential and commercial 
property owners to convert lawn to water-efficient landscaping. For 
example, since its inception, we have provided nearly 155 million 
dollars toward removal of turf as part of our Water Smart Landscapes 
Program. This has resulted in conversion of over 140 million square-
feet of lawn (over 3,200 acres); saving more than 7 billions gallons of 
water annually in the SNWA service area.
    Last but not least, education is an integral element of our 
conservation program. This tool helps communities in the Southern 
Nevada area learn about the importance of conservation and what they 
can do to help conserve water.
    In closing, we will continue our efforts in conservation; however 
it is clear that conservation alone will not enable us and many other 
water users in the Basin to meet the projected Basin water demands 
through 2060. Additional development of water resources will be 
required. The efforts of all the water managers and users in the Basin 
will be needed to accomplish this goal. In our view, the Study and 
Reclamation's efforts in other areas of its Water Conservation 
Initiative are critical factors in achieving this goal.
    Madam Chairman, we thank you and other members of this Subcommittee 
for your interest, support, and efforts to assure that the Basin and 
adjacent regions that receive Colorado River water will continue to 
have adequate supplies in the future.
    I would be pleased to answer any questions.

    Senator Stabenow. Thank you very much.
    Mr. Pack.

 STATEMENT OF ANTHONY J. PACK, EASTERN MUNICIPAL WATER DISTRICT

    Mr. Pack. Madam Chair, Senator Bingaman, thank you for the 
opportunity to appear before you today.
    I am the general manager of Eastern Municipal Water 
District, which provides water and wastewater services to 
675,000 people in Riverside County in southern California.
    California is in a water crisis. Southern California has 
experienced the first year of region-wide mandatory water 
rationing, and the initial allocation from the State water 
project was the lowest it has ever been.
    EMWD has long recognized the serious challenges that will 
confront water agencies throughout the West and have made 
supply self-sufficiency our most critical strategic objective. 
Over the past decade, we have committed over $235 million of 
our own funds just to implement programs that provide local 
water in our service area. We have done this to reduce our need 
for imported water supplies from Colorado River and the 
California Delta.
    As a result, we have reduced our dependence on imported 
water from 82 percent down to 56 percent, while our connections 
have gone up 34 percent in the last decade. We have 
accomplished this by building brackish water desalination 
plants, local water filtration plants, expanding our recycled 
water system, aggressive water conservation, and demand-based 
water rates.
    I would like to comment on a few of the items contained in 
Reclamation's WaterSMART initiative that we are already in the 
process of doing.
    EMWD is a member of the Santa Ana Watershed Project 
Authority, or SAWPA, which is a Joint Powers Authority, which 
is composed of 5 water agencies tributary to the upper Santa 
Ana River. The Santa Ana Watershed Basin is approximately 2,800 
square miles in portions of 4 counties and is home for 
approximately 5.6 million people. SAWPA and Eastern have 
participated in basin-wide studies and management activities 
for many years, and SAWPA today is recognized by the State of 
California as the most sophisticated and effective watershed 
planning agency in the State.
    The element that is most important to our agency is the 
Title XVI program. My agency's largest, most successful local 
resource development effort is our nearly 50-year-old water 
recycling program. EMWD's recycled water has provided for 
agriculture, landscaping, environmental purposes, construction, 
manufacturing, industrial customers, and ``in lieu'' customers 
who take the water in lieu of groundwater.
    In 2009, EMWD sold 73 percent of the recycled water 
produced by our wastewater treatment plants. In perspective, 
the State-wide usage number is about 15 percent, and 
nationwide, it is about 5 percent of beneficial reuse.
    The Bureau of Reclamation's Title XVI program provides a 
means for funding water recycling projects. However, the 
program has never been adequately funded until the recent 
infusion of funding from the American Recovery and Reinvestment 
Act of 2009. Under that program, my agency received $9.46 
million, which is used to construct storage tanks, pipelines, 
and a booster plant to provide more reliable pressure to our 
users.
    While the primary objective of the project is to improve 
system reliability and pressurization, it will also generate 
approximately 3,200 acre-feet of new demand.
    I want to comment on some of the programs that we have done 
to reduce--to deal with the area of climate change, energy use, 
and emission reduction. We have evaluated and quantified the 
energy usage and emissions for each of our 5 sources of water. 
Recycled water is lower in both areas by a significant amount. 
Even the desalination plants use less energy and have fewer 
emissions than our 2 imported water sources, which gives even 
more importance to reducing our use of imported water.
    Our water distribution system is managed by a computer 
program that automatically determines the most efficient 
combination of pumps to run and the time of day with the lowest 
electric rate structure. Our entire headquarters facility is 
powered by a series of nine natural gas-fired micro-turbines, 
which also provides the hot water for the buildings and 150 
tons of air conditioning.
    We recently upgraded our large wastewater treatment plant 
by adding 3 ultra-clean power plants that use fuel cell 
technology and are fueled by gas generated during the treatment 
process. This has enabled us to reduce energy costs and the 
carbon footprint while generating clean, reliable energy 
onsite.
    The 3, 250-kilowatt fuel cells will allow the plant to meet 
40 percent of its energy needs with zero emissions, reducing 
the carbon footprint by approximately 1,200 tons of carbon 
dioxide per year.
    We also are test piloting a process for producing biodiesel 
feedstock from restaurant grease waste. Currently, more than 5 
million gallons of restaurant grease trappings are produced 
each year in the service area and are being disposed of in a 
landfill site. The oil that can be separated from the grease 
trappings should be able to produce enough biodiesel to power 
our entire fleet, and then some.
    I have several other items, but I see my time is up. So 
these are all detailed in my written comments.
    [The prepared statement of Mr. Pack follows:]
Prepared Statement of Anthony J. Pack, Eastern Municipal Water District
                              introduction
    Thank you, Chairwoman Stabenow and members of the Subcommittee on 
Water and Power for the opportunity to testify before you today 
regarding the implementation of the SECURE WATER ACT and the Bureau of 
Reclamation's (Reclamation) WaterSMART Initiative. I am the General 
Manager for the Eastern Municipal Water District (EMWD), which provides 
water and wastewater services to 675,000 persons in Riverside County in 
Southern California.
    Approximately five years ago, I testified before the House of 
Representatives, Subcommittee on Energy and Resources. I expressed then 
that the participation of the federal government in water resource 
management is essential, as the federal government has the ability to 
undertake or coordinate interstate and regional water development and 
energy projects. I further recommended that the federal government 
should participate by providing technical support by funding important 
basic research to solve water and related energy problems. The SECURE 
WATER ACT begins to address those issues, and confirms the obligation 
of the Federal Government to support the States, as well as regional, 
local, and tribal governments in the management of water resources. 
This is proposed to be achieved through nationwide data collection and 
monitoring, agency collaboration, basin studies, and further climate 
change evaluation and activities to increase the efficiency of the use 
of water in the United States. While these Congressional findings are 
tremendously important, the implementation of the results is what will 
determine our future.
    California is in a water crisis. Southern California has 
experienced its first year of region-wide mandatory water rationing and 
the initial allocation from the State Water Project is the lowest it 
has ever been. EMWD has long recognized the serious challenges that 
will confront water agencies throughout the West, and have made supply 
self sufficiency one of our most important strategic objectives. Over 
the past decade, we have committed over $235 million just to implement 
projects that will develop new local supplies in our service area, and 
reduce our need for imported water supplies from the Colorado River and 
the California Delta. As a result, we have reduced our dependence on 
imported water from 82 percent down to 56 percent, while our 
connections have increased 34 percent over the same period. We have 
accomplished this by building Brackish Water Desalination Plants, Local 
Water Filtration Plants, expanding our Recycled Water System, and 
aggressive water conservation and demand based water rates.
    Reclamation's WaterSMART Initiative includes the Basin Study 
Program, cost-shared grants for water management improvement projects, 
and funding of water reuse and recycling projects through the Title 
XVI, Water Reclamation and Reuse Program and the WaterSMART 
Clearinghouse. Together, these programs are the principal components of 
Reclamation's implementation of the SECURE WATER ACT. I would like to 
share with you some of the ways my agency has participated in these 
programs.
    EMWD is a member of the Santa Ana Watershed Project Authority 
(SAWPA), a Joint Powers Authority (JPA), which is composed of the five 
water agencies tributary to the upper Santa Ana River. The Santa Ana 
Watershed Basin is approximately 2800 square miles in portions of four 
counties, and home for approximately 5.6 million people. SAWPA and 
Eastern have participated in basin wide studies and management 
activities for many years and is recognized by the State of California 
as the most sophisticated and effective watershed planning agency in 
the state.
    We have participated with Reclamation in several different grant 
programs that addressed the goal of reducing outside water use, a 
desalter brine reduction study, development of a landscape water use 
database, and public school water efficiency retrofits. We look forward 
to participating in these programs in the future. These programs are 
very important as agencies must often commit their limited financial 
resources to the more immediate needs of community growth and system 
repair and replacement.
    The third element, and the one most familiar to our agency is the 
Title XVI program. My Agency's largest, and most successful local 
resource development effort is our nearly 50 year old water-recycling 
program. Water recycling, until recently considered an innovative use 
of resources, is becoming commonplace as pressures on potable water 
supplies continue to grow. In the past 10 years, due to extensive 
research and elaborate public awareness programs, public acceptance of 
recycled water has been greatly enhanced. This coupled with the easing 
of regulatory restrictions has enabled local water agencies to tap into 
this most important resource to meet the ever-increasing need for 
water. EMWD's recycled water is provided for agricultural interests, 
landscaping, environmental purposes, construction, manufacturing and 
industrial customers and ``in lieu'' customers that will use recycled 
water ``in lieu'' of historically used ground water. In 2009, EMWD sold 
73 percent of the recycled water produced by our wastewater treatment 
plants. In perspective, the statewide usage number is about 15 percent, 
and the nation as a whole only averages five percent beneficial reuse.
    The Bureau of Reclamation's Title XVI program provides a means of 
funding water recycling projects; however, the program has never been 
adequately funded until the recent infusion of funding from the 
American Recovery and Reinvestment Act of 2009 (ARRA). EMWD tried 
unsuccessfully for several years to receive an authorization through 
legislation until 2008, when we finally received a $12 million dollar 
authorization. Subsequently, EMWD received $9.46 million in funding 
under ARRA to construct storage tanks, pipelines, and a booster plant 
to provide more reliable pressure to our users. One project has been 
awarded, three projects will be awarded next month and one project is 
being delayed because of the land condemnation process. We also have 
three additional projects that were in the original Congressional 
Authorization that could be implemented relatively quickly if 
additional funding becomes available. While the primary objective of 
the projects is to improve system reliability and pressurization, it 
will also generate approximately 3,175 acre feet of new usage.
    The Title XVI program allows the Federal Government to leverage its 
investment four to one, and in these difficult economic times, it was a 
struggle for EMWD to commit the $30 million representing our share of 
the projects. While this is a burden for the local agency it gives 
credibility to the program as no properly managed agency would submit a 
project that did not have significant resource benefits, knowing that 
it had to pay 75 percent of the costs.
    There exists a substantial backlog of projects in the program. In 
Southern California alone, 17 projects have been approved through 
amendments to the Act. If all projects are completed they are projected 
to generate 400,000 acre feet of recycled water annually. The Title XVI 
program is vital to meeting the water supply needs of the nation and we 
urge you to adequately fund the program to eliminate the backlog of 
authorized projects.
    The last component of the WaterSMART Initiative is the 
Clearinghouse which is still under development. Once fully developed, 
it will provide a focal point for obtaining information on a number of 
water, conservation, and energy related issues.
    Finally, I would like to address some of the activities we have 
undertaken to address the areas of climate change, energy use, and 
emissions reduction that align with the objectives of the SECURE WATER 
ACT.
    We have evaluated and quantified the energy usage and emissions for 
each of our five sources of water. Recycled water is lower in both 
areas by a significant amount. Even the Desalination Plants use less 
energy, and have fewer emissions than our two imported water sources, 
which gives even more importance to reducing our use of imported water.
    Our water distribution system is managed by a computer program that 
automatically determines the most efficient combination of pumps to 
run, and the time of day with the lowest electric rate structure. We 
reduced our energy costs an average of 10 percent when we implemented 
the program. We also use natural gas engines, with state of the 
industry emission controls, in many of our pumping plants.
    Our entire headquarters facility is powered by a series of nine 
natural gas fired micro-turbines which also provides the hot water for 
the buildings and 150 tons of air conditioning as a secondary benefit.
    We recently upgraded one of our large Wastewater Treatment Plants 
by adding three ultra-clean power plants that use fuel cell technology 
and are fueled by the gas generated during the treatment process. This 
has enabled us to reduce energy costs and the carbon footprint while 
generating clean, renewable, reliable, energy onsite. The three 250 
kilowatt fuel cells will allow the plant to meet 40 percent of its 
energy needs at peak hours with near zero emissions, reducing the 
carbon footprint by approximately 1,200 tons of carbon dioxide per 
year. EMWD is planning to install three additional 300 kilowatt fuel 
cells at another Wastewater Treatment Facility, which could be 
operational by 2012.
    EMWD is currently test piloting a process for producing a biodiesel 
feedstock from restaurant grease waste. Currently more than five 
million gallons of restaurant grease trappings are produced each year 
in the EMWD service area and are being disposed of in a landfill site, 
necessitating a 180-mile roundtrip. The oil that can be separated from 
the grease trappings should be able to produce enough biodiesel to 
power our entire fleet, and then some, of diesel powered vehicles.
    We have installed Global Positioning Systems on the majority of our 
vehicles which resulted in a reduction 288,000 miles driven in just 
nine months of use, compared to the same period in the previous year. 
This resulted in a Green House Gas (GHG) reduction of 15 percent or 
more from our vehicle use.
    In summary, I would like to stress that your efforts here today are 
critically important to California and the nation. California, and 
indeed all the Western States, are currently experiencing unprecedented 
multiple threats to their water supplies including continuing drought, 
dwindling supplies, crumbling infrastructure, climate change concerns, 
and population growth. The initiatives discussed here today are 
essential for providing a secure water future for the Western states. 
Madam Chairperson, I would like to thank you and the Subcommittee 
members again for the chance to testify before you today and I will 
respond to your questions.

    Senator Stabenow. Thank you very much. Thank you to each of 
you for your thoughtful and very important testimony as we move 
forward.
    Let me start with Commissioner Connor, and thank you again 
for your leadership. You talk in your testimony about the 
ongoing work of the Climate Change and the Water Working Group 
that I know partners with USGS and the Army Corps and NOAA. 
Could you talk more about the practical effects of the 
partnership and how you are working to avoid duplication 
efforts? When do you anticipate the report regarding potential 
climate change adaptation strategies to be available?
    Mr. Connor. Yes, Senator. The point of that collaboration, 
as you say, is exactly that. I mean, this is an era of limited 
resources. As we know from the President's State of the Union 
address, we are going to be at flat budgets here on the 
discretionary side for a while.
    So it is absolutely imperative that we collaborate, not 
duplicate efforts, and through that collaboration, we can make 
headway on these projects. So, with respect to that working 
group, I have got an example there of its first product was a 
report that we did on climate change and water resources 
management, which is an incredibly useful tool for identifying 
data gaps. That was initially a key part of this.
    We have general circulation models that provide some sense 
of what is going to happen with precipitation patterns and how 
that might affect water resources. But we need to look at how 
to downscale those models so that we can work them on a basin-
by-basin basis.
    So there is a lot of data that we need to put into that 
effort. NOAA has those global circulation models. The USGS has 
the hydrologic data that can feed into that. The Corps has 
flood expertise that we need to understand in managing the 
system. Of course, we have a good handle--we, the Bureau of 
Reclamation--on water demands, water needs, and in a lot of 
basins, environmental needs, too, that we need to manage for.
    So that collaborative process I think will lead to a good 
strategy for obtaining data, putting that into a useful forum 
that we can use, and then managing from that data.
    With respect to an overall next-generation report, I am not 
sure what the timing of that is. Yes, I will be happy to answer 
that question for the record.
    Senator Stabenow. OK. Thank you very much.
    Ms. Kassen, first, I come from Michigan. We are very proud 
of Trout Unlimited and its origins in our great fishing State.
    You talk in your testimony about examples of successful 
cooperative efforts to restore habitat and also improve water 
supply efficiencies, develop renewable energy supplies. Can you 
talk a little bit more about examples and tell us what really, 
from your perspective, is the key to success in those efforts?
    Ms. Kassen. Sure. Thank you, Madam Chairwoman.
    I can give you an example from the Little Lost Basin, for 
example, since the Senator from Idaho just joined us. In many 
western--if you think about your basic western valley, there 
are little tributaries coming down. There is a main stem at the 
bottom of the valley, and there are irrigation ditches coming 
off of those tributaries about a mile up from the confluence 
with the main stem.
    So the last mile of these tributaries can be dewatered and 
sometimes dry during the late irrigation season, which would 
naturally be the lowest flow over the course of the year. Using 
farm bill money and after being in a valley for a while and 
building relationships, Madam Chairwoman, I think that may be 
the most important component of success is it is--even with my 
staff on the ground in a State, they can't just walk up to one 
of Dan's members and say, ``Hey, we have got a great project 
for you. Trust us.''
    We may not be the Government, but it just sort of doesn't 
work that way. So we spend a lot of time, a lot of my staff 
spend a lot of what I would call ``coffee shop time'' and 
learning about what is important to the growers in the area, in 
the district, and talking about the needs of the fisheries.
    A lot of the rural areas where agriculture is important are 
also areas where the recreation economy is growing, where land 
owners can make as much money leasing private fishing rights as 
they do growing hay. Certainly, it is a balance and an addition 
to income.
    So, after we spend some time hanging out in a valley, 
talking and developing relationships, then we can go in and 
work on improvements to irrigation districts. Maybe use 
irrigation infrastructure. Maybe you start with a fish ladder. 
Maybe you start with a screen on a diversion structure so that 
the fish don't end up in the ditch as opposed to in the river, 
which is important especially when you have fish that could be 
listed on the Endangered Species Act list, but which are not 
good in the irrigation ditch for a number of other reasons if 
you are a grower.
    So, first, we might do some relationship building doing 
those kinds of projects. Then, since our interest is in trying 
to get the tributary opened back up for habitat, we would move 
to an application for EQIP money under the farm bill, for 
example, to change the point of diversion from that one mile up 
that dewaters the bottom of the tributary onto the main stem or 
into groundwater, put in a solar pump so that nobody is 
spending any energy. It is renewable energy. The water now 
comes from the main stem, and the tributary flows all summer 
long into the main stem.
    So you have opened up 1, 5, 8, 20 miles of habitat. The 
water yield is the same. There is a solar pump. So it is not 
costing in terms of energy, which can be a big deal for 
producers. We like to think of it as being a win-win-win-win 
all the way around. It is good for the fish, and it shows that 
sort of nontraditional allies can work together.
    Senator Stabenow. Thank you very much.
    We have been joined by Senator Risch. Welcome. I am going 
to turn to our chairman for a few questions, and then come back 
to Senator Risch.
    Mr. Chairman.
    The Chairman. Thank you very much.
    Thank you all for your testimony.
    Let me just ask one--I will ask Mike Connor. One of the 
issues that is obviously undergirding all of this is as the 
cooperation and coordination between Federal agencies, we have 
got the Interior and the Corps of Engineers, and that is 
primarily what you have addressed. We have also got the 
Department of Agriculture, and Ms. Kassen has talked about the 
farm bill in various comments.
    I guess I would be interested in knowing the extent to 
which this push for smart use of water and sustainable use of 
water and conservation of the water resources has been 
implemented and is being implemented in the Department of 
Agriculture, in addition to the extent to which it is being 
implemented in Interior. Because, obviously, in my State--I am 
sure this is true in all western States--by far, the biggest 
user of water is agriculture. If you have any thoughts on that?
    Mr. Connor. I do have thoughts. I don't have a lot of 
anecdotal data and evidence about how USDA has been working 
some of these same types of programs, with same objectives as 
we have. I know they have the programs. They have the EQIP 
program, which I think is driven toward on-farm water 
conservation.
    So it is a perfect partnership that can be created between 
our approach, which is usually we look at conservation, 
rehabilitation of our existing system--delivery systems. Then 
if you couple that with on-farm improvements, which is the 
primary goal of the EQIP program, I think we can have a 
collective strategy that addresses problems on a more broader 
basis than any particular river basin.
    They also have a rural energy program. We are in the 
process, driven by a couple of crises that we are dealing with, 
with respect to the California Bay Delta and the Klamath Basin 
situation, of looking at forming partnerships with the USDA and 
trying to just do that, addressing these conflict situations 
where we have water shortages and not just combine our 
conservation efforts for the long-term solution, but also 
combine it with the USDA and then integrate a renewable energy 
strategy as part of that.
    So that is the goal. It is something that is already in the 
works, and the proof will be in the next couple of years of 
whether we can start coordinating our efforts, having projects 
on the ground that yield those benefits on a broader spectrum.
    The Chairman. All right. Let me ask Mr. Pack a question.
    You made a statement in your testimony that I found 
interesting. You say we have evaluated and quantified the 
energy usage and emissions for each of our 5 sources of water. 
Recycled water is lower in both areas by a significant amount. 
Even the desalination plants use less energy and have fewer 
emissions than our 2 imported water sources.
    Commissioner Connor and I were at a ceremony at the Bureau 
of Reclamation's laboratory that they have set up to try to 
help develop desalination technology and see what more can be 
done with that. Can you tell a little more detail about how you 
concluded that getting water from your desalination plants uses 
less energy and has fewer emissions than your imported water 
sources? That surprises me as a conclusion.
    Mr. Pack. Yes, Senator. I do have a graph that I should 
have included in my written testimony. But Commissioner Connor, 
in his former job, has seen it, and I think you will remember 
it and the staff has as well. But we calculated the total 
energy usage of the State project and the Colorado project from 
the point of source to the point of delivery in our service 
area and calculated the pumps, such as the pumping over the 
Tehachapis.
    Then we looked at the energy usage of the 2 plants, 
desalinization plants that we have running. These are 
groundwater, brackish plants treating about 2,000 TDS water. As 
you know, the lower the TDS, the less energy required to push 
it through the membranes and quantified those as well.
    On the recycled water, we do not use any of the energy 
costs within the wastewater treatment plant, only from the 
fence line on out because the wastewater treatment process is 
required, of course, by law. So we only calculated what was in 
the distribution system for the recycled water. I have all 
those numbers.
    The Chairman. Thank you very much. I appreciate it.
    Senator Stabenow. Thank you very much, Chairman Bingaman.
    We are going to continue with a few questions. Senator 
Risch will please jump in as you wish.
    To Mr. Keppen, from the standpoint again of family farms, 
that your alliance is so important in talking about the 
partnership between agriculture and conservation and how all 
these partnerships come together. You talk in your testimony 
about the inclusion of measures to address climate change, 
adaptation needs of agriculture in rural communities.
    I wonder if you talk more about examples of the kinds of 
measures that you think would be best?
    Mr. Keppen. Sure. Thanks for this opportunity.
    Many of those tools are available in SECURE. That is why we 
were so supportive of that legislation initially. I mean, a lot 
of it comes down to uncertainty when you are talking about 
climate change. SECURE allows and promotes installation of 
additional stream gauges and snow measurement devices, that 
sort of thing. That is hugely, hugely important right now.
    I think there is studies all over the board about what the 
impacts of climate change will be on water resources in the 
West. Regardless of what is causing the climate change, we are 
seeing it in a lot of places. I think most of those studies are 
consistent in predicting that we are likely to see periods of 
snow melt happening sooner and then having longer and drier 
summers.
    So another tool that our association advocates for is 
creating new storage to trap that water and capture it and use 
it not only to help irrigation and late summer needs, but also 
to provide flood control and other benefits.
    Senator Stabenow. Thank you.
    I am wondering, coming from a State of Michigan, where we 
have a lot of water. But we have a lot of family farms, and we 
have a lot of challenges and different impacts as it relates to 
climate change and so on. What kinds of conversations go on 
between your alliance on the west coast and people in the 
middle of the country and so on as it relates to sharing 
information, even if there is right now a different impact?
    I am wondering what kinds of conversations are happening?
    Mr. Keppen. That is a great question. By the way, my 
parents are both from the Detroit area. So----
    Senator Stabenow. OK. Great.
    Mr. Keppen. But, well, see, our organization was created 
about 20 years ago, and you notice we are in the western 
States. The reason for that is we have a real strong 
partnership with the Bureau of Reclamation. A lot of our 
members are bureau customers. So, really, this side of the 
Mississippi, we have no members.
    We do work with other organizations, and in particular in 
the last year, we have been working with the Johnson Foundation 
out of Racine, Wisconsin. They have got this really great 
environmental forum set up, and we have been real active in 
that. They are going to be rolling out a public session here in 
June that is going to kind of encapsulate 3 or 4 meetings that 
they have had in the last 2 years, talking about fresh water in 
the United States.
    I was part of a 3-day forum in Racine last fall. There were 
about 30 of us there, conservation groups and ag groups, trying 
to find common ground in particular on water quality issues in 
farming. So, yes, that dialog is going on, and in my view, that 
is the most effective forum I have seen so far.
    Senator Stabenow. Right. I would encourage that very much.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Thank the chairman, who isn't here, for arranging for this 
meeting.
    First of all, in response to that last question, I grew up 
in Wisconsin, and I now live in Idaho. I can tell you that the 
use of water is very much different in the Midwest than it is 
the western States. I appreciate the attempt to find some 
common ground, but I am telling you, it is a whole different 
deal. We irrigate with a teaspoon sometimes out West, where 
that isn't necessarily true in the Midwest.
    I had a question for Ms. Kassen. I am familiar with the 
description, you had a description, I think, was it on the 
Pahsimeroi River that you are referring to, where we had the 
dewatering stretches? Was that the river you were talking 
about?
    Ms. Kassen. Actually, a tributary----
    Senator Risch. Tributaries?
    Ms. Kassen. It was actually a tributary to the Little Lost, 
but it would also be true on the Pahsimeroi.
    Senator Risch. Same thing. I was aware of the conversion to 
pumps in some of the areas. I guess I was not aware that you 
were doing the pumping through--or that the farmers were 
encouraged to do a project that has the pumping through solar. 
What size of a pump can you run with solar?
    You know, on my farms, I have run 100 horse, and I have run 
60 horse, and I can't see one of those turning with solar 
power. But how big a pump are you talking about?
    Ms. Kassen. OK. We are not talking about a center pivot, 
Senator. We are not. We are talking about this is a stream 
which is probably--we are putting one CF--by doing this 
project, we are putting a CFS or a CFS and a half back into--
back into the stream. So----
    Senator Risch. How many horse pump? I guess that is what it 
comes down to.
    Ms. Kassen. Off the top of my head, I honestly don't know. 
But it is not--it is fived. It is smaller. So let me find out 
for you.
    Senator Risch. Do you think you can run a 5 horse pump on 
solar?
    Ms. Kassen. I will tell you how much it is----
    Senator Risch. OK. I appreciate it.
    Ms. Kassen [continuing]. For the record.
    Senator Risch. I would be interested. For those who don't 
understand, I mean, this may seem small. But Ms. Kassen would 
affirm that when you are talking about 1 CFS up in the Upper 
Salmon stretches or the Little Lost or the Big Lost, that is a 
critical piece of habitat for fish. So even though it sounds 
small, it is really important.
    So thank you.
    Senator Stabenow. Let me ask Mr. Entsminger. Am I 
pronouncing that correctly? Is that----
    Mr. Entsminger. Entsminger, Madam Chair.
    Senator Stabenow. Entsminger. OK. Thank you very much.
    I wonder if you might talk from a practical standpoint. 
What do the Colorado River Basin States hope to gain, if you 
could talk a little bit more about what they hope to gain 
through the current study, and what additional work will be 
done after the study is completed? What will need to be done?
    Mr. Entsminger. I think I will answer the second part first 
and say I think we won't know what needs to be done until we 
complete the first phase of the study. Because the study 
itself, all the States, all the water users do a lot of work 
within their areas, assessing their water supply needs, but 
there hasn't been a basin-wide holistic look at what is 
everybody's projections for the next 50 years. Where are these 
supply and demand imbalances most likely to occur?
    Then, as Commissioner Connor stated in his testimony, what 
are the logical steps that can be taken to address those supply 
and demand imbalances? So that is really the crux of this 
study--A, identify where these imbalances occur and, B, look at 
realistic, real-world solutions that can be implemented to 
address them.
    Senator Stabenow. Thank you.
    Commissioner Connor, you have released a draft criteria you 
intend to use to allocate funding for Title XVI water reuse 
programs. I am wondering how the criteria will be used to 
address the backlog? We are hearing about the backlog today. We 
know there is a backlog that exists, and we know there is about 
10 new projects, I believe, awaiting authorization.
    What will be the criteria used to prioritize the newly 
authorized projects, and how will you address the current 
backlog?
    Mr. Connor. You are correct. There is a substantial backlog 
in the Title XVI program based on its popularity and the 
results that are being achieved. So it is the definition of an 
oversubscribed program, if there is any Federal program. It is 
about $600 million. That is $600 million after we put, as Mr. 
Pack mentioned, $135 million of Recovery Act money toward Title 
XVI projects.
    So we are making incremental gains with respect to that 
Title--with respect to Recovery Act money. We were able to 
initiate some activity on some newly authorized projects. We 
are going to try and keep that going with our budget request 
for 2011, which was $29 million, which was about 115 percent 
increase over the prior enacted year. So we are trying to 
demonstrate the commitment to getting at that oversubscribed 
nature and that backlog.
    The criteria that you mentioned are going to be key to that 
effort. If we can increase--over the last few years, we have 
just incrementally tried to keep the 2 or 3 or 4 projects that 
were authorized back in 1992 moving toward completion. 
Certainly, Congress had increased that amount over time. But 
for our budgets, we had pretty much limited activity to those 
existing projects in construction.
    Now that we are seeking additional resources, particularly 
through fiscal year 2011, we need to have a set of criteria to 
define for the 2011 request how we would use the $20 million of 
undesignated Title XVI money that we are asking for and then in 
future years, as we are developing budgets.
    So the criteria are going to be key for that. We put them 
out for public comment, I believe, yesterday. We want to be 
transparent. We want to revise the criteria as a result of the 
discussions that we get and the comments that we get.
    We are looking at certainly water supply. That is a key 
factor in the criteria. What is the bang for the buck with 
respect to the investment and the yield on recycled water? Is 
it a regional approach? Are there partners involved in this 
process? Does it help alleviate conflicts? That is another 
aspect of the program.
    A new aspect of the program, and obviously, Mr. Pack's 
projects would fare well, is the integration of renewable 
energy strategies and energy efficiency opportunities through 
these projects.
    So that is the whole--that is not the entirety of it. That 
is kind of some key criteria that are going to be moved 
forward, and they are going to be key to us prioritizing 
projects and whittling down the backlog.
    Senator Stabenow. Further on Title XVI, it is my 
understanding that the projects that have been authorized and 
funded so far are in California, and I am wondering what 
Reclamation is doing to ensure that programs benefits are 
utilized throughout the Reclamation States?
    Mr. Connor. Certainly, you are correct that the vast 
majority of projects have been focused on California. 
Originally, the program was actually created to help address 
and alleviate the oversubscription of southern California and 
the Colorado River Basin, and it has been very effective from 
that standpoint in generating well over 200,000 acre-feet of 
recycled water over time to help wean southern California off 
the Colorado River and also to help address its reliance on the 
Bay Delta.
    There have been other projects already. New Mexico; El 
Paso, Texas; Arizona; Oregon; and Utah have benefited from the 
Title XVI program really to the tune of, I think, one project 
each in those States. We are getting a large amount of interest 
from Texas, and I had a discussion with a whole number of 
municipalities in Texas at the last National Water Resources 
Association conference.
    So, actually, our Great Plains region went down and 
conducted a seminar with a bunch of municipalities in Texas to 
walk through the Title XVI process, the feasibility criteria 
that we use as a threshold matter, that we try and inform 
Congress about before authorization takes place, and then the 
prioritization criteria that we will look at for funding 
projects.
    So we are trying to inform people about the program. Of 
course, I have got to just be candid that, typically, we are 
not supporting new authorizations right now, given that large 
backlog that exists. But we are trying to have people work 
through the process, let them assess the feasibility of these 
projects, let them inform Congress, and we recognize that the 
program has a lot of benefits.
    Senator Stabenow. Thank you.
    Then, finally for me, how will the interests of the 
environment be addressed in the new Basin Study program? For 
example, nongovernmental organizations, will they be eligible 
to cost-share with Reclamation to do a study or to apply for 
WaterSMART programs?
    Mr. Connor. I need to go back and check on the WaterSMART 
programs. I think that is an eligibility that we need to 
address. So let me address that one for the record, quite 
frankly.
    Certainly, NGO's can be cost-share partners as part of the 
Basin Studies. We hope as the program--we are going to continue 
the program in fiscal year 2010. I think we have already sent 
out requests for interest from States, and I think they are due 
back at the end of March and which we will start a process to 
start making decisions by June.
    Hopefully, given the success and the interest in fiscal 
year 2009, the first 3 Basin Studies programs, that the 
coalition that gets together to cost-share will grow and 
include the NGO community. I certainly appreciate the comments 
that Ms. Kassen made with respect to the Colorado River Basin 
Studies program. We are going to have a public involvement plan 
associated with that.
    We hope to not just have cost-share partners comment, but 
actually be on some of the teams that are going to be developed 
to work through some of these issues. I am certainly happy to 
go back and look at that.
    I would say, as we move forward from this point on with the 
SECURE Water Act authority and our West-wide risk assessments, 
we are going to be looking not just at water supplies and 
demands from a traditional water user standpoint, but also 
incorporating environmental needs as part of those assessments.
    Senator Stabenow. Thank you.
    Senator Risch.
    Senator Risch. Just in closing, Madam Chairman, is that I 
want to thank TU for your work in Idaho. I am quite familiar 
with it, and the description you had in your testimony about 
working from the bottom up, as opposed to the top down, is one 
that the U.S. Government could take an example from.
    Working as you do, spending your money on projects on the 
ground and actually having bragging rights to accomplishments 
is substantially better than the litigious approach that some 
other organizations take to attacking these problems. You are 
to be commended for what you do, and I am a great fan of what 
TU is doing, particularly in Idaho.
    Thank you.
    Ms. Kassen. Thank you, Senator.
    Senator Stabenow. Thank you very much, Senator Risch.
    Thank you to each of you.
    I should note that we have also received additional written 
testimony regarding the hearing today that will be put in the 
record. The testimony, as well as the written submissions that 
each of you have given, will be made a part of the record.
    We will keep the record open for a period of 2 weeks to 
receive any additional statements or additional information you 
would like to have. For purposes of Senators and staff, 
questions for the record will be due by the close of business 
tomorrow.
    So, again, thank you very much for all of your efforts, and 
this subcommittee is adjourned.
    [Whereupon, at 11:03 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Response of Melinda Kassen to Question From Senator Risch
    Question 1. Will the WaterSMART project give us better 
understanding of the ``supply and demand'' relationships with ESA and 
the Salmon in the Columbia Basin?
    Answer. While WaterSMART includes some west-wide research and a 
broad ranging grant program, there is no specific Columbia River Basin 
Study that might consider the relationships highlighted in this 
question. However, there is a Yakima Basin Study underway where the 
goal is to develop a Comprehensive Water Resource Management 
Implementation Plan. See, http://www.usbr.gov/WaterSMART/docs/
Yakima%20River.pdf. Because of the presence of ESA-listed salmon 
species in the Yakima River Basin, this study, and the plan that will 
be its product, should provide a better understanding of how to address 
the ``water resource imbalances'' that exist in that basin. (Id.) 
Eventually, WaterSMART could expand the lessons learned from this 
Yakima Basin Study more broadly through the Columbia River Basin.
                                 ______
                                 
  Responses of Patricia Mulroy and John Entsminger to Questions From 
                             Senator Risch
    Question 1. Please describe the different federal agencies you have 
to coordinate with in order to provide water within your area.
    Answer. Due to the fact that approximately 90% of the land in 
Nevada is owned by the federal government and 90% of the water supply 
for southern Nevada originates in a federal reservoir (Lake Mead), the 
Southern Nevada Water Authority (SNWA) has ongoing interactions with 
multiple federal agencies. A brief description of these interactions is 
as follows:

          a. Bureau of Reclamation (BOR). SNWA has contracts with BOR 
        pursuant to Sec. 5 of the Boulder Canyon Project Act for the 
        delivery of Nevada's basic and surplus Colorado River 
        apportionments that represent approximately 90% of southern 
        Nevada's municipal water supplies. SNWA also interacts with BOR 
        as the representative of the Secretary of Interior in his role 
        as water master of the lower Colorado River pursuant to the 
        Consolidated Decree in Arizona v. California. SNWA holds 
        rights-of-way grants for water treatment and transmission 
        facilities on BOR property.
          b. Bureau of Land Management (BLM). SNWA holds rights-of-way 
        grants for water treatment and transmission facilities on BLM 
        property and has active applications for additional rights-of-
        way. Obtaining these rights-of-way grants have resulted in 
        numerous and ongoing compliance actions pursuant to the 
        National Environmental Policy Act (NEPA) and multiple 
        Environmental Impact Statements (EIS's) and Environmental 
        Assessments (EA's).
          c. U.S. Fish and Wildlife Service (FWS). The NEPA actions 
        referenced above also result in corollary compliance with the 
        Endangered Species Act (ESA). SNWA has, both historically and 
        currently, worked with the FWS on completing appropriate 
        consultations pursuant to Sec. 7 of the ESA, has collaborated 
        with FWS in implementation habitat conservation plans pursuant 
        to Sec. 10 of the ESA and has worked closely with FWS in 
        determining the need to list additional species as threatened 
        or endangered pursuant to Sec. 4 of the ESA.
          d. National Park Service (NPS). Lake Mead is surrounded by 
        Lake Mead National Recreation Area, which is managed by NPS. 
        SNWA holds rights-of-way grants for water treatment and 
        transmission facilities on NPS property and anticipates future 
        applications for additional rights-of-way with resultant NEPA 
        and ESA compliance. SNWA has a proposed groundwater project in 
        the vicinity of Great Basin National Park and has entered into 
        a number of stipulated agreements with NPS pursuant to state 
        water rights processes regarding environmental monitoring and 
        management activities.
          e. Bureau of Indian Affairs (BIA). SNWA has entered into a 
        number of stipulated agreements with NPS pursuant to state 
        water rights processes regarding environmental monitoring and 
        management activities. SNWA has also interacted with BIA in 
        negotiated water rights agreements with the Las Vegas Band of 
        Paiute Indians, the Moapa Band of Paiute Indians and the Navajo 
        Nation.
          f. Army Corp of Engineers (ACE). SNWA has frequent and 
        ongoing compliance activities with the ACE related to dredge 
        and fill permits under Sec. 404 of the Clean Water Act.
          g. United States Geological Survey (USGS). SNWA has multiple 
        contracts with the USGS, including several joint funding 
        agreements, related to the monitoring and study of surface and 
        groundwater resources in eastern and central Nevada, water 
        quality issues in Lake Mead and other Colorado River issues.
          h. Environmental Protection Agency (EPA). Although 
        administered by the Nevada Department of Environmental 
        Protection, SNWA has numerous compliance activities related to 
        the Clean Water Act and Safe Drinking Water Act overseen by 
        EPA.
          i. International Boundary Water Commission (IBWC). SNWA is 
        currently working with IBWC and BOR as part an ongoing process 
        to reach agreements with the country of Mexico on a number of 
        Colorado River issues, including shortage sharing.
          j. National Forest Service (NFS). SNWA holds grazing permits 
        administered by the NFS related to ranching operations 
        associated with SNWA's groundwater resources.

    Question 2. Please describe the models you use in projecting 
current and future water use.
    Answer. SNWA projects water use by using estimated future SNWA 
service area population along with projected water use in gallons per 
capita per day (GPCD) based on SNWA's current water use patterns and 
current water conservation goals.
    The projected future population utilized in SNWA's water use 
forecast is based on Clark County population forecasts prepared by the 
University of Las Vegas Nevada's Center for Business and Economic 
Research (CBER). The CBER population forecasts are currently funded 
under an interlocal agreement among the Southern Nevada Water 
Authority, the Regional Transportation Commission of Southern Nevada, 
and the Southern Nevada Regional Planning Coalition. CBER prepares the 
Clark County population forecasts using the Regional Economic Models, 
Incorporated model PI+ (REMI), a regional economic model commonly 
applied in economic forecasting and impact analysis. CBER's forecasting 
process also involves a workgroup consisting of southern Nevada 
planners, demographers and analysts resulting in a consensus on the 
population forecast for Clark County. The resulting forecasts are 
utilized by many southern Nevada agencies in various planning 
processes.
    SNWA's water use forecasting process applies the CBER forecast of 
Clark County population by adjusting the forecast to reflect the SNWA's 
service area. The resulting SNWA service area population forecast is 
then combined with current normalized water use in GPCD and a long-term 
trend on GPCD reflecting achievement of SNWA's long-term conservation 
goal. SNWA's current long-term water conservation goal is to reduce 
GPCD by approximately 50 additional gallons per person by the year 
2035.
                                 ______
                                 
   Responses of Michael L. Connor to Questions From Senator Stabenow
    Question 1. Your testimony indicates that Reclamation has expended 
approximately $74 million for the challenge grant program since 2004 
and that you expect that investment to eventually yield a savings of 
approximately 580,000 acre-feet of water per year--you also indicate 
that Reclamation has spent approximately $524 million for the Title XVI 
program which saved 245,000 acre-feet of water in 2009--

  <bullet> Can you give us an ``apples to apples'' comparison of 
        dollars spent per acre-feet of water saved for each program?

    Answer. Because Title XVI water recycling projects are 
fundamentally different from the typical water conservation focus of a 
WaterSMART [formerly Challenge] Grant project, a strict ``apples to 
apples'' comparison of the dollars spent per acre-foot is not a 
representative measure of each program's performance. Many external 
variables including regional economics, water availability, specific 
concerns being addressed by each project, water use type, and other 
factors influence the two programs' performance and cost.
    For example, in agricultural areas, water delivery improvements 
such as canal lining or measurement improvement projects funded with 
WaterSMART grants may yield significant water savings. In urban areas, 
residential and industrial efficiency improvements can be supplemented 
by attempts to create new water supplies. Water recycling and reuse is 
a critical tool to address urban water needs, reduce imported water and 
associated pumping costs, and thereby increase the sustainability of 
water supplies.
    Using figures up to 2009, as stated in our testimony, Title XVI 
projects had been appropriated $524 million in Federal funds since 1992 
and were producing 245,000 acre-feet of water per year. Counting only 
the Federal appropriations (not counting the typical 75% local project 
share within Title XVI), these existing Title XVI projects could be 
said to have a $2,138 per acre-foot cost. It is important to note, 
however, that the $524 million listed in our testimony includes $135 
million in American Recovery and Reinvestment Act funding. Projects 
funded under ARRA are currently beginning construction and will add to 
the 245,000 acre-feet per year of water savings recorded in 2009. A 
cost per acre-foot excluding ARRA funding to compare water savings more 
closely to constructed projects is approximately $1,588 per acre-foot.
    For WaterSMART Grants, these projects had been appropriated $74 
million since 2004, and were conserving 580,000 acre feet per year. 
Counting only the Federal appropriations, these existing projects could 
be said to have yielded a $127 per acre-foot cost.

  <bullet> Are there reasons to continue to fund both programs even if 
        one is more efficient on a dollar per acre-foot of water basis?

    Answer. Yes. Throughout Reclamation, many different projects and 
programs produce water at a differing cost per acre-foot basis. As 
stated above, this is attributable to the wide variety of external 
variables in place where water projects are constructed. The Department 
of the Interior (Department) believes that cost is not the only 
variable relevant for policy decisions about the funding of water 
programs.
    Question 2. How will the WaterSMART program incorporate the goals 
of the Department's New Energy Frontier initiative?
    Answer. Both the New Energy Frontier initiative and the WaterSMART 
initiative are part of the Department's Fiscal Year (FY) 2011 budget 
request. While their implementation will proceed separately, each 
initiative advances the goal of renewable energy in the water, energy 
and land management areas. Under the WaterSMART Program, Title XVI 
Program funding and the WaterSMART Grant funding opportunity both award 
points to projects incorporating renewable energy sources and 
addressing the water-energy nexus. Projects competing under these 
Programs are more likely to receive Federal funds if they incorporate 
renewable energy technology or resources. Also under the WaterSMART 
Program, the Basin Studies being conducted by Reclamation specifically 
focus on increased demand for hydropower or other energy development 
that may result from anticipated changes in water use or decreased 
reservoir levels. The New Energy Frontier initiative will be 
implemented primarily through the Bureau of Land Management, Minerals 
Management Service, U.S. Geological Survey, Fish and Wildlife Service, 
and the Bureau of Indian Affairs. Under the terms of a March 24, 2010 
Memorandum of Understanding between the Department of the Interior, the 
Department of Energy and the Department of the Army through the Corps 
of Engineers, Reclamation will also play a key role in increasing 
generation from Federal hydropower facilities. The MOU is described 
online at http://www.doi.govinews/pressreleases/2010_03_24_release.cfm
    Question 3. You indicate that Reclamation has initiated West-wide 
Climate Change Risk Assessments to provide consistent projections for 
all of the major river basins in the West of how climate change will 
affect water supplies--

  <bullet> How are you coordinating with the other federal agencies on 
        this effort to ensure that you are not duplicating efforts?

    Answer. Reclamation coordinates with other Federal agencies 
regarding our climate change activities in several different ways. In 
2008, Reclamation, the U.S. Army Corps of Engineers, NOAA and the U.S. 
Geological Survey formed the Climate Change and Water Working Group to 
coordinate and focus on identifying climate research needs and tools. 
In addition, we work closely with WestFAST, a group of Federal agencies 
that work with the Western States Water Council. Additionally, 
Reclamation coordinates with other Federal agencies on individual 
climate change activities, including on each of the Basin Studies 
funded in FY 2009. Similarly, Reclamation, which will be initiating 
West-Wide Climate Risk Assessments in the next few months, will reach 
out to other Federal agencies in conducting the Assessments, both 
through the working groups identified above and through agency 
contacts. For example, Reclamation co-hosted a workshop with NOAA in 
March 2010 in Boulder, Colorado, to bring together Federal agencies 
involved in climate activities on the Colorado River. The purpose of 
the meeting was for agencies to share information about their 
activities and to identify opportunities to collaborate. The West-Wide 
Risk Assessments were one of the topics presented by Reclamation. 
Finally, Reclamation is also actively involved in Landscape 
Conservation Cooperatives, which are focused on increasing coordination 
among Federal agencies, States, Tribes, local governments and non-
governmental entities on climate change and resource management.
     Responses of Michael L. Connor to Questions From Senator Risch
    Question 1. What specific efforts are underway with participation 
with US Corp of Engineers?
    Answer. Because of our shared missions of water resources 
management, the efforts of Reclamation and the U.S. Army Corps of 
Engineers (USACE) are intimately intertwined across the West. 
Reclamation has many efforts underway at the operational and planning 
levels with participation from USACE. In Idaho, for example, 
Reclamation operates facilities like Palisades Dam on the Snake River 
to be consistent with flood control criteria developed by USACE and 
adopted by Reclamation. In the event that flows on the River reach a 
pre-determined level, criteria in place at Palisades and elsewhere call 
for specific actions to manage the facility to maximize flood control 
and protect life and property. This arrangement is very common at 
Reclamation facilities given USACE's longstanding mission focus on 
flood control. At the planning level, Reclamation and USACE coordinated 
very closely to plan and commence construction--underway now--of the 
Joint Federal Project (JFP) at Folsom Darn on the American River in 
California. The JFP is a construction project to improve. both flood 
control capability and dam safety at Reclamation's Folsom Dam. The 
USACE is conducting the flood control improvements at Folsom, and 
Reclamation is conducting the dam safety work. At the long-term 
planning level, Reclamation and USACE in February 2005 signed a 
partnership agreement designed to increase the coordination, 
collaboration and cooperation between the two agencies. This 
partnership agreement will enable Reclamation and USACE to collaborate 
in areas of mutual interest, such as river management and water supply 
initiatives; hydropower management; technical assistance for research; 
darn safety and security; emergency management procedures; water-
related recreation management; and improvement of communications 
between field offices. Finally, as referenced above, under the terms of 
a March 24, 2010 Memorandum of Understanding between the Department of 
the Interior, the Department of Energy and the Department of the Army 
through the Corps of Engineers, Reclamation and the Army Corps will 
play a key role in increasing generation from Federal hydropower 
facilities.
    Other collaborative activities with USACE include:

  <bullet> Working together as participants on the Columbia River 
        Reservoir Management Joint Operating Committee to develop 
        climate and hydrology datasets for use in longer-term planning 
        studies; and
  <bullet> Reclamation and USACE, as part of the Climate Change and 
        Water Working Group, have drafted a joint agency perspective on 
        the improved tools and information our agencies need to better 
        incorporate global climate change information into our 
        management of water and water-related resources. The draft 
        document is titled: Addressing Climate Change in Long-Term 
        Water Resources Planning and Management: User Needs for 
        Improving Tools and Information. The document is currently 
        being broadly reviewed by both agencies. We have also invited 
        representatives from the non-Federal and other Federal water 
        resources management communities to contribute their 
        perspectives for inclusion in the document. We hope its 
        publication will help science organizations and agencies focus 
        their climate-related research and development toward the data 
        and tools most needed by water managers.
  <bullet> Our work with the Army Corps regarding biological opinions 
        governing the Federal Columbia River Power System (FCRPS) is 
        discussed below.

    Question 2. What specific efforts are underway with participation 
with Bonneville Power Administration?
    Answer. The Bonneville Power Administration (BPA) markets electric 
power and energy from Federal hydroelectric projects in the Pacific 
Northwest constructed and operated by both Reclamation and the USACE. 
BPA's service area includes Oregon, Washington, Idaho, western Montana, 
and small parts of Wyoming, Nevada, Utah, California, and eastern 
Montana. Compliance with biological opinions governing operation of the 
Federal Columbia River Power System (FCRPS) is one action among many 
underway today that requires close coordination between Reclamation and 
BPA. The current FCRPS biological opinion reflects over two years of 
collaboration by Reclamation, BPA, USACE, and the National Marine 
Fisheries Service, together with the four Pacific Northwest States and 
several Tribes. As a result of this extensive collaboration and the 
parallel, but independent efforts of the action agencies (BPA, USACE, 
and Reclamation) to negotiate 10 year agreements to support 
implementation of the FCRPS biological opinion, and benefit salmon 
recovery efforts, the States of Montana, Washington, and Idaho, the 
Shoshone-Bannock Tribe of Idaho, and the Yakama, Warm Springs, 
Umatilla, and Colville Tribes, signed 10 year memoranda of agreement 
with the action Agencies and have agreed to support the 2008 FCRPS 
biological opinion in litigation pending in Federal Court. This 
development will lend consistency and predictability to the Federal 
operational efforts in the entire Pacific Northwest.
    Question 3. Will the WaterSMART project give us better 
understanding of the ``supply and demand'' relationships with ESA and 
the Salmon in the Columbia Basin?
    Answer. As described in Reclamation's testimony, as part of the 
WaterSMART Program's basin studies, Reclamation's West-Wide Climate 
Risk Assessments will provide projections of how climate change will 
affect several factors in eight major river basins, including the 
Columbia. Those factors include water demand, temperature and 
precipitation. As of now, no WaterSMART Basin Study has been announced 
specific to the Columbia River, however, the Basin Study being 
conducted on the Yakima River will yield supply and demand information 
useful to users and stakeholders on the Columbia River because the 
Yakima is a tributary to the Columbia.
    Question 4. Within your testimony you describe the goal of 
conserving up to 350,000 acre-feet of water by 2012. Is this new water 
to be created over the next 2 years, or does it entail water already 
accounted for and conserved in the past?
    Answer. The 350,000 acre-foot target identified in my testimony 
does not include water already conserved in the past. In order to 
capture the benefits of program funding appropriated during the 
applicable time-frame for the goal (2010 and 2011), the 350,000 acre-
foot target is based on estimated water savings for projects to be 
funded with 2010 and 2011 appropriations. Contributions towards the 
goal will be calculated by recording the anticipated water savings for 
projects funded in 2010 and by the end of 2011. Fundamental to the 
WaterSMART Program, the Fiscal Year 2011 President's budget requests 
increases in Title XVI ($15,405 million) and WaterSMART (formerly 
challenge) Grants ($9 million) above the FY 2010 enacted levels to make 
this possible.
    Question 5. Within your testimony, you indicate that the WaterSMART 
Program intends to achieve a sustainable water strategy to meet our 
Nation's water needs. Please describe what you mean by a ``sustainable 
water strategy.'' What types of projects could be developed under this 
strategy? Who is the lead agency at the Department of Interior, as it 
pertains to climate change?
    Answer. Through the WaterSMART Program, Reclamation will identify 
imbalances in water supply and demand both now and in the future, 
taking into consideration the impacts of climate change, and will 
implement on-the-ground water conservation projects, water reuse and 
recycling projects and other types of adaptation strategies to help 
meet future demands. The Department believes that sustainable water 
strategies are those that secure and stretch water supplies for use by 
existing and future generations; and that are insulated from long-term 
uncertainties in hydrology, funding, stakeholder participation, or 
other essentials, to the maximum extent possible. The Department's 
Climate Change Response Council (re-named the Energy and Climate Change 
Council on January 26, 2010) was created by Executive Order 3289 to 
coordinate the Department's response to the impacts of climate change 
among the Bureaus. Each of the Bureaus are closely coordinating their 
specific research and mitigation efforts to ensure that there is no 
duplication of effort and to leverage the finance and technical 
resources of each.
    Question 6. What agency will oversee the WaterSMART Program? If it 
is divided amongst two agencies, will there be a lead agency?
    Answer. Reclamation and the U.S. Geological Survey will each 
function as leads for their respective activities under the WaterSMART 
program and are coordinating on implementation efforts. The WaterSMART 
Task Force is composed of representatives from all Department Bureaus 
and offices. The Task Force is developing a strategy for the 
implementation of the WaterSMART Program in the Department. The 
strategy will be provided to the public for comment prior to 
finalization.
    Question 7. How developed are your current models in projecting 
current and future water use?
    Answer. Reclamation utilizes state of the science models for system 
evaluations, which incorporate water usage. These models have been 
fully developed for the purposes of filling information requirements at 
each basin where they are utilized. Projections of future water usage 
for municipal and industrial purposes are most often provided by 
Reclamation's stakeholders. Future agricultural usage is evaluated 
using fully developed models that are capable of evaluating current 
evapotranspiration. Future projections of water use are anticipated to 
be further informed through Research and Development activities as well 
as the USGS WaterSMART implementation including the National Water 
Census.
    Question 8. Please describe the financial role that each of the 
federal agencies, described in your testimony as collaborators, will 
play within funding the myriad of programs in the Secure Water Act. Who 
will be the lead federal agency? Will that agency be able to solicit 
and obtain funds from the other federal agencies to fund this 
initiative?
    Answer. Within the Department of the Interior, Reclamation will 
serve as the lead in implementing Sections 9503 through our Basin Study 
Program and West-Wide Risk Assessments. Reclamation will also lead 
implementation of Section 9504 of the Act through WaterSMART (formerly 
challenge) Grants. Reclamation will provide all Federal funding for 
these programs and requires a 50 percent non-Federal cost-share for 
most activities. The U.S. Geological Survey (USGS), through the Council 
on Environmental Quality and the Subcommittee on Water Availability and 
Quality [a subcommittee under the National Science and Technical 
Council Committee on Environment and Natural Resources], is working to 
fulfill the requirements of Section 9506 for an intragovernmental panel 
on climate change. The USGS serves as the lead in implementing Sections 
9507, which authorizes measures to enhance water data collection and to 
produce an assessment of brackish groundwater systems, and 9508, which 
establishes a National Water Availability and Use Assessment Program. 
The USGS and its more than 800 Federal, State, local, and Tribal 
partners collect ground-and surface-water data and information as 
called for in Section 9507. USGS base funding in 2010 has allowed the 
USGS to begin the assessment of brackish groundwater systems called for 
in Section 9507. The USGS will lead implementation of Section 9508 of 
the Act through the WaterSMART Availability and Use Assessment 
Initiative proposed in the President's 2011 budget. Should the Congress 
choose to fund the 2011 USGS WaterSMART effort, the USGS will provide 
Federal funding to begin implementing Section 9508.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of David Reynolds, Director of Federal Relations, Association 
              of California Water Agencies, Sacramento, CA
    The Association of California Water Agencies (ACWA) appreciates the 
opportunity to provide additional comments on your March 16 hearing on 
the Bureau of Reclamation's implementation of the SECURE Water Act, 
WaterSMART program, Basin Study Program, and Title XVI Program. ACWA's 
447 public water agency members supply over 90 percent of the water 
delivered in California for residential, agricultural and industrial 
uses.
    In the Western U.S., drought, ESA restrictions, population growth, 
climate change, and ecosystem needs make managing water supplies 
especially challenging. Improving the reliability of water supplies 
requires innovative approaches such as Reclamation's Title XVI, water 
recycling program and new WaterSMART program.
    ACWA recommends increasing Title XVI funding to at least $75 
million per year and encourages Reclamation to promote water recycling 
as part of its core mission, including new project authorizations. This 
highly leveraged program provides one federal dollar for every three 
local dollars invested in water recycling projects. The proposed 
federal investment of $75 million would be matched by at least $300 
million in local investment.
    In California, recycled water projects can be more energy efficient 
than obtaining water from other sources. Anthony Peck, the General 
Manager for Eastern Municipal Water District, testified that after an 
evaluation and quantification of the energy usage and emission for each 
of their five sources of water, ``Recycled water is lower in both areas 
by a significant amount.'' This calculation is true for many water 
districts in California because transporting and pumping water is very 
energy intensive.
    ACWA supported the SECURE Water Act (P.L. 111-11) and believes it 
will help Reclamation plan for future water challenges caused by 
climate change. The WaterSMART grant program's focus meshes well with 
the Water Management Improvement grants described in the SECURE water 
act. However, it remains unclear how the Administration plans to 
implement other provisions in the Act. As discussed in the Family Farm 
Alliance testimony, water users are having difficulty determining which 
studies in the bill are receiving priority and how to become involved 
in the process.
    ACWA appreciates the opportunity to provide feedback on these 
programs and looks forward to working with you in the future. If you 
have any questions please feel free to contact me in our Washington DC 
office at 202-434-4760.
                                 ______
                                 
Statement of Gary W. Darling, General Manager, Delta Diablo Sanitation 
      District, Antioch, CA and Bay Area Recycled Water Coalition 
                             Representative
    Thank you for this opportunity to provide comments on the Title XVI 
Water Reclamation and Reuse Program, and to communicate our experiences 
and suggestions.
                               who we are
    The Bay Area Recycled Water Coalition (BARWC) is a partnership of 
public agencies committed to developing recycled water as a resource 
for the San Francisco Bay Area. BARWC is committed to pursuing highly 
leveraged, locally managed projects that will help ensure the security 
of water supplies in the western United States for years to come.
    Our current membership includes fourteen public agencies across the 
Bay Area who are pursuing Title XVI funding for seventeen projects. 
These agencies are part of the Bay Area Regional Water Recycling 
Program (BARWRP). In 1999, the original BARWRP agencies completed a 
Recycled Water Master Plan, which identified 240,000 acre-feet per year 
of recycled water opportunities that could be developed by 2025 with 
Federal and State funding partnerships. The seventeen projects 
currently in BARWC will yield over 50,000 acre-feet per year of water 
in the near-term and have the potential to yield over 100,000 acre-feet 
per year in the future. Fifty-thousand acrefeet of water is over 16 
billion gallons per year or 45 million gallons per day, which is enough 
water to meet the needs of 150,000 households. Implementing these 
projects will result in reduced demand from Bay Area communities on 
scarce freshwater from the Delta.
                      title xvi program strengths
    Title XVI is a very important and beneficial program because of the 
Federal partnership and costshared funding for planning, design and 
construction of water recycling projects. At 25% Federal share, the 
intent is to provide seed money to local agencies to help defray the 
cost of expensive alternative water supply projects. Recycled water 
projects provide long-term sustainable water supply options, which are 
crucial now as California struggles with drought conditions and water 
restrictions, and will continue to be crucial as agencies prepare for 
and address the effects of climate change.
    These projects are mutually beneficial for the Federal government 
and the local project sponsor. The Bay Area Recycled Water Coalition 
projects benefit California and the Federal Government through the 
preservation of State and Federal reservoir supplies for higher uses, 
particularly in drought years, and provide a cost effective, 
environmentally friendly water supply for increased dry year yield in 
the sensitive Bay-Delta region. Recycled water supplies can help the 
government meet legal requirements limiting use of water from the 
Sacramento/San Joaquin Delta.
    Recycled water is sustainable water, and the only new water 
available to help California and other western states deal with the 
combined pressures of drought and population growth that threaten to 
exhaust our existing supplies. Recycled water is a resource available 
now in substantial quantities, and these projects can take the pressure 
off a system that's oversubscribed, not just in drought years but every 
year. With a small Federal contribution, these projects have 
demonstrated that they can deliver water and reduce demand on limited 
water supplies.
    With a 75% minimum non-federal share, the Title XVI program is 
highly leveraged so each Federal dollar invested in the program will 
yield three times the outlay. The 25% Federal cost share provides 
valuable financial support in these difficult economic times to public 
agencies being challenged with decreasing revenue and increasing 
expenditures. This Federal funding, when combined with State funding 
and low interest loans, makes recycled water a more affordable option 
for local agencies such that it is cost competitive with existing water 
supplies. For example, the Antioch Recycled Water Project is expected 
to receive 25% Federal Funding, 25% State funding, and a low interest 
loan. Without this assistance, it would take 44 years for the recycled 
water costs to breakeven with current potable water costs; with this 
assistance, the breakeven point is within one year. Without this type 
of financial assistance, many of these projects would not move forward 
because the payback period is too long. By continuing to fund 
Reclamation's Title XVI program, Congress can ensure incentive for 
local communities to invest local resources to build a truly 
sustainable water future for the United States.
    The BARWC has received $11.58 million in FY09 appropriations, 
$4.215 million in FY10 Appropriations, and was allocated $22 million in 
Recovery Act funds. This funding will fulfill the authorized Federal 
cost share for seven projects. To date, six of these BARWC projects 
have not received any money because the Bureau of Reclamation has not 
executed any Cooperative Agreements for these projects, some of which 
have now completed construction.
                      title xvi program weaknesses
    The Title XVI program has been inherently underfunded, which has 
created a funding backlog and until recently a reluctance by the agency 
to support new projects. Now, as more funding has been made available 
through congressional appropriations and the American Recovery and 
Reinvestment Act of 2009 (ARRA), it appears that the Bureau of 
Reclamation (Reclamation) does not have the resources or an adequate 
system to administer the program and execute the agreements in a timely 
manner.
    It is no small feat for a project to become eligible for Title XVI 
funding. It is a minimum three to four year process requiring not only 
that the project meet Title XVI requirements for feasibility and 
environmental compliance, but that the project receive congressional 
authorization and appropriations. This earmark-driven process requires 
bills to pass through the House and Senate and be signed into law by 
the President for the authorizations, and pass through the House and 
Senate and be signed into law by the President for the appropriations. 
This has been a minimum two-year process, and in most cases much 
longer. Meanwhile, these projects most often will sit on the shelf, 
which delays the development of these much needed water supplies. The 
process is too long and the level of effort is overly burdensome for 
the low risk involved with a 25% Federal cost share.
    The BARWC currently has six projects that could move forward, but 
are stymied waiting for the authorization process. The authorization 
bill (HR2442) was passed in the House last October, but is still 
pending in the Senate. Meanwhile, these projects are not eligible for 
funding that may be available through ARRA, FY11 appropriations, or 
USBR budgets because they have not received authorization. This leaves 
8,000 acre-feet of water per year (the equivalent of providing water 
for 24,000 homes) untapped.
    Once a project has made it through the hurdles of authorization and 
appropriation, the money is not available until the Bureau of 
Reclamation has checked off all of the Title XVI requirements and they 
have executed a Cooperative Agreement (in several cases there are 
multiple cooperative agreements for the same project). As the BARWC 
project sponsors are still waiting for Cooperative Agreements for Title 
XVI compliant projects that have received FY09 and FY10 appropriations 
as well as ARRA funding, this process itself has taken over a year.
    While the Feasibility process is somewhat defined with Reclamation, 
the Cooperative Agreement process is not. Some of the activities occur 
at the Regional offices, and some in Denver, although the project 
sponsor is not made aware of the steps or timelines for document 
submittal or review. For example, while the Title XVI Guidelines state 
that a project will go through financial capability determination, 
there is no information made available ahead of time to the project 
sponsor about what this will involve, who reviews it, how the 
determination is made, and the timeline for a decision. Additional 
information requests may be made of the sponsor for detailed budget 
breakdowns, cost/price analysis determination, and financial management 
system surveys, once again with no information regarding the process 
and timelines. There is also a disconnect or general lack of 
understanding from Reclamation personnel involved in this review 
regarding how public works construction projects are designed, 
estimated by engineers and bid, such that the requests for budget 
details and cost analysis don't line up with reality. For example, 
California has a Public Contract Code, which requires public works 
projects to be bid through a public competitive process where bids are 
based on defined items of work detailed in construction plans and 
specifications. Bids are received, opened, and the lowest responsive, 
responsible bidder is selected. Additionally, the requirements allow 
for the rejection of all bids under certain conditions. Despite all of 
these requirements and oversight which helps create a level playing 
field and a defensible process to ensure competitive costs on public 
works projects, Reclamation personnel request budget breakdowns as if 
these were research projects, identifying the principal investigator 
and hourly rates, equipment cost breakdown, material cost breakdown, 
and so on. This is not how construction projects are bid, and as these 
public works projects are also required to comply with the California 
Labor Code to provide prevailing wage rates, any additional requests 
for employee positions, wages, and so on create an excessive and 
unnecessary review.
    This is not to say that all of these concepts and reviews are 
unneeded, but that the process is not clearly defined and communicated 
to the sponsor. Therefore, it appears that Reclamation does not 
consistently address these as locally-sponsored construction projects 
and does not consistently communicate to the sponsor what needs to be 
submitted and how decisions on adequacy or completion are determined 
within a predictable timeline.
    Additionally, the money coming through these agreements with 
Reclamation is on a reimbursement basis. This results in very little 
risk to the Federal Government providing 25% cost share when the 
project has already been built and paid for by the local agency, and 
does not warrant the level of review being requested to determine 
financial capability for projects that are already constructed.
    The ramification of this burdensome, time-consuming, ill-defined 
process is that projects which have worked in the system to complete 
feasibility, environmental review and have received public support, 
authorization and appropriations are still without funding as they wait 
for an agreement.
                title xvi opportunities for improvement
    More than ever, the Title XVI program is needed. Considering all of 
the stressors of drought, population, over-allocation, endangered 
species and environmental concerns, the water supply situation in 
California is unlikely to improve anytime soon. There is no new water 
that can realistically be developed in this region due to the lack of 
water availability, fierce competition amongst water users, and 
heightened review and insistence from the non-governmental 
organizations (NGO's) that there are water management options available 
with less environmental impacts. Recycled water and brackish 
desalination developed through a Federal partnership utilizing the 
Title XVI program are two of the solutions to address this issue. The 
source waters are available now, and there are projects ready to 
implement that can provide much needed water if financial funding 
pathways become more readily accessible. In order for this to happen 
through Title XVI, changes are needed so that the program can be 
administered efficiently and funded sufficiently.
    The political, earmark-driven approach for individual project 
authorization and appropriation should be reexamined for Title XVI. 
This is a minimum two to three year process for each project. A 
different approach that is based on projects competing for 
discretionary funds, having met specific phased criteria (such as the 
process for approving Federal funds for mass transit) would be more 
efficient.
    Another approach is to provide federal funding directly to a state 
that has an established new water program. For example, California has 
established a statewide goal to create one million acre-feet per year 
of recycled water by 2020 and two million acre-feet per year by 
2030\1\. Those aggressive goals and established State funding programs 
should be investigated to determine if the Federal investment could be 
channeled directly to the State and result in less cost to administer 
and provide water supply improvements towards Federal contracts and 
environmental obligations.
---------------------------------------------------------------------------
    \1\ California State Water Resources Control Board, Recycled Water 
Policy, Approved May 14, 2009.
---------------------------------------------------------------------------
    A broader or revised program approach to authorization and 
appropriation will necessarily result in a new program administration 
approach. The danger is creating a new approach that is more burdensome 
than the current program, or that is a duplication of efforts already 
occurring at the state level. If not planned carefully, a new process 
could develop which creates an unnecessarily detailed, time-consuming 
project evaluation and ranking process with a level of effort for the 
agency and sponsor that outweighs the funding amounts or risks. The 
goal should be to create a more streamlined, defined and efficient 
process that will better serve the Bureau of Reclamation and the local 
sponsor, and will help achieve Reclamation's performance measures for 
increasing the acre-feet per year of reuse and reclaimed water.
    Regardless of the possible approaches addressed herein, I would 
suggest that a working group consisting of representatives from the 
administration, (DOI, USBR, and OMB); members of Congress; and various 
stakeholders (states, local Title XVI project sponsors, etc.) be 
convened to review the current situation with respect to all aspects of 
Title XVI with a view toward meaningful reform in the program.
    BARWC appreciates the support that it has received to date from the 
Title XVI Program. The fourteen Bay Area agencies that have joined 
together on an unprecedented regional basis are anxious to develop near 
term projects that are currently stuck in the congressional approval 
process. In the meantime, those projects are on hold. More 
significantly, three new projects have joined the coalition that have 
the potential to develop 12,500 acre-feet of additional water, and they 
have not even begun the congressional and Reclamation approval 
processes. Finally, BARWC is aware of several other Bay Area projects 
and partners who are interested in moving forward but are wary of the 
time and investment needed to secure the federal partnership. BARWC 
would like to work with Reclamation to determine a more efficient and 
timely process to move the current set of projects forward and attract 
other projects in the future that will continue to be mutually 
beneficial for the local sponsor and Federal government.
                                 ______
                                 
             Statement of the Western States Water Council
                              introduction
    The Western States Water Council (WSWC) actively supported 
enactment of the SECURE Water Act (the Science and Engineering to 
Comprehensively Understand and Responsibly Enhance Water Act or Title 
9501 of P.L. 111-11). Our members are appointed by the Governors of 
eighteen states. We are an advisory body on water policy issues 
affiliated with the Western Governors' Association (WGA). We appreciate 
the Subcommittee's continuing leadership in addressing the serious 
water-related challenges facing the West and the Nation.
    Our testimony is based on a number of our prior reports, statements 
and positions. More specifically, in June 2006, the Western Governors' 
Association unanimously adopted a report prepared by the Western States 
Water Council entitled, ``Water Needs and Strategies for a Sustainable 
Future'' and in 2008 a follow up ``Next Steps'' report. These reports 
included a number of recommendations related to federal programs under 
this Subcommittee's jurisdiction, and we would like to address specific 
program requests in the Administration's FY2011 Budget in the context 
of those recommendations.
                         department of interior
FY2011 Budget
    The Council recognizes the difficult challenges facing the Nation 
related to our current economic woes and the federal budget deficit. We 
are all being called upon to do more with less. We appreciate the ARRA 
investments that have been made in our water resources infrastructure, 
and western states in general support similar capital investments at 
all levels of government. Increasing demands related to our growing 
population in the West and environmental protection, as well as the 
uncertainty related to climate change and unquantified Indian water 
rights, make present and future water resources planning and management 
particularly challenging. The SECURE Water Act notes that the Federal 
Government should support the States, which ``bear the primary 
responsibility and authority for managing the water resources of the 
United States.''
    For more than 100 years the Department of Interior has worked with 
the States and Tribes, as well as water users and stakeholders to 
address our water challenges. States continue seeking infrastructure 
improvements and additions, particularly new water storage 
opportunities, while at the same time striving to increase efficiency 
and reduce water use. Western water law and policy are based on the 
reality of scarcity and the need to use water wisely.
    Without the Bureau of Reclamation and federal investment in past 
water projects, the West would not be what it is today. Continuing 
investments and sacrifices will be needed to maintain our quality of 
life and protect our environment. Difficult choices have to be made at 
both the federal and state agency levels.
    As we plan for the future, states are well aware of the importance 
of maintaining our existing assets and prioritizing future 
infrastructure investments. States are in the best position to 
identify, evaluate and prioritize their needs. State water plans should 
help form the basis for federal decisions. We must work together as 
partners. The federal government should support States by providing a 
rational federal regulatory framework, together with technical and 
appropriate financial assistance.
    Overall, Interior's budget request for Reclamation is down by $23M, 
slightly less than last year, while requests for some programs, such as 
the WaterSMART program, have increased. There is a continuing need to 
highlight the importance of water to our Nation's economic vitality and 
environmental health. The Reclamation Act of 1902, recognizing the 
vital need to invest in Western water resources, created the 
Reclamation Fund as a means to finance such investments. The 
unobligated balance at the end of FY2011 is projected to be about $9.35 
billion (but spending from this special Treasury account is still 
subject to appropriations and pay go rules). Receipts are more than 
sufficient to fund all current Reclamation expenditures and more. In 
essence, the unobligated balance grows as fund receipts are used to 
finance other government purposes. We continue to urge the Congress to 
increase spending from the Reclamation Fund for authorized purposes.
    Of special note, Congress has authorized future transfers from the 
Reclamation Fund for construction of projects related to Indian water 
rights settlements, the resolution of which has been a longstanding 
goal of the Council.
Reclamation Climate Change Adaptation Program and Climate Science 
        Centers
    The Council has consistently recognized the importance of water, 
weather and climate science. Climate variability and change introduce 
significant uncertainty into water resources planning, management and 
decisionmaking. The Council supported a Reclamation Climate Change 
Adaptation Program. Interior's FY2011 budget request includes $11.5M 
for Climate Science Centers. The Council looks forward to working with 
Interior as it develops these centers and Reclamation's program. The 
Council has also been an advocate for climate programs and services 
provided by the National Oceanic and Atmospheric Administration (NOAA), 
including the National Integrated Drought Information System (NIDIS) 
and Regional Integrated Sciences and Assessments (RISA) Program. We 
understand the Council on Environmental Quality will take a lead role 
in ensuring these various federal climate science efforts are 
coordinated.
                         bureau of reclamation
WaterSMART Program
    The Council has often supported technical and financial assistance 
to states and local watershed groups and water districts as an 
appropriate federal role. We are encouraged by Secretary Salazar's $62M 
request for Interior's WaterSMART Program, and recognize the importance 
of the proposal in an increasingly tight federal budget.
WaterSMART Grants
    The FY2011 request for Reclamation includes $27M for WaterSMART 
water conservation grants to better optimize system operations and 
encourage water use efficiency, marketing and banking programs, and the 
use of brackish waters. The Council supported legislation specifically 
authorizing such grants. In the past, such cost-shared grants have 
leveraged federal spending with state and local contributions, leading 
to an investment of nearly $3 for every federal dollar spent. Grant 
applications continue to come in well in excess of the amount of 
federal grants available. For example, Reclamation received 141 
applications for grants funded with ARRA money, but with the nearly 
$40M appropriated was able to provide money for only thirteen projects 
in five states. Roughly ten times the federal appropriation could have 
been matched.
    The WaterSMART program is in part designed to make water available 
through conservation for other uses. It is important to note that the 
allocation of water is primarily a state prerogative, and water 
transfers are subject to state water law and policy. The use of any 
WaterSMART program water savings will be subject to state law. Of note, 
the SECURE Water Act explicitly requires grant applicants to agree not 
to (1) ``use any associated water savings to increase the total 
irrigated acreage of the eligible applicant;'' or (2) ``otherwise 
increase the consumptive use of water in the operation of the eligible 
applicant, as determined pursuant to the law of the State in which the 
operation. . .is located.''
Basin Studies
    The Council has been a proponent of watershed and basin-wide 
coordination and a commitment to involving all governmental entities 
and stakeholders with an interest in finding solutions to present and 
future water management challenges. Interior requests $6M for basin 
studies to assess water supply and demand, climate impacts and identify 
adaptation strategies, in partnership with States, Tribes and water 
districts. This request will fund three 50%-50% cost shared studies in 
the Colorado River Basin (covering seven states), the Yakima River 
Basin in Washington and the Milk-St Mary's River Basins in Montana (and 
Canada). Obviously, there are other basins worthy of future study. 
These studies are intended to identify basin-wide water supply issues 
and in partnership with basin States, Tribes and stakeholders define 
options for meeting future water demands and related challenges.
    The Western States Water Council has been approached by Reclamation 
about involvement in the Colorado River Basin study, and we appreciate 
the opportunity to collaborate.
Cooperative Watershed Planning Act
    There is a need to focus on grassroots, small watershed approaches 
to identifying water problems and potential solutions from the ground 
up, integrating these efforts into individual state water plans and 
federal water resources planning. Separately, The Council supported 
enactment of the Cooperative Watershed Planning Act as part of P.L. 
111-11. We understand Interior is moving forward and Reclamation hopes 
to implement a pilot project with existing budget resources. Such 
assistance will provide important help for grassroots, watershed groups 
which have often proven effective in addressing complicated water 
management and water quality protection challenges. Hopefully, future 
funding will be available to further promote the development of 
watershed groups and implementation of watershed management programs 
and projects.
Rural Water Supply Needs
    The Council has consistently supported assessing and addressing 
rural water supply needs, with appropriate federal technical and 
financial assistance. Reclamation's $62M request for ongoing projects 
is significant. However, rural water supply needs are expanding, in 
part due to federal safe drinking water mandates. Current and future 
federal spending will not likely be able to meet these growing needs.
    Title I of the Rural Water Supply Act of 2005 authorized 
Reclamation to complete an assessment of rural water supply needs. The 
Council supported enactment and has worked with Reclamation to help 
compile a listing of identified needs. The act also authorized cost 
shared project assessments. Reclamation has published interim final 
rules to govern the program, and requested $2.6M for FY2011 to move 
forward with soliciting and screening project assessment proposals. Any 
projects recommended for construction would need authorizing 
legislation.
    Of note, Title II of the act also authorized loan guarantees to 
help local districts with project operation and maintenance 
responsibilities (but without title to these federal projects) obtain 
private financing for major project repairs and rehabilitation work. 
Unfortunately, the Office of Management and Budget has determined such 
federal guarantees would have to be backed 100% by appropriated funds. 
Given the extremely low expected rate of default on such loans, this 
appears unnecessary. Moreover, it defeats the purpose of the 
guarantees, which is to leverage federal and non-federal resources.
Title XVI Projects
    The Council has supported various emerging and expanding 
technological opportunities to augment existing water supplies, 
including water reuse and recycling opportunities. The $29M WaterSMART 
requests for water reuse/recycling projects is another step forward. We 
recognize that Reclamation already has a lengthy backlog of authorized 
Title XVI projects, and much more could be spent to encourage and take 
advantage of water reuse and recycling opportunities. A total of 53 
projects have been authorized at a total federal cost of $624M, which 
represents up to a 25% federal cost share.
                         u.s. geological survey
    Without timely and accurate water resources information, human 
life, health, welfare, property, and environmental and natural 
resources are at considerably greater risk of loss. The USGS has been a 
leader in developing and realizing the potential of state-of-the-art 
technology to provide real or near real-time data with the promise of 
vastly improving the quantity and quality of water-related information 
available to decisionmakers in natural resources and emergency 
management, with the States as essential partners.
                               watersmart
National Water Assessment/Census
    The WaterSMART program includes $9M for USGS to work on a national 
water use and availability assessment (or national water census). 
Western governors have specifically noted the need for an ``. . 
.accurate assessment of the Nation's water availability and water 
demands, with the goal of integrating the information into state water 
resources planning, recognizing that a truly national assessment must 
begin at the state and local level with appropriate technical and 
financial support from the federal government.'' (Water Needs and 
Strategies for a Sustainable Future: Next Steps, p. IV, June 2008)
    Of the requested amount, $1M is to be made available for grants to 
help states develop programs to measure water use. Current state 
programs and abilities vary widely and such assistant--though limited--
will be welcome. We look forward to working with the USGS 
implementation team. The Western States Water Council is currently 
represented on the Advisory Committee on Water Information and has 
participated with the Sustainable Water Resources Roundtable, and USGS 
intends to work through both to refine the concepts and products to 
meet stakeholder goals.
    As it relates to measuring and monitoring agricultural and other 
water uses, the Council has worked hard to secure funding to ensure 
that a thermal infrared sensor (TIRS) was included as part of the 
Landsat Data Continuity Mission, which NASA has scheduled for launch in 
December 2012 (none too soon given operational problems with the 
existing Landsat 5 mission). USGS will gather, archive and distribute 
this thermal data. An increasing number of states and others are using 
this state-of-the-art technology to accurately measure consumptive 
agricultural water use remotely. We recognize and appreciate the fact 
that USGS has had to make a multi-million dollar budgetary commitment 
to accelerate development of its related ground operations to 
accommodate the continued availability of this thermal data (due to 
NASA's late commitment to include TIRS).
Streamgaging Programs
    While recognizing USGS has made a very substantial and significant 
increase in its request for water-related information gathering, we are 
nonetheless disappointed that requested funding was reduced for the 
National Streamflow Information Program (NSIP), which is fully 
federally funded (cut about $578,000 to $27M), and the Cooperative 
Water Program (cut some $1.9M to $63.6M). Cooperative Water Program 
(CWP) partners now fund about two-thirds of program costs.
    The proposed cuts, if not restored by the Congress, will 
undoubtedly lead to the loss of important streamgages--many with over 
30-years of record. The Council and many other stateholders have 
repeatedly called for full NSIP funding ($110M) and sufficient 
appropriations to support a 50%-50% CWP match ($95M). Together, these 
two programs support much of our national streamgaging system, which is 
critical for water resources and emergency management, planning and 
decision making; water supply project and transportation infrastructure 
design; long-term planning related to climate change and variability; 
and other essential uses.
    Hard funding choices have to be made, but as we struggle to find 
support for federal streamgaging programs, state and local confidence 
in the federal commitment to these programs is eroding and may 
eventually seriously undermine this critical federal-state partnership. 
Already some states are building and operating their own streamgaging 
systems, and more may follow. We need to consider what national 
benefits might be lost along with the current national streamgaging 
system should it be replaced with a fragmented lot of streamgages 
operated for limited purposes.
    Thank you for the opportunity to testify.
                                 ______
                                 
Statement of Shauna Lorance, General Manager, San Juan Water District, 
on behalf of the R3 Partners San Juan Water District and the Cities of 
                        Folsom and Roseville, CA
    Thank you for the opportunity to submit this statement on the 
Bureau of Reclamation's implementation of the SECURE Water Act (SECURE) 
and proposed WaterSMART Program on behalf of the R3 Partners (R3). My 
name is Shauna Lorance and I am the General Manager of the San Juan 
Water District, a partner in R3. The R3 is a partnership of the San 
Juan Water District, the City of Folsom, and the City of Roseville, 
California, which represents over three hundred thousand people who 
rely on the American River Basin for their water supplies. As a result 
of recent Endangered Species Act Section 7 consultations and Federal 
court actions, R3 believes that the current operation of the American 
River Basin for multiple purposes will be significantly and negatively 
impacted in the future. Furthermore, R3 believes that, through proper 
implementation of the SECURE Water Act, the Bureau of Reclamation can 
assist R3 in meeting current and future water demands, as well as help 
meet the significant future challenges that ESA demands in the Delta 
will have on the operation of our American River water supply 
infrastructure.
    Recently, the Central Valley Project (CVP) Operating Criteria and 
Plan (OCAP) Biological Opinions (BOs) for the endangered Delta Smelt 
and Salmon species in California include recommended reasonable and 
prudent alternatives that will negatively impact the reliability of the 
American River water resources for both the environment and people. 
Existing water supplies have already been stretched farther than ever 
imagined and cannot continue to meet future needs without additional 
water management and conservation projects in the Basin.
    The R3 partners believe the Congress should encourage Reclamation 
to be proactive with the SECURE Water Act implementation and allocate 
adequate funding for grants to implement local water management 
solutions that could help mitigate the possible negative impacts of the 
BOs on American River communities.
     local input invaluable to integrated regional water management
    The Sacramento Region, including the R3 Partners, is committed to 
continuing its collaborative efforts to assist the Bureau of 
Reclamation in the development of an operating plan for the American 
River Division that meets the objectives of the BOs while avoiding or 
minimizing impacts to water supply and environmental resources on the 
American River.
    Implementation of the reasonable and prudent alternatives (RPAs) 
recommended in the Delta Smelt and Salmon BOs will require significant 
changes in the operation of the CVP. A comprehensive statement 
describing Reclamation's proposed changes in operations under the BOs 
would provide us with valuable information regarding how those changes 
would affect American River water supply reliability and environmental 
resource protection goals in our region upstream of the Delta.
    The Sacramento region has developed an Integrated Regional Water 
Management Plan (IRWMP) for improved management of the area's limited 
water resources. The program builds on previous efforts, such as the 
2003 Regional Water Master Plan developed by the American River Basin 
Cooperating Agencies, to support a regional conjunctive use program and 
promote water recycling, water use efficiency, and other strategies 
that improve local water supply reliability. The American River IRWMP 
investigates a broad spectrum of management strategies, recognizes the 
benefits of integrating water management strategies, and identifies 
priorities for implementing projects and programs. Expanded investments 
from Reclamation through additional, longer-term SECURE grants could 
provide much needed cost-shared funding for water management tools that 
lessen the impacts from the previously mentioned stressors. R3 believes 
SECURE could be improved by adding a grant program specifically for 
larger, regional water management plans such as our IRWMP. Such 
regionally coordinated plans take several years to design and 
implement, yet Reclamation's current grant program (WaterSMART) seems 
to focus on a project-by-project mentality. A grant program that allows 
for a larger total grant to be cost-shared over several years would 
allow entire regions to plan for implementation of these coordinated 
plans. For example, we would be able to more effectively and 
efficiently implement elements of our IRWMP including water 
conservation programs, automated water delivery and management systems, 
and intertie pipelines between systems to better protect residents 
against water shortages during certain times of the year.
    Water management and delivery entities in the Sacramento Valley 
must be able to budget their share of the cost of such implementation 
projects and a project-by-project approach does not lend itself to such 
budgetary planning. In fact, the current approach has actually 
discouraged participation by districts and municipalities involved in 
regional water management. Writing and applying for grants encumbers 
valuable local cost-share resources that must be initially devoted to 
such projects. Dedicating local staff time and resources to multiple 
grant applications can become costly, especially when turned down in 
the process. Communities and districts with the foresight to develop 
integrated regional approaches to water management in their 
jurisdictions should be able to apply once for the entire 
implementation plan and, once awarded, match and receive such funding 
over a multi-year timeframe. This would allow a more orderly budgeting 
process and make applying for grants much more worthwhile.
          failure to act quickly has significant consequences
    In order for the Sacramento region to recover from the recent 
economic downturn, we must have a reliable water supply. As a region, 
we have linked our water supply to the sustainability of our aquatic 
environment. Without speedy determination of the effects of recent BOs, 
this region does not have enough information to move forward with 
appropriate investments in environmental restoration, water supply 
infrastructure, and groundwater management. Water resource issues 
focusing on groundwater and surface water reliability and quality; 
flood control and stormwater management; water supply and management 
infrastructure development; and environmental protection and 
restoration have long been at the forefront of the agenda in ``quality-
of-life'' planning throughout the greater Sacramento metropolitan area. 
To that end, over the past decade the agencies and municipalities 
charged with managing these resources have engaged with environmental 
groups and the business community in a variety of grass-roots, 
stakeholder-driven processes. These processes, though wide-ranging in 
the breadth of issues considered, have been underlain by a common 
objective: To ensure that all relevant constituencies have a voice in 
the management and protection of water resources. Uncertainty in these 
issues is counter to sound planning and implementation.
    Each of the IRWMP projects and programs address Statewide 
Priorities (either directly or indirectly). For example, groundwater 
wells, conjunctive use surface water pipelines, and treatment plant 
expansion projects work together to establish the required conjunctive 
use infrastructure that will secure the necessary flows in the 
Sacramento and American rivers in dry weather years without 
jeopardizing water supply or permanently impacting ground water 
aquifers. Recycled water expansion projects diversify water supply 
sources in order to reduce dependence on surface water and groundwater 
while minimizing discharge of treated wastewater into the rivers and 
also contributing to TMDL compliance. Stormwater and flood water 
management projects contribute to reductions in CSO's, SSO's, and non-
point source pollution. In addition, ecosystem restoration projects and 
meter replacement programs directly address environmental concerns 
shared by the CALFED and Bay-Delta water objectives. All of these 
projects work towards ensuring adequate, high quality water supplies to 
a growing population, while preserving and improving the ecosystems 
both in the immediate vicinity of Sacramento and in the Bay Delta. Our 
ability to plan long-term for the implementation of these projects is 
vital to the sustainability of the region.
   sacramento region stakeholders seek expedited analysis and funding
    With the predicted impacts from the BOs, as well as the expected 
significant impacts from climate change to our water sources in the 
Sierra Nevada Mountain Range, integrated regional planning and water 
supply and management infrastructure construction in the Sacramento 
Region will be critical to mitigating the impacts from both of these 
stressors.
    For the reasons stated above, the R3 partners and the entire 
Sacramento Region urge of the Congress to expeditiously direct the 
federal agencies involved in California water issues to immediately 
prepare a comprehensive analysis of all possible impacts to the 
American River Basin and other watersheds in California flowing to the 
Delta, resulting from the many requirements being placed on water 
supply in California, including recent Biological Opinions and current 
knowledge about the impacts to water supplies from climate change, and 
delineate the effects on north-of-Delta water supplies and tributary 
biological resources. This analysis should be developed in an open 
process that honors the value of local knowledge and experience.
    We also request additional federal funding opportunities, either 
through SECURE grant programs such as Water SMART or other funding 
sources, to assist in the implementation of the IRWMPs in our basin. As 
we discussed in this testimony, such efforts will be critical to our 
collective economic and environmental futures.
    Thank you again for considering our views, now and in the past. We 
look forward to working with the Committee in the future.
                                 ______
                                 
  Statement of Darvin Fales, P.E., Secretary-Manager, Quincy-Columbia 
  Basin Irrigation District, on behalf of the Columbia Basin Project 
                    Irrigation Districts Washington
    Thank you for the opportunity to submit this statement on the 
Bureau of Reclamation's implementation of the SECURE Water Act (SECURE) 
and proposed WaterSMART Program on behalf of the Columbia Basin Project 
Irrigation Districts. My name is Darvin Fales and I am the Secretary-
Manager of Quincy-Columbia Basin Irrigation District.
                    about the columbia basin project
    The Columbia Basin Project (CBP) is authorized by U. S. Congress to 
serve 1,029,000 acres when fully developed. The Columbia Basin 
Irrigation Districts (Districts) currently provide water to 621,000 
acres of irrigable land serving approximately 6000 landowners and farm 
operators located in central Washington.
    Grand Coulee Dam is the source of the water and energy needed to 
sustain the CBP. Water is the lifeblood of farms and families in this 
semi-arid region. Water has transformed much of the basin into 
productive farm ground as well as prime recreation and habitat for fish 
and wildlife. Between 2.3 and 2.7 million acre feet of water are 
diverted from the Columbia River into Banks Lake annually. The water 
must be pumped from the Columbia River by 12 pumps located in the John 
W. Keys III pumping plant. The CBP uses nearly one billion kilowatt 
hours of energy per year. Water conserved on Project equates to energy 
saved in the power system.
    Irrigation water is delivered to the farm through 300 miles of main 
canals, 2000 miles of laterals, and hundreds of relift pumps. Excess 
water is collected by 3500 miles of drains and wasteways. Much of this 
excess water is returned to Potholes Reservoir and used as the water 
supply for South Columbia Basin Irrigation District. This feature makes 
the CBP one of the most efficient irrigation delivery systems in the 
West, but by continuing to take conservation measures, the Project's 
efficiency can be further improved.
                economics of the columbia basin project
    The Districts commissioned an ``Economic Contribution of 
Agriculture Irrigated by the Columbia Basin Project'' study in 2009. 
Said study only considers the farm-gate contribution to local, state 
and national economies and did not consider additional water-based 
recreation and wildlife benefits. The scope of the economic impact 
analysis includes the generation of jobs and the ``ripple'' effect on 
other economic sectors. The economic model measures describe total 
economy: output, income and employment.
    Results from the economic and fiscal impact analysis show the total 
value of CBP production to be estimated at $1.44 billion annually.
    The $1.44 billion in crop production in the CBP supports economic 
activity throughout the United States of $5.81 billion annually, 
generates $2.42 billion income annually and nearly 39,000 jobs. The 
total output from the CBP exceeds the federal investment in the 
irrigation facilities annually.
            water conservation on the columbia basin project
    The Districts also commissioned a ``Columbia Basin Project 
Coordinated Water Conservation Plan'' with help and financial 
assistance from Washington State Department of Ecology (DOE). Since the 
CBP is a recapture-reuse project, a coordinated effort of all three 
Districts is needed to assure that documented water savings through 
conservation measures are ``true'' water savings. All three of the 
Districts have completed Comprehensive Water Conservation Plans within 
the past seven years but this 2010 plan is the first coordinated effort 
on Project. The DOE partnered in our efforts to use water savings on 
Project as a water source for a depleting ground water aquifer known as 
the Odessa Aquifer.
    The coordinated plan identifies long-term projects to be 
implemented by the Districts beyond 2010. A total of 690 projects have 
been identified and listed which include pipelines, canal concrete 
linings, buried linings and re-regulating reservoirs. The estimated 
costs of these conservation projects exceed $75 million. The estimated 
volume of water conserved when these projects are complete is nearly 
65,000 acre feet per year.
    Ancillary benefits of a long-term conservation plan are the much 
needed facility improvements of an aging infrastructure, improvements 
to water quality and decreased O&M costs.
      improvements to the secure water act and watersmart program
    Water delivered and power produced with Reclamation facilities are 
crucial contributors to our western economy, and our nation's 
agricultural and electrical stability. The challenge of completing 
major repair and rehabilitation of federally-owned aging infrastructure 
has been a priority of the non-federal operators in recent years. The 
Columbia Basin Project Irrigation Districts believe that the SECURE 
Water Act could be improved by adding a grant program specifically for 
larger, regional water management plans such as the CBP Coordinated 
Water Conservation Plan. Such regionally coordinated plans take several 
years to design and implement, yet Reclamation's current WaterSMART 
grant program only focuses on a ``project-by-project'' approach. A 
grant program that allows for a larger total grant to be cost-shared 
over several years would allow entire regions to plan for 
implementation of these coordinated plans unlocking the potential for 
large scale conservation of both water and electrical energy. Water 
managers of delivery entities such as the CBP Districts must be able to 
budget their share of the cost of such conservation projects and the 
current ``project-byproject'' approach does not lend itself to such 
budgetary planning. In fact, the current approach actually discourages 
participation by districts. Writing and applying for grants consumes 
valuable staff resources that must be initially devoted to such 
projects. Dedicating staff time and resources to multiple grant 
applications is costly and the possibility of being turned down in the 
process is a risk that must be carefully weighed in committing these 
resources. Districts with the foresight to develop integrated regional 
approaches to water management and conservation in their jurisdictions 
should be able to apply once for the entire implementation plan and 
receive such funding over a multi-year timeframe. This would allow a 
more predictable budgeting process and make applying for grants much 
more worthwhile. Long telin planning also provides a programmatic 
approach that is attractive to other partners for funding the projects. 
It will allow them to budget appropriately thus magnifying the 
potential for increased involvement and success.
    As shown in this testimony, agriculture is an important component 
of this nation's economic base and vital to a safe and secure food 
supply. As the irrigation structures needed to supply water to the farm 
continue to age and the demand for a clean and reliable water supply 
for farms, cities, and the environment continues to increase, it is 
critical that federally owned facilities be rehabilitated and updated 
with the help of federal funds. Modification of the SECURE Water Act is 
one way to accomplish this objective by leveraging limited federal 
dollars with non-federal funding through cooperative partnerships with 
entities such as the Columbia Basin Project.
    Thank you for considering our views. If the Committee has any 
questions regarding this matter, we are willing to work with committee 
staff to answer those questions.

                                    

      

</pre></body></html>
